<html>
<title> - RELIGIOUS PERSECUTION IN SUDAN</title>
<body><pre>[Senate Hearing 105-280]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-280

 
                     RELIGIOUS PERSECUTION IN SUDAN

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                           September 25, 1997

                               __________

       Printed for the use of the Committee on Foreign Relations




                     U.S. GOVERNMENT PRINTING OFFICE
 43-816 CC                 WASHINGTON : 1998



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman

RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas

                     James W. Nance, Staff Director

                 Edwin K. Hall, Minority Staff Director

                                 ______

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                   JOHN, ASHCROFT, Missouri, Chairman

ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
BILL FRIST, Tennessee                PAUL S. SARBANES, Maryland

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

Cox, Baroness, Deputy Speaker, The House of Lords, London, 
  England, and President, Christian Solidarity International, 
  United Kingdom.................................................    20
    Prepared statement...........................................    25
Nikkel, Reverend Marc, Episcopal Mission Worker, Episcopal Church 
  of Sudan, Diocese of Bor, Nairobi, Kenya.......................    31
    Prepared statement...........................................    34
Rone, Jemera, Counsel, Human Rights Watch, Washington, DC........    36
    Prepared statement...........................................    40
Smith, Gare, Deputy Assistant Secretary of State for Democracy, 
  Human Rights, and Labor........................................     5
    Prepared statement...........................................    10

                                Appendix

Excerpt from--Behind The Red Line: Political Repression in Sudan 
  (Prepared by: Human Rights Watch/Africa........................    51




                     RELIGIOUS PERSECUTION IN SUDAN

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 1997

                                   U.S. Senate,    
                       Subcommittee on African Affairs,    
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John 
Ashcroft, chairman of the subcommittee, presiding.
    Present: Senators Ashcroft and Feingold.
    Senator Ashcroft. The committee will come to order.

  OPENING STATEMENT OF HON. JOHN ASHCROFT, U.S. SENATOR FROM 
                            MISSOURI

    Senator Ashcroft. I want to welcome all of you here today, 
both the witnesses, some of whom have travelled great distances 
to be with us, and interested individuals.
    Sudan has become a priority for me, as chairman of the 
African Affairs Subcommittee, and this hearing will focus on 
one of the great tragedies in Sudan.
    Religious persecution is a thread that runs through the 
civil conflict and social upheaval that have occurred in Sudan 
over the last 4 decades. I would like to begin this morning 
with a brief video segment. A number of organizations have 
produced videos and this is just one of them. I do not think it 
would pay for us to try to do a variety of them.
    I believe ``NBC Dateline'' recently had a video that 
focused exclusively on religious persecution. This item by 
``Global Countdown 2000'' is a little broader in its approach. 
It tells a story about the broader set of concerns in the 
conflict.
    I noted that CBN television had also done a video.
    After we have watched the video, I will proceed to welcome 
the statements of witnesses after opening statements by members 
of the committee.
    Because we have but one screen, I would invite anyone who 
is not in a position to see the screen to move, and that 
includes members of the committee.
    We will take about 5 minutes for this video.
    [A video was shown]
    Senator Ashcroft. In a post cold war world, where 
individual liberty has been advanced and democracy has taken 
root around the globe, it is easy for us to forget that tyranny 
still exists in many countries where millions are subjected to 
cruel dictatorships and brutal military regimes.
    From all the information that I have been able to gather, 
Sudan is one such country. It is the largest country in Africa 
in size. Sudan has had the historical potential to serve as a 
bridge and stabilizing link between the Middle East and Africa. 
Tragically, this country of great potential has been wracked by 
a civil war inflamed by religious and ethnic hatred for much of 
its history since independence in 1956.
    The Subcommittee on African Affairs held a hearing on 
``Sudan and Terrorism'' in May 1997, in which Sudan's 
sponsorship of international terrorism was discussed. The 
subject of this hearing will be the war of persecution Sudan is 
waging against its own people. Sudan's support for the most 
violent terrorist organizations in the world is intolerable. 
But I must say that the atrocities committed by the government 
in Khartoum against the Sudanese people are even more 
outrageous and shocking.
    Sudan's behavior draws what is all too frequently a link 
between the way regimes are willing to treat their own people 
and the designs and intentions they harbor for those beyond 
their borders.
    After overthrowing a democratically elected government in 
1989, the military regime of Omar al-Bashir has turned the 
civil war against southern Sudan into a jihad, or holy war. The 
government attacks and persecutes all Sudanese who do not 
ascribe to the government's brand of Islam--a brand of Islam 
rejected by the vast majority of practicing Muslims.
    More than 1.5 million civilians have died since the civil 
war was reignited in 1983, with over 4 million more being 
displaced by the fighting. An estimated 430,000 refugees have 
fled Sudan to seek safety in neighboring countries.
    Human rights organizations working in Sudan have testified 
before Congress that the government uses ``aerial bombardment 
and burning of villages, arbitrary arrests, torture, slavery, 
especially child slavery, hostage taking, summary executions, 
inciting deadly tribal conflict, the abduction and brainwashing 
of children, the arrest of Christian pastors and lay church 
workers, and the imprisonment of moderate Muslim religious 
leaders'' to suppress dissent and form a radical Islamic State.
    Being a Muslim does not guarantee freedom from religious 
persecution. Only those who accept the government's particular 
brand of religious extremism are spared harassment and torment. 
Major Muslim political parties were banned along with all 
political parties in 1989, and the Muslim sects upon which 
these parties are based have been harassed by the government.
    Muslim imams who criticize the government are incarcerated 
and Muslim ethnic groups in the north, such as the Beja, are 
attacked by government forces, their children sold into slavery 
or drafted to fight in the civil war against the south. As in a 
number of Arab countries, Sudanese citizens who repudiate Islam 
are subject to the death penalty.
    The government has armed militia groups to serve as its 
proxy in terrorizing the Sudanese people. The Dinka, the 
largest ethnic group in southern Sudan, have been the target of 
genocidal policies characterized by the government as 
``draining the sea so the fish cannot swim.'' The slaughter of 
perhaps 500,000 Dinka and the scorched earth policies of 
government forces have transformed the face of southern Sudan.
    As Human Rights Watch Africa reports, ``The deepest 
conflict is between the government and the Christian 
churches.'' High officials in the Sudanese Government have 
referred to Christians as the ``infidel crusaders'' and enemies 
of Sudan. Christian churches are suspected by the government of 
being sympathetic to the rebel Sudan People's Liberation Army, 
and church leaders are singled out for detention, security 
surveillance, and even execution.
    During this decade, Reverend Paul Agilti, an Episcopalian 
clergyman, was murdered along with one of his parishioners at 
his church near Bor in Eastern Equatoria. Reverend Agilti's 
body was dismembered by the government soldiers. Earlier in the 
decade, Pastor Haroun of the El Nugra church in the Nuba 
Mountains was crucified by government troops, and churches in 
Dellami, Haiban, Gorban, Umdurain, and Buram have been burned, 
with the leaders and members of those churches being killed or 
tortured. One 40-year-old pastor, Kamal Tutu, was thrown into 
the embers of his burning church, losing his lower arms and 
feet to the fire.
    People of all faiths should be outraged and grieved by what 
has happened in Sudan. The humanitarian catastrophe, driven by 
religious and ethnic hatred in Sudan, is comparable in scope to 
the tragedies of Somalia, Rwanda, and Bosnia combined.
    We cannot forget that these statistics represent families, 
mothers, fathers, sons, daughters--families like ours, yours 
and mine, that have been shattered by war and crushed by 
sorrow.
    This week is an appropriate time to consider religious 
persecution in Sudan. September 28 marks the beginning of a 
season of prayer for the persecuted church. This time of prayer 
will culminate in the United States with a day of prayer for 
the persecuted church on November 16.
    The Sudanese people do not seek for the United States to 
remake their country in our image, but they desperately need 
U.S. policies to help them throw off the yoke of military 
dictatorship which is crippling their culture and society. It 
is not enough to be outraged by what has happened in Sudan. The 
United States must be motivated to confront and isolate the 
rogue government in Khartoum responsible for inflicting untold 
misery on its citizenry.
    I am pleased now to call upon Senator Russell Feingold, who 
is the ranking minority member of the subcommittee. Senator 
Feingold.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman. As I believe you 
already pointed out, this is the second Africa Subcommittee 
hearing we are holding on Sudan, a followup to what was a very 
informative hearing on terrorism in the Sudan back in May.
    Today we are considering in particular religious 
persecution in Sudan, which is an equally important topic. Let 
me apologize in advance if I am unable to stay for the second 
panel. I very much appreciate their participation. But there is 
something I must do at some point later on.
    Mr. Chairman, the problems we face in Sudan today are among 
the most vexing on the African Continent. During its more than 
40 years of independence, Sudan has only seen about 11 years of 
peace. In its place, a brutal civil war between the north and 
the south rages on. This seemingly endless conflict has taken 
the lives of more than 1.5 million people and, as you have 
indicated, resulted in well over 2 million displaced persons or 
refugees. Young children are taught early how to use a gun, and 
most of them have, unfortunately, had the opportunity to do so.
    Throughout this conflict, both sides continue to engage in 
all too frequent human rights violations. According to the most 
recent State Department human rights report, the Khartoum 
Government maintains not only regular police and army units but 
also internal and external security organs, a militia unit, and 
a parallel police, called the Popular Police, whose mission 
includes enforcing ``popular social behavior.''
    The report notes that the government forces have been 
responsible for extrajudicial killings, disappearances, forced 
labor, slavery, and forced conscription of children. Imposition 
of Islamic law on non-Muslims is far too common.
    At the same time, according to a 1996 report from the 
United Nations Special Rapporteur, religious leaders, including 
Muslims, who do not conform to official policy, can be 
subjected to measures of harassment, curbs on freedom of 
movement, arrest, arbitrary detention and ill treatment. 
Various Muslim brotherhoods are said to be subjected to 
discriminatory attitudes and policies.
    There are also numerous reports of human rights abuses in 
the rebel held areas. Amnesty International reports that last 
year, soldiers from the Sudan People's Liberation Army, or 
SPLA, committed gross violations including torture and 
deliberate and arbitrary killings of captured prisoners and 
unarmed civilians.
    Clearly, Sudanese citizens do not enjoy those basic 
freedoms that we can take for granted--freedom of assembly, of 
association, of privacy, of religion.
    In an effort to raise international awareness of this 
situation, the United States has, for 5 years in a row now, 
introduced resolutions condemning Sudan under the auspices of 
the United Nations Human Rights Commission as well as in the 
United Nations General Assembly. These resolutions have 
highlighted the range of human rights abuses and abrogation of 
civil liberties that we know take place in Sudan, including, of 
course, the subject of our hearing today, the persecution based 
on religious beliefs.
    I fully commend these efforts because I think these 
resolutions, while clearly not as significant as, say, for 
example, a Security Council resolution, nevertheless still send 
a tremendously important signal.
    Let me just read very briefly, Mr. Chairman, some of the 
preamble of this year's UNHRC resolution.

    The Commission on Human Rights, noting with deep concern 
reports of grave human rights violations and abuses in the 
Sudan, particularly detention without trial, forced 
displacement of persons and torture, as described inter alia, 
in numerous reports submitted to the General Assembly and the 
Commission on Human Rights; expressing concern about reports of 
religious persecution, including forced conversions of 
Christians and animists in government-controlled areas of the 
Sudan; gravely disturbed that the government has not provided 
full and impartial investigations and reports on human rights 
violations and abuses; deeply concerned about continued reports 
of slavery, servitude, the slave trade and forced labor, the 
sale and trafficking of children and their abduction and forced 
internment, often at undisclosed locations; also concerned 
about reports of ideological indoctrination or cruel, inhuman 
or degrading treatment, especially but not exclusively 
affecting displaced families and women and children, belonging 
to racial, ethnic, and religious minorities

----and so on.
    Mr. Chairman, This isn't even half of the preamble. It goes 
on and on and on, detailing the abuses that take place in the 
Sudan. These findings are followed by 28 ``resolved'' clauses 
expressing the outrage and concern of the commission.
    Because of the gravity of the situation, the Secretary of 
State made what I thought was a wise decision, to send Deputy 
Assistant Secretary Gare Smith, whose testimony we will hear 
shortly, to Sudan in July of this year. Mr. Smith was the 
highest level U.S. diplomat to go to Sudan in several years. I 
hope his rank made clear to the Sudanese Government just how 
seriously we take the human rights situation in that country.
    The Secretary has also just announced her decision to 
reopen the embassy in Khartoum in an effort to increase 
diplomatic pressure on the regime.
    Now while I support her desire to include diplomacy among 
the tools at her disposal, I would note that I hope this move 
in no way signals a weakening of our policy toward the Sudan. 
In fact, I know the chairman and I both agree that the United 
States should take the toughest line possible with respect to 
Sudan.
    The United States cannot and will not tolerate the 
disrespect for fundamental human rights that is apparent in 
Sudan.
    So once again, Mr. Chairman, I thank you for your strong 
leadership on this issue and I look forward to hearing from the 
witnesses.
    Senator Ashcroft. I thank Senator Feingold for his 
diligence, his speech, and his research. The recitation from 
the preamble of the United Nations report is a chilling 
recitation.
    It is now my pleasure to welcome Mr. Gare Smith, the Deputy 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor.
    Mr. Smith is the highest ranking U.S. official to visit 
Sudan in years, having journeyed to the country in July 
specifically to address human rights issues.
    Mr. Smith, thank you for coming. We look forward to your 
testimony.

 STATEMENT OF GARE SMITH, DEPUTY ASSISTANT SECRETARY OF STATE 
             FOR DEMOCRACY, HUMAN RIGHTS, AND LABOR

    Mr. Smith. Thank you very much, Mr. Chairman, and thank 
you, Senator Feingold. It is certainly an honor to be here with 
you all this morning.
    The issue of religious persecution in Sudan is a very 
troubling one. It is troubling to those of you in Congress. It 
is troubling to those of us in the administration. Your video 
clearly identifies that it is increasingly troubling to 
American citizens throughout our country.
    I think this hearing is an excellent opportunity to 
emphasize to the Government of Sudan, which I am sure has 
representatives sitting somewhere behind me, the deep 
commitment that all of us share in respect for internationally 
recognized human rights. I look forward to working with all the 
members of this committee to improve the very bleak human 
rights situation in the Sudan.
    Since I have been asked to keep my comments brief, I would 
request that my written testimony be made part of the record 
and I will condense what I have to say right now.
    Before addressing specifics having to do with the Sudan, I 
would like to emphasize that this administration is committed 
to engaging the United States in a global effort to prevent 
religious persecution in the Sudan and elsewhere. President 
Clinton and Secretary Albright have emphasized that religious 
freedom is a universally recognized, inalienable, and 
fundamental human right which is inherent to the dignity of 
every human being.
    There are three particular initiatives that we in the State 
Department have taken in the last year or two to promote this 
commitment. First, just recently, last year, the President and 
Secretary Albright created the Advisory Committee on Religious 
Freedom Abroad. This is composed of distinguished religious, 
academic, and advocacy leaders of the major religions here in 
the United States.
    The committee has held a large number of meetings and 
hearings on both religious persecution and reconciliation and 
is preparing policy recommendations to the President and to the 
Secretary of State.
    Second, Secretary Albright has instructed all diplomatic 
posts to give greater attention to religious freedom both in 
reporting and in advocacy. As I am sure both of you are aware, 
my bureau, the Bureau of Democracy, Human Rights and Labor, 
every year puts out this document (indicating), which is the 
annual human rights report, which details religious persecution 
and respect for fundamental freedoms in all countries and 
territories of the world. Recently, the Secretary has asked us 
to particularly highlight the religious freedom aspects and to 
expand upon them.
    Third, this year we issued an unprecedented report titled 
``U.S. Policies in Support of Religious Freedom: Focus on 
Christians.'' This report details efforts by the U.S. 
Government on behalf of victims of religious persecution around 
the world and has a particular focus on Christians.
    I would like to request that the Sudan section of this 
report be made a part of the official record of this hearing.
    Senator Ashcroft. Without objection, so ordered.
    Mr. Smith. Thank you.
    [The information referred to follows:]

 Excerpt From United States Policies in Support of Religious Freedom: 
                          Focus on Christians

Sudan
    Current situation: Although the military regime in Sudan has stated 
that all religions should be respected, in practice the Sudanese 
Government treats Islam as the de facto state religion. Forced 
conversion to Islam of Christians, animists, and other non-Muslims 
takes place as part of government policy. The 14-year-old civil war 
between the mainly Islamic north and the largely animist and Christian 
south has claimed more than a million lives. In war zones, government 
efforts to restrict religious freedom are particularly heavy-handed--
churches are closed or permission to build them is denied, clergy are 
harassed, and members of indigenous faiths are persecuted. There are 
reports that many Christians are victims of slave raids and forced 
conversion, and that some Christian children have been forced into 
reeducation camps where they are given Arab names and raised as 
Muslims.
    U.S. Government actions: The United States has been at the 
forefront of efforts to highlight and seek rectification of continuing 
systematic human rights abuses, including religious persecution. At the 
1997 UNHRC, the United States led efforts to adopt a resolution 
strongly condemning Sudan's human rights record, including religious 
persecution and forced conversion of Christians and animists. In 1996 
the U.S. Government led efforts to pass tough resolutions at the UNHRC 
and the UNGA to condemn Sudan for human rights abuses and to urge 
redress.
    At the UNHRC, the U.S. delegation helped secure from the Sudanese 
Government an invitation to visit the country for the U.N. Special 
Rapporteur for Human Rights in Sudan, whom the Government had barred 
from visiting for two years. In his February 1996 report, the 
Rapporteur concluded that people of all faiths ``are equally exposed to 
violations and abuses'' stemming from the civil war. The Rapporteur's 
report cited the ``severe religious persecution of Christians'' in 
government-controlled major towns, especially Kadugli and Dilling. To 
stem these abuses the U.S. Government continues to play a leading role 
in efforts to obtain a negotiated settlement of the civil war.
    In 1996 the U.S. Ambassador expressed U.S. concerns about religious 
freedom, including reports of the persecution of Christians, to 
Sudanese officials, including the Minister of Justice and the 
Rapporteur of Sudan's Advisory Council on Human Rights. The Ambassador 
also traveled to Juba, a city in southern Sudan and a garrison town of 
the Government. He met with a large group of southern clergy--Muslims, 
Anglican bishops, and Catholics, and with Governor Agnes Lokudu, a 
practicing Christian Dinka woman and government official who has strong 
influence in the region. The U.S. Government has received reports 
attesting to persecution of Christians, as well as reports from Lokudu 
asserting that Christians are not persecuted in areas under her 
jurisdiction.
    The United States suspended its resident diplomatic presence in 
Sudan in February 1996. Infrequent visits to Sudan by the Ambassador 
and the absence of a reporting staff limit the ability of the U.S. 
Government to identify emergent human rights situations.

    Mr. Smith. I believe that these initiatives illustrate the 
great importance that this administration attaches to the issue 
of religious freedom worldwide. I would like now specifically 
to address Sudan.
    Mr. Chairman, as you recently said, I travelled to Sudan in 
July. I was wearing two hats, one hat in my capacity as Deputy 
Assistant Secretary in the Bureau of Democracy, Human Rights, 
and Labor, and another hat as a representative of the 
Secretary's Advisory Committee on Religious Freedom Abroad.
    The key objective of my trip was to express United States 
concern about religious persecution and other ongoing human 
rights abuses perpetrated by the Government of Sudan. I was 
joined in my trip by our U.S. Ambassador, whose name is Timothy 
Carney. He is one of the best ambassadors we have, Mr. 
Chairman. If you or Senator Feingold find the opportunity ever 
to travel to Sudan yourselves to investigate some of these 
problems, I think you will be very well served by Timothy 
Carney.
    We met with the President of Sudan, President Bashir, the 
Speaker of the National Assembly, Dr. Al Turabi, the Foreign 
Minister, the Chief Justice of the Supreme Court, and all of 
the major religious leaders. We also met with human rights 
advocates and we went down to the south where we met with the 
leaders of the Sudanese People's Liberation Movement. We 
travelled both to Khartoum and to towns that had recently been 
retaken by the south, such as Rumbek.
    We found, much as you and Senator Feingold have indicated, 
a human rights situation in Sudan that can best be described as 
deplorable. Both the government and the insurgents have 
committed serious human rights abuses during the 14-year-old 
civil war between the mainly Islamic north and largely 
Christian and animist south. Civilians have paid the greatest 
price in this war. Rape has been used as a tool of war, land 
mines have been used indiscriminately around towns, and 
children have been abducted and used as soldiers by both sides.
    The war has claimed more than 1.5 million lives.
    We sent a strong message to the Khartoum Government to 
terminate its involvement in terrorism, seek a peaceful 
resolution to the civil war, and cease its human rights abuses, 
particularly discrimination of religion.
    Religious liberty necessitates free speech, freedom of 
assembly, and freedom of association. These conditions simply 
do not exist in the Sudan.
    The Government of Sudan restricts freedom of assembly, 
association, religion, privacy, and movement. Although Sudanese 
law recognizes Sudan as a multi-religious country, in practice 
the government treats Islam as the State religion. The Sudanese 
Government has instituted its own version of Islamic Shari'ah 
law and has a policy of impeding any non-Islamic religious 
expression. I emphasize ``its own version,'' much as I noticed 
you did in your testimony, Mr. Chairman, because when I was 
there, I met with a large number of Muslims who felt that they 
too were persecuted on the basis of their religious beliefs. 
They indicated that the government was very extreme and did 
not, in fact, represent Islam.
    The forced Islamization of Christians, animists, and other 
non-Muslims is standard government policy in the Sudan. In 
government-controlled areas of the south, we have documented 
credible evidence of a policy of Islamization of public 
institutions. Some non-Muslims have lost their jobs in the 
civil service, the judiciary, and other professions. Few non-
Muslim university graduates find government jobs. Non-Muslim 
businessmen complain of harassment and discrimination by the 
government, and there are reports that Muslims receive 
preferential treatment for limited government services, 
including access to medical care.
    Perhaps the most dramatic example of religious intolerance 
and persecution is the 1991 apostasy laws, which state that 
conversion by Muslims to non-Islamic religions is punishable by 
death.
    Paul Marshall's book, Their Blood Cries Out, and 
publications by Christian Solidarity International and several 
other NGO's describe in sad detail some of the horrible 
persecutions endured by Christians in Sudan.
    Churches have been closed, Christian children have been 
forced into reeducation camps where they are given Arab names 
and raised as Muslims. Many Christians have been victims of 
slave raids and forced conversions.
    In all of our meetings with Sudanese Government officials, 
I stressed the deep concern throughout the U.S. Government 
regarding these abysmal human rights violations. I also 
emphasized that what we were discussing were universal norms. 
These are not U.S. values that we are seeking to impose on the 
people of Sudan. These are norms that the international 
community has embraced and articulated in the Universal 
Declaration of Human Rights.
    Because religious persecution and other human rights abuses 
in the Sudan are closely related to the civil war, our 
government has played a leading role in efforts to obtain a 
negotiated settlement. During my mission, I pressed Khartoum to 
seek a diplomatic resolution through the peace process. 
Ambassador Carney continued to do so in the weeks following my 
trip.
    I am very pleased to report that just this Monday, the 
Sudanese Government and the SPLM issued a joint communique in 
which they pledged to participate in peace talks in Nairobi in 
late October. This is a tremendous breakthrough.
    The administration has also taken several steps to achieve 
our other policy goals with respect to Sudan. In 1993, we 
placed Sudan on the terrorist list and imposed a series of 
unilateral sanctions consistent with that designation. The 
administration is also actively considering the imposition of 
additional unilateral economic sanctions against Sudan.
    We are willing to consider a reasonable and workable 
expansion of sanctions to reflect lack of progress by the 
Sudanese Government in the areas of terrorism and in human 
rights.
    I would note that we have also worked multilaterally in 
this arena. The U.S. has led international efforts to isolate 
Sudan for its egregious human rights practices. At the U.N. 
Human Rights Commission, we have introduced and gained 
consensus agreement on a condemnatory resolution on Sudan's 
human rights record every year since 1993. This past session, 
the U.S. co-sponsored a consensus resolution strongly 
condemning religious persecution and particularly forced 
conversions. In fact, I was the co-head of delegation this year 
and was personally involved with that resolution.
    Last year, we succeeded in pressuring the Sudanese 
Government to readmit the U.N. Human Rights Rapporteur for 
Sudan, Gaspar Biro. Mr. Biro has cited severe religious 
persecution in government controlled areas in his reports. He 
has also cited the forced religious indoctrination of children 
and denial of food and facilities to refugees who refuse to 
convert to Islam.
    In his February 1997 report, Mr. Biro concluded, and I 
quote, ``The situation regarding the freedom of religion and 
conscience has further deteriorated.''
    In recent years, the United States has also introduced two 
successful resolutions at the United Nations General Assembly 
calling for an end to human rights violations, including 
religious persecution and slavery. We plan to continue our 
efforts to draw international attention to these human rights 
violations.
    Mr. Chairman, in closing, I want to reiterate that this 
administration is firmly committed to combating religious 
persecution in the Sudan. We do not claim to have all the 
answers as to how to most effectively insure respect for 
religious freedom. But we are working on all bilateral and 
multilateral fronts to promote this and other fundamental 
freedoms.
    We look forward to working very closely with you and other 
members of the subcommittee to combat religious persecution and 
to strengthen respect for religious freedom in the Sudan.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

 Prepared Statement of The Hon. Gare Smith, Deputy Assistant Secretary 
         of State, Bureau of Democracy, Human Rights and Labor

    Mr. Chairman and Subcommittee Members, thank you for the 
opportunity to participate in this important hearing on the very 
troubling issue of religious persecution in Sudan. Your leadership is 
critical to casting a spotlight on the serious human rights abuses in 
Sudan. This hearing is an excellent opportunity to emphasize to the 
Government of Sudan our deep commitment to respect for internationally 
recognized human rights. I look forward to working closely with you and 
this committee to improve the bleak human rights situation in Sudan.
    Before turning to specifics of Sudan, I would like to emphasize 
that this Administration is committed to engaging the United States in 
a global effort to prevent religious persecution. Secretary Albright 
has stated that: ``Our commitment to religious liberty is even more 
than the expression of American ideals: it is a fundamental source of 
our strength in the world. We simply could not lead without it. We 
would be naive to think that we could advance our interests without 
it.''
    Religious freedom is a universally recognized, inalienable and 
fundamental human right inherent in the dignity of every human being. 
President Clinton and Secretary Albright have made clear that advancing 
religious freedom is a foreign policy priority of the United States. 
Very briefly, here are three of the initiatives we are taking globally 
to implement this commitment.
    Last year, the President and Secretary Albright created the 
Advisory Committee on Religious Freedom Abroad, which is composed of 
distinguished religious, academic, and advocacy leaders. The Committee 
has held extensive hearings on both religious persecution and 
reconciliation and is preparing policy recommendations to the President 
and Secretary.
    Second, Secretary Albright, in a series of worldwide cables, has 
instructed all United States diplomatic posts to give greater attention 
to religious freedom, both in their reporting and in their advocacy. In 
practical terms, this means that the Secretary of State is telling 
State Department employees and foreign governments alike that religious 
liberty is a key component of our human rights policy. The State 
Department reports publicly on religious persecution in our annual 
Country Reports on Human Rights Practices, which provides information 
on 194 countries and territories, with specific sections on religious 
liberty, which have been expanded by this Administration to include 
greater detail on religious persecution.
    Third, this year we issued an unprecedented report on U.S. Policies 
in Support of Religious Freedom: Focus on Christians. This report 
details recent United States action taken on behalf of victims of 
religious persecution around the world, with a focus on Christians. I 
would like to request that the Sudan section of this report be made a 
part of the official record of this hearing.
    Now, to Sudan. Mr. Chairman, I recently traveled to the Sudan on 
behalf of the Bureau for Democracy, Human Rights and Labor, and the 
Secretary of State's Advisory Committee on Religious Freedom Abroad, to 
express United States concern about religious persecution and other 
ongoing human rights abuses perpetrated and/or sanctioned by the 
Government of Sudan. Given the poor state of current relations, I was 
the most senior State Department official to visit Sudan in three 
years.
    Sudan is presently the only country in Sub-Saharan Africa that 
poses a direct threat to United States national security interests. The 
current Sudanese regime provides support for terrorist organizations 
and activities, works to destabilize neighboring states friendly to the 
United States, violates the human rights of its people, continues a 
deadly civil war, and maintains an authoritarian system of government.
    United States policy is to pressure and isolate the Sudanese regime 
and to seek to contain the threat it poses to United States interests. 
We hope such pressure may compel the regime to modify its behavior.
    The human rights situation in Sudan remains extremely poor. Both 
the government and insurgents have committed serious human rights 
abuses during the 14-year-old civil war between the mainly Islamic 
north and the largely Christian and animist south. This war has claimed 
more than a million and a half lives. We continue to press the Sudanese 
government to terminate its involvement in terrorism, to seek an end to 
the civil war, and to cease systematic human rights abuses, including 
the practice of religious persecution.
    In terms of human rights issues in general, we have detailed in the 
Country Reports that government forces, led by the National Islamic 
Front (NIF), have been responsible for extrajudicial killings, 
disappearances, forced labor, slavery, and the forced conscription of 
children. Government security forces have regularly harassed, 
arbitrarily arrested and detained, tortured, and beaten opponents or 
suspected opponents of the government with impunity. Prison conditions 
are harsh, the judiciary is largely subservient to the government, the 
authorities do not ensure due process, and the military summarily tries 
and punishes citizens.
    Concurrently, the civil war has had tragic consequences for the 
Sudanese people, including the use of rape as a tool of war by both 
sides of the conflict, the indiscriminate use of landmines, and child 
abductions. The overall human rights picture is bleak, and problems for 
religious minorities persist.
    Mr. Chairman, religious liberty necessitates free speech, and 
freedom of assembly and association, conditions that do not exist in 
Sudan. The Government of Sudan restricts freedom of assembly, 
association, religion, privacy, and movement. Although Sudanese law 
recognizes Sudan as a multireligious country, in practice, the 
government treats Islam as the state religion. The Sudanese government 
has instituted its own version of Islamic Shari'a law and has a policy 
of impeding any non-Islamic religious expression. Forced Islamization 
of Christians, animists, and other non-Muslims takes place as part of 
government policy. In government-controlled areas of the south, we have 
documented credible evidence of a policy of Islamization of public 
institutions. Some non-Muslims have lost their jobs in the civil 
service, the judiciary, and other professions. Few non-Muslim 
university graduates find government jobs. Some non-Muslim businessmen 
complain of petty harassment and discrimination in the awarding of 
government contracts and trade licenses. There are also reports that 
Muslims receive preferential treatment for the limited services 
provided by the government, including access to medical care. But 
perhaps the most dramatic example of religious intolerance and 
persecution is the 1991 apostasy law that states that conversion by 
Muslims to nonIslamic religions is punishable by death.
    Paul Marshall's book, Their Blood Cries Out, and publications by 
Christian Solidarity International, the Institute on Religion and 
Democracy, and other nongovernmental organizations describe in sad 
detail some of the horrible persecutions endured by Christians in 
Sudan. Churches have been closed, Christian children have been forced 
into reeducation camps where they are given Arab names and raised as 
Muslims, and many Christians are victims of slave raids and forced 
conversions.
    At this point in my testimony, I would like to note for the record 
that religious persecution in the Sudan is not limited to persecution 
of Christians. Animists, and even Muslims who are not considered to be 
in line with the government's vision of Islamic orthodoxy, are subject 
to persecution.
    We have an excellent U.S. Ambassador to Sudan, Timothy Carney, who 
is stationed in Kenya and makes regular visits to Khartoum. He 
continues to emphasize our serious concerns regarding the Sudanese 
government's lack of respect for universal human rights, including 
religious freedom. I would note that his task is made even more 
difficult by the Sudanese government's continued support for 
international terrorism and the consequent downturn in relations 
between our two governments.
    As I mentioned earlier in my testimony, I conducted a human rights 
mission to the Sudan in July. Ambassador Carney joined me for much of 
that trip. We met with President Omar al Bashir, Speaker of the 
National Assembly Dr. Hassan al Turabi, Foreign Minister Ali Osman 
Mohammed Taha, Chief Justice of the Supreme Court Obeid Haj Ali, 
Minister of External Relations Ali Osman Taha, and the Commissioner of 
the Slavery and Disappearances Commission.
    In all meetings with Sudanese officials, I stressed that there is 
broad and deep concern throughout the U.S. Government--in the Executive 
Branch and in Congress--about the abysmal state of human rights in 
Sudan. I informed them that the President and Secretary of State have 
established an Advisory Committee on Religious Freedom, and that the 
State Department had just published a report on the persecution of 
Christians at the request of Congress. I emphasized that at issue are 
universal human rights values, not an effort by the United States to 
impose its own values.
    My discussions focused on credible reports of religious 
persecution, slavery, forced conversions and female genital mutilation. 
I pressed hard for an end to government-sponsored and government-
sanctioned human rights abuses and religious persecution. Specifically, 
I urged the government to adopt initiatives to permit and support: 
human rights observers in areas of conflict; family reunification; 
rule-of-law (including the suspension of laws on preventive detention); 
prosecution and conviction of security and military officials violating 
human rights; an end to the use of landmines; and extended 
investigations by the Commission on Slavery and Disappearances into 
areas controlled by rebel forces.
    Regrettably, virtually all of the government officials with whom I 
met offered a standard response regarding the question of slavery, 
i.e., that it is purely a form of capture for ransom and results from 
traditional tribal warfare. No one disputed my specific charges 
regarding religious discrimination in Sudan.
    On this mission, in addition to Sudanese government officials, I 
met representatives of all major religious denominations, women's 
organizations, and human rights attorneys. I also met with members of 
the opposition Sudan People's Liberation Movement (SPLM) in southern 
Sudan and visited a city recently brought under the control of rebel 
forces, where I gained firsthand knowledge from local residents of 
their experiences under NIF rule.
    In an effort to relieve the suffering of victims of the ongoing 
conflict, the United States provides humanitarian relief primarily 
through non-governmental organizations working under the auspices of 
the United Nations Operation Lifeline Sudan. The principal 
beneficiaries of this assistance are war-affected civilians in southern 
Sudan.
    Mr. Chairman, because religious persecution and other human rights 
abuses in Sudan are closely related to the civil war, the United States 
plays a leading role in efforts to obtain a negotiated settlement. 
During my mission I pressed Sudanese government officials to seek a 
peaceful resolution through the peace process known as the 
Intergovernmental Authority on Development, or IGAD. I am pleased that 
Ambassador Carney has continued that course and persuaded IGAD members 
to reenergize the peace process. On Monday, September 22, the Sudanese 
government and the SPLM issued a joint communique in which they pledged 
to participate in peace talks scheduled to begin in Nairobi on October 
28, 1997.
    The Administration has taken several steps to achieve our policy 
goals with respect to Sudan. In 1993, the Administration placed Sudan 
on the terrorist list and imposed a series of unilateral sanctions 
consistent with that designation. The Administration is actively 
considering the imposition of additional unilateral economic sanctions 
against Sudan, consistent with overall U.S. policy as well as with 
significant concerns expressed by many Members of Congress. We are 
willing to consider a reasonable and workable expansion of sanctions to 
reflect the lack of Sudanese government action on issues of concern 
such as state-sponsored terrorism, aggressive actions against 
neighbors, failure to come to terms with the opposition in the civil 
war, and an abysmal human rights record, including violations of 
religious freedom.
    The U.S. has led international efforts to isolate Sudan for its 
egregious human rights abuses. At the UN Human Rights Commission 
(UNHRC), the U.S. government has introduced and gained consensus 
agreement on condemnatory resolutions on Sudan's human rights record 
annually since 1993. This past session, the U.S. cosponsored a 
consensus resolution strongly condemning religious persecution and 
forced conversions.
    Last year, the U.S. succeeded in pressuring the Sudanese government 
to re-admit the UN Special Human Rights Rapporteur in Sudan, Gaspar 
Biro. Biro had been barred from visiting Sudan for two years. Since 
Biro began his work in April 1993, he has published five public 
reports. In November 1996, he reported that people of all faiths ``are 
equally exposed to violations and abuses'' stemming from the civil war, 
and he cited severe religious persecution in government-controlled 
areas, including the forced religious indoctrination of children, and 
the denial of food and facilities to refugees who refuse to convert to 
Islam. In his February 1997 report, Biro concluded that ``the situation 
regarding the freedom of religion and conscience has further 
deteriorated.'' Biro went to Sudan again this year prior to the UNHRC 
session in March, but departed after only a few days due to security 
reasons.
    In recent years, the United States has also introduced two 
successful resolutions at the United Nations General Assembly calling 
for the end to human rights violations, including religious persecution 
and slavery, by both the Government of Sudan and southern opposition 
groups. The Administration plans to continue efforts to draw 
international attention to Sudanese human rights violations.
    Mr. Chairman, in closing let me reiterate that the Administration 
is firmly committed to combating religious persecution in Sudan. We 
don't claim to have all the answers as to how to most effectively 
ensure respect for religious freedom. But we are working on all 
bilateral and multilateral fronts to promote this and other fundamental 
freedoms.
    We look forward to working closely with you, and other Members of 
this Subcommittee, to combat religious persecution and strengthen 
respect for religious freedom in the Sudan.

    Senator Ashcroft. Thank you very much. I appreciate the 
fact that you would come and appear before us, Mr. Secretary. I 
would be pleased if you could respond to several questions of 
mine.
    You have before you a volume, which is a substantial 
volume, about religious freedom and persecution around the 
world and different human rights violations. How would you 
compare the situation in Sudan to what is happening in other 
countries in terms of persecution?
    Mr. Smith. It's difficult to compare apples and oranges. A 
country may be good in one area and have problems in another. 
But I wouldn't hesitate to state that Sudan has some of the 
most egregious human rights violations in the world. Certainly 
the violation of freedom of religion is paramount among these.
    Senator Ashcroft. You mentioned that you believed there 
would be present in the hearing today representatives of the 
Sudanese Government. Is that your belief?
    Mr. Smith. I'd be very surprised if they weren't here or at 
least listening to us on television.
    Senator Ashcroft. Is it your view, then, that holding 
hearings like this is helpful in raising the level of 
consciousness and developing an awareness of what is happening 
there?
    Mr. Smith. I think it is fundamental to doing so, and the 
administration very much appreciates your leadership in this 
area.
    Senator Ashcroft. You indicated that you very directly 
raised these issues with the Sudanese Government in person. 
We're raising them in absentia here. What was the response of 
Sudanese officials to the kinds of items which I take it you 
have mentioned--slavery, rape, landmines, abductions.
    We send children to camp in the United States, but not the 
kind of camps for children in Sudan. My view is that 
reeducation ``camps'' are an all too easy euphemism for 
kidnapping and brainwashing. Maybe not. But what kind of 
response did the Sudanese officials give you?
    Mr. Smith. I would certainly tend to agree with you in your 
assessment of that, Mr. Chairman.
    It is interesting in that the response I got was rather 
varied. Every member of the Sudanese Government I met with 
emphatically denied that there was any slavery whatsoever in 
the Sudan--period. I could not get past that.
    On the other hand, I was able to be very specific with 
respect to religious persecution and no one was able to deny 
that.
    I cited, for example, that I had met with members of the 
Catholic Church. The Catholic Church has petitioned for 25 
years to build another church in the greater Khartoum area--of 
course, the relevant portion of that period being since 1989, 
when this government came to power. Every single year the 
government has refused to let the Catholic church build a new 
church while, in the meantime, mosques are being built--clearly 
a form of religious discrimination. And the government 
acknowledged that.
    On a less cosmic scale, individuals who are put in jail in 
the Sudan can be released early for memorizing verses from the 
Koran--but not if they memorize verses from the Torah, or if 
they memorize verses from the Bible--again a clear form of 
discrimination. And again, when I brought that forward on a 
specific basis, the government acknowledged that that was, in 
fact, discrimination.
    They tended to downpedal it and say it wasn't very 
important, but they acknowledged specific instances.
    I am glad you mentioned landmines because, while I was 
there, the government emphasized that they were hoping to go 
forward with the peace process. I told them, frankly, that they 
had very little credibility with the United States and the 
international community, because whenever they had previously 
claimed to have interest in the peace process they always ended 
up stepping back from the table. I suggested that they take 
some confidence building measures, such as a unilateral ban on 
the use of landmines. President Bashir expressed a particular 
interest in that. He did not commit the government, but he did 
express a strong interest in ending the use of landmines.
    Those are just some of the responses I got to the issues I 
raised.
    Senator Ashcroft. Yesterday, the most recent chairman of 
the Congressional Black Caucus, Don Payne, sent a letter to the 
President. He said,

    I was extremely disappointed to learn about the State 
Department's decision to restaff our embassy in Sudan. Why are 
we rewarding the National Islamic Front Government by reopening 
the embassy without any tangible evidence of reform? The NIF 
Government continues its war policy in southern Sudan, condones 
slavery, targets innocent civilians, and supports terrorism.

    This does ask a question that I think a lot of people would 
have and I would like to give you an opportunity to respond to 
that question.
    Mr. Smith. Thank you.
    Certainly I share the Congressman's concern that we do not 
want to reward the Khartoum Government for positive actions 
that it has not taken. And, in fact, the way in which we intend 
to staff the embassy would ensure that we don't reward them.
    For one thing, we are making very, very clear, as we are 
again in this hearing, that staffing that embassy is not a 
signal of an improvement in our relationship.
    We are not sending Ambassador Carney back. As I mentioned, 
he is a superb Ambassador, but he is not going back 
specifically because we don't want to add the credibility of 
his presence to our relationship at this point.
    But we have very good reasons for sending personnel back. 
First and foremost is the peace process. As I mentioned, it was 
just literally Monday, a few days ago, that both sides, in a 
joint communique, indicated that they wanted to go forward. It 
is perfectly consistent with our government policy to support 
that peace process, to do everything we can to promote it, and 
we need people on the ground to do that.
    Secondarily, it is very hard to document the human rights 
violations we have been discussing if we don't have anyone on 
the ground. To be specific in our reports, we need to have 
personnel on the ground.
    There is a third reason. We have over 2,000 American 
citizens in the Sudan right now. We also have a number of very 
courageous NGO's, some of which will be testifying after me. 
And in order to be responsive to their needs, particularly in 
cases of emergency, we need to have people on the ground.
    Senator Ashcroft. From your own information, would you say 
that the video which we saw was fairly representative of the 
situation in Sudan?
    Mr. Smith. To the best of my knowledge, that was fairly 
representative. Yes, sir.
    Senator Ashcroft. Thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Mr. Smith, as we already have indicated today, religious 
persecution is only one of the many abuses of human rights that 
have been noted in the Sudan. How can you sort of assess the 
relative importance of the lack of religious freedoms as 
opposed to the absence of other civil liberties? Is this sort 
of at the top of the list? How would you try to compare them?
    Mr. Smith. Senator Feingold, I am very glad that you raised 
that because this is an issue that has come up in the 
international community a good deal--the ranking of universal 
human rights.
    Certainly in terms of our commitment to religious freedom, 
it could not be any higher on the agenda of this 
administration. But we tread on very, very dangerous ground if 
we seek to say which is more important, genocide, the 
separation of families, or freedom of religion. It is a little 
bit like my asking you which of your children you love the 
most. You love them all very much, perhaps in different ways, 
but equally. We feel that in order to keep fundamental norms 
respected worldwide, it is very important to simply say that 
they are all universal, they are all very important, and we 
regard them all highly.
    Senator Feingold. I guess what I was asking was not which 
of the values is more important but which area of abuse is the 
most severe. Surely it is possible that one kind of human 
rights violation would be more prevalent than another.
    Mr. Smith. Right.
    Senator Feingold. I am wondering if the religious freedom 
element would be at the very top of the list or sort of 
comparable to the other aspects of human rights violations.
    Mr. Smith. I would say that it permeates all aspects of 
society there. I mean, it is closely tied to the war. It is 
closely tied, as I mentioned, to the economic situation. You 
cannot have a job in the government in most likelihood if you 
are not a Muslim. It is tied to the economy. It is tied 
certainly to the schooling, to the reeducation camps. So it is 
really pervasive.
    I don't know whether there are more cases of rape than 
there are violations of religious freedom or landmines. And 
these are hard to compare. They are all egregious violations of 
fundamental norms.
    Senator Feingold. Religious persecution is obviously a 
driving principle, though, of the regime.
    Mr. Smith. Absolutely. Absolutely, Senator.
    Senator Feingold. Officially, the Government of Sudan has 
stated that all religion should be respected and that freedom 
of worship is ensured. In the 1996 State Department report, 
however, the Sudan Government is described as having severely 
restricted freedom of religion, treating Islam as the State 
religion, and using Islamic law to inspire the country's laws.
    Could you elaborate a little on that? Which domestic laws 
are most affected by Islamic law?
    Mr. Smith. Well, I think the one that I cited earlier is 
perhaps the most chilling--the apostasy law. If you are a 
Muslim person in the Sudan and you decide that you want to 
become a Christian or you want to become a Buddhist or you want 
to become a member of the Jewish faith, you can be put to death 
for doing that. That is a rather chilling law.
    Other legal punishments include stoning and the chopping 
off of hands. These are really horrific. This is also a key 
element of the war because the people in the south don't want 
to have this form of Shari'ah law imposed on them and they have 
no representation in the government.
    Senator Feingold. We have talked a little bit about the 
fact, and you referred to the fact that Muslim groups also 
experience discrimination in Sudan.
    Could you say a little bit more about examples of 
discrimination against Muslims and how prevalent that is?
    Mr. Smith. Yes, sir.
    I want to emphasize very strongly in my testimony that our 
government, this administration, is not anti-Muslim, anti-
Islam. Islam is one of the great religions of the world. The 
Secretary's Religious Advisory Committee has several Muslim 
members who have made wonderful contributions.
    The form of Islam that the NIF Government perpetuates is 
very unusual. It is very extreme and severe.
    I met with a number of Sunni Muslim leaders in Khartoum who 
said that they were prohibited from worshipping freely. They 
complained that they were harassed when they sought to expand 
their forms of religious worship, that it was harder for them 
to obtain permission to have their mosques built, and that they 
were discriminated against in the employment sector inasmuch as 
they were prohibited from being government employees if they 
didn't subscribe to the NIF's form of Islam.
    Senator Feingold. Do the death penalty provisions having to 
do with conversion apply to converting from one type of Islam 
to another?
    Mr. Smith. Not to my knowledge, Senator.
    Senator Feingold. Do Sudanese citizens face obstacles--and 
I think you have already alluded to this, but I would like more 
on the record--with regard to job placement, education, or 
business opportunities as a result of religious beliefs?
    Mr. Smith. Absolutely.
    There are a few non-Muslims in the government to whom all 
of the other government members will point and say, ``We have a 
Christian. Look, right over there, he's in that office. Go talk 
to him.'' Or, ``We have some churches down the street. Walk 
around Khartoum and you will see it is a multiethnic society 
and we respect freedom of religion.''
    It is easy for them to point out examples because they make 
sure that there are a couple around. But when you look at the 
way the law is interpreted, the way policies are interpreted, 
there is no question that there is a pattern of gross 
discrimination.
    Senator Feingold. Some say that Sudan's Islamic policies 
are less restrictive than other countries, such as Saudi Arabia 
and Egypt. They argue, for example, that women are not forced 
to cover their faces or bodies.
    Do you agree with that assessment? Do Sudanese women face 
restrictions on travel and employment? If you would, say a 
little bit about the status of women in Sudan.
    Mr. Smith. Sure. I am glad you brought that up.
    Anyone who walks the streets of Khartoum will see that not 
all women have their faces covered with veils. Some do. That 
may be a matter of choice.
    But there certainly are factors limiting women's 
fundamental rights. For example, women in the Sudan are not 
allowed to travel internationally without a male companion.
    Incidents of domestic violence against women are very high 
in the Sudan. I met with some women advocates who were seeking 
to end the use of female genital mutilation in the Sudan. By 
most estimates, 90 to 95 percent of the women in the Sudan have 
undergone female genital mutilation. That is just an incredibly 
high percentage of the female population.
    The Government of Sudan, interestingly enough, promised 
these women activists that it would seek to end female genital 
mutilation by the year 2000. I don't know why it did that 
because it has made no effort to follow through on this 
commitment. It is not against the law to perform female genital 
mutilation and, although the government controls all elements 
of the media--the newspapers, the television, the radio--it has 
never launched a campaign to end it. So I would say that that 
inertia really reflects how seriously the government intends to 
undertake this effort.
    Senator Feingold. Thank you.
    You represented the U.S. at the Human Rights Commission 
meeting earlier this year, I believe, as you indicated.
    Mr. Smith. Yes, sir.
    Senator Feingold. Say a little bit about your experience 
there in getting that Sudan resolution passed. In particular, 
what are the views of our allies with respect to the human 
rights situation in Sudan?
    Mr. Smith. I am pleased to say that our allies take the 
situation in Sudan very seriously. I was able to work very 
closely with our allies not only in Europe, with our 
traditional Western allies, but with representatives of nations 
all over the world, including Asia and Africa.
    I would emphasize that this resolution passed unanimously. 
We had no countries disagreeing with our assessment and our 
concerns regarding fundamental human rights.
    That is the way it has been every single year we have 
brought that resolution. So it is clear that the international 
community has deep concerns about these issues.
    Senator Feingold. Finally, Mr. Chairman, I just have one 
more series of questions and comments. And, again, I apologize 
that I have to leave after this and want to thank all the 
witnesses.
    I just want to return to a subject that the chairman 
mentioned, and that is an item that I mentioned in my initial 
comments, which is the reopening of the embassy in Khartoum.
    The first comment I want to make is I think we would 
appreciate getting a little more notice of this happening. I am 
concerned about the letter from Congressman Payne, for whom I 
have a very high regard, with regard to this subject. I am not 
rejecting out of hand the justification that you have given, 
that it is important to have some people there to know what is 
going on. But I am going to closely monitor it and, in 
particular, I want to repeat that that move--and you have 
indicated this as well--cannot and should not be interpreted as 
any sign that we will tolerate the conduct of the regime in 
Khartoum and that our purpose in having some folks there, if it 
is to continue, is to monitor what is going on.
    I would indicate--and I believe the chairman would agree 
with this--that any attempt to send the Ambassador there at 
this time would not be regarded in the same way and it would be 
very difficult to claim that that was merely for purposes of 
monitoring what is happening in Sudan.
    So I am listening to your justification for that. I cannot 
say it is wrong at this point. But I am going to actively do my 
own monitoring with regard to that question because the conduct 
of this regime is just so incredibly extreme that we have to 
take a very clear approach to it.
    I thank the chairman and I thank the witnesses.
    Would you like to respond?
    Mr. Smith. Yes. I just want to say that I appreciate your 
comments very much, Senator. I share your concerns very much.
    I would note, just parenthetically, that our embassy, in 
fact, has never been closed in the Sudan. We have never severed 
our diplomatic relations. We have taken our U.S. personnel out 
for security reasons, but our relations have continued. The 
embassy has remained open. We will make sure in the future to 
discuss any new policy developments regarding this issue with 
you, in advance, Senator.
    Senator Feingold. Thank you.
    Thank you, Mr. Chairman.
    Senator Ashcroft. Thank you, Senator Feingold.
    Mr. Smith, you may be aware that I introduced legislation 
which has been included in the State Department Reauthorization 
Bill to prohibit financial transactions between U.S. citizens 
and the Sudanese Government.
    The administration has opposed this provision in spite of 
the fact that I believe it is critical to cut the flow of U.S. 
dollars, at least from U.S. citizens, to this rogue regime.
    I wonder why we should maintain economic dealings with a 
government involved in international terrorism abroad and 
domestic terrorism against its own people. The President's 
nominee to be Assistant Secretary of State for Africa, Susan 
Rice, reinforced the administration's opposition to my bill, 
stating that the President already has ``in place sufficient 
tools to impose sanctions against States whose behavior the 
U.S. would like to change.''
    If that is the case--and certainly their authorization of 
the Occidental Oil deal with Sudan last year did not indicate a 
clear willingness on the part of this administration to 
restrain commercial dealings with Sudan--if we could dare take 
the administration at its word, that it has in place sufficient 
tools, does the administration have any intention of further 
sanctioning the Sudanese Government? And, as Deputy Assistant 
Secretary of State for Human Rights, would you recommend 
additional sanctions of any kind on Sudan?
    Mr. Smith. Thank you, Mr. Chairman. I think I will answer 
those questions in reverse.
    First, as Deputy Assistant Secretary of State for Human 
Rights, I would recommend further sanctions and I think this 
administration is eager to look at appropriate further 
sanctions and to work with the Congress in articulating them.
    Second, I think your idea of limiting financial 
transactions is an excellent one. I think that concept has been 
embraced by the administration, and I think we would be willing 
to work closely with you to put that into place in a workable 
way.
    There are a couple of different reasons why the 
administration has opposed the provision as it stands right 
now. First, we believe we have in place sufficient tools to 
impose sanctions against States whose behavior we would like to 
change, by and large. Second, this provision restricts the 
ability of the Secretary of State to pursue negotiations in the 
U.S. interest, as currently stated.
    We are particularly concerned that the legislation 
endangers our ability to act as a broker in the Middle East 
peace process. The Ashcroft provision would effectively impose 
an economic embargo on Syria, for example, in a way that we 
think would be unhelpful in pursuing the peace process.
    That being said, I think there are ways that we can, and 
should, limit financial transactions. There need to be 
sufficient exceptions put in place--for example, to keep our 
embassy running. We need to be able to buy postage stamps for 
international mail, we need to be able to conduct banking 
transactions, and we would want to be able to have some 
exceptions to keep the embassy running and so that NGO's could 
effectively continue to operate there.
    But the concept, again, I think is an excellent one.
    Senator Ashcroft. I am pleased to have your assurance in 
that respect. I was distressed when last year the 
administration was given flexibility and the administration 
decided to announce a policy large enough to drive a truck-load 
of explosives or slaves to be sold on the market through. I am 
very eager to confer with the administration to include waiver 
potential that would allow continuation of the peace process 
and NGO relief activity. The administration drafted a policy in 
response to the recent anti-terrorism legislation which would 
allow direct financing of the bombing of the plane that was 
knocked out of the sky at Lockerbie, for example. We cannot 
continue to have that kind of either sloppy draftsmanship, 
reckless indifference as to the wellbeing of individuals in the 
international community, or outright subversion of 
Congressional intent.
    So I thank you very much for your attention to this matter. 
I am eager to draft and provide a basis for reasonable waivers 
and would be very eager to collaborate on that, to move this 
issue forward.
    I thank you very much for your appearance here.
    I would indicate to you that if you would like to submit 
any additional material for the record, I will hold the record 
open until the close of business today for so doing. I would 
like to say that, as part of the committee record, I would 
submit the letter of Representative Donald Payne from the Tenth 
District of New Jersey, who has written to the President of the 
United States expressing his disappointment about the State 
Department's decision to restaff the embassy.
    [The information referred to follows:]

                              Hon. Donald M. Payne,
                                  House of Representatives,
                                 Washington DC, September 24, 1997.
The Honorable William Jefferson Clinton,
The White House,
Washington, DC 20500.
     Dear Mr. President, I was extremely disappointed to learn about 
the State Department's decision to re-staff our embassy in Sudan. Why 
are we rewarding the National Islamic Front (NIF) government by 
reopening the embassy without any tangible evidence of reform? The NIF 
government continues its war policy in southern Sudan, condones 
slavery, targets innocent civilians and supports terrorism.
    Mr. President, I was led to believe that the Administration will 
increase pressure on the NIF government for the reasons mentioned 
above. The Administration was correct when it pledged to support the 
``Frontline'' states and took the leadership at the United Nations last 
year. The decision to send back our diplomats not only will place our 
people in harms way, but also contradicts the Administration's stated 
policy objectives. Most important, the government in Khartoum will 
interpret this move as a sign of approval at a time when we should be 
clear about our objectives in the Sudan.
    The people of Sudan have suffered under the brutal dictatorship of 
the NIF regime for more than seven years. We should state clearly to 
this government that enough is enough? The NIF government remains an 
obstacle to peace and a threat to regional stability. The government 
has yet to comply with U.N. Security Council resolutions demands to 
handover three terrorists accused in the attempted assassination of 
President Mubarak.
    This decision will have serious consequences on our overall Sudan 
policy. The timing is wrong. The policy will inevitably be 
counterproductive. Ironically, the only beneficiary will be the 
Government of Sudan. It is important that we send a strong message to 
the government that their behavior is unacceptable. I strongly urge you 
not to reward this brutal government by reopening the embassy--the 
people of Sudan deserve better. This policy is indefensible and cannot 
be justified without significant progress on the human rights front and 
commitment to peace. I strongly urge you to do the right thing and 
reconsider your decision.
            Sincerely,
                                   Donald M. Payne,
                                        Member of Congress.

    Senator Ashcroft. I thank you, Secretary Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Senator Ashcroft. Now I would call the second panel to come 
to the witness table.
    May I invite the placement of these photographs to this 
table here (indicating) or to another setting so that the 
audience might have a chance to see them.
    I thank the staff for their assistance with these items.
    It is my pleasure now to call the second panel of 
witnesses. The Baroness Cox, Deputy Speaker for the House of 
Lords in England, is a world renowned advocate for religious 
freedom and other civil liberties. It is an honor to have you 
with us, Baroness Cox, and I would welcome your testimony at 
this time.

  STATEMENT OF THE BARONESS COX, DEPUTY SPEAKER, THE HOUSE OF 
  LORDS, LONDON, ENGLAND, AND PRESIDENT, CHRISTIAN SOLIDARITY 
                 INTERNATIONAL, UNITED KINGDOM

    Baroness Cox. Thank you very much, Mr. Chairman. I am 
grateful for the opportunity to give evidence today of gross 
violations of human rights by the Government of Sudan, with 
particular reference to religious persecution.
    This evidence is based on first-hand experience of 15 
visits to Sudan, including 4 this year, with Christian 
Solidarity International, or CSI, a human rights organization 
working for victims of oppression regardless of their creed or 
color and particularly trying to reach those who are cutoff 
from other organizations.
    We have been in many different areas in Sudan--in the 
south, the Nuba Mountains, the Southern Blue Nile, Eastern 
Upper Nile, and eastern Sudan. I will conclude before I finish 
with some recommendations for consideration by all concerned 
with human rights and with particular reference to religious 
liberty.
    Mr. Chairman, the evidence I present is spelled out in 
fuller form in a written version. I would be grateful if it 
could be made available for the record. But because time is of 
a limit, I will only speak from extracts from that.
    Senator Ashcroft. Thank you. We would be pleased to include 
the entirety of your presentation as reflected in the written 
record in the record of the committee.
    Baroness Cox. Thank you very much, Mr. Chairman.
    Mr. Chairman, as the video and as the previous testimony 
have shown, the situation in Sudan is very complex. Although 
the primary victims of religious persecution have been African 
Christians of the south and the Nuba Mountains, many other 
groups, including Muslims and animists, are also suffering 
persecution.
    This is because the NIF totalitarian military regime has 
declared a jihad, not only against Christians but against 
others who oppose it, including Muslims and animists, who are 
fighting for freedom from repression, for survival of their 
culture, and for fundamental human rights, including religious 
liberty.
    Therefore, many Arab Muslims from the north, the majority 
of whom belong to opposition parties represented in the 
previously democratically elected government, have suffered 
arbitrary arrest, imprisonment, torture, and extrajudicial 
killings.
    For example, on April 3 of this year, the NIF disrupted the 
29th memorial festival of Al-Sayid Ali Al-Merghani, blocking 
access to the celebration and using tear gas. Many people were 
subsequently imprisoned, including the imam of the mosque.
    So the tragic war must not be seen simplistically in terms 
of a war between Christians and Muslims. It is a war between 
that fundamentalist, totalitarian Islamic regime against its 
own citizens--a war which has caused over 1.5 million deaths 
and led to the displacement, we reckon, of over 5 million 
people from their homes and their lands, inflicting 
incalculable suffering through brutal violations of human 
rights, including the persecution of Christians, which reflects 
a fundamental feature of the regime's policy of enforced 
Islamization.
    That policy is implemented by diverse interrelated 
strategies which can be summarized under four headings: first, 
military offensives against civilians; second, the displacement 
of people from their homes and homelands; third, the abduction 
and enslavement of tens of thousands of black Africans and 
enforced Islamization of those who are not already Muslim; and, 
fourth, the abduction and forced conscription of thousands of 
boys and young men into the government army.
    I could just say a few brief words on each of those.
    First: Military offensives against civilians. The 
government has been undertaking this ferocious war against its 
own people in southern Sudan, the Nuba Mountains, Southern Blue 
Nile and eastern Sudan. It has received massive financial 
assistance from other fundamentalist terrorist regimes which 
support its terrorism. And these, I am sorry to have to report, 
a serious report, include recent reports of donations from Iran 
to purchase weapons, including tanks, MIG fighter aircraft, and 
chemical weapons.
    The government denies it bombs civilians, but I have spent 
hours in foxholes during aerial bombardment of innocent 
civilians. Only last month, in eastern Sudan, with the Beja 
Muslim people, an Antonov flew directly overhead, discharging 
its deadly cargo on civilians nearby. Such aerial bombardment 
inflicts not only death and injury, it terrorizes civilians, 
drives them from their homelands into the bush, the desert or 
the mountains, where they have to scavenge for food. Often they 
are cutoff from water supplies, they suffer from cold at night 
with no shirt, clothes, blankets, or mosquito nets.
    I just give one example of the response to such military 
assaults by those who have been forced to take up arms against 
them.
    In Kapoeta, the SPLA commander, Commander Cirillo, is a 
practicing Catholic. He does not want to fight this war. But he 
describes the regime's war against the south as a war to 
Islamize Sudan. I quote his words, ``Before battle, the 
Mujahadeen and other Islamic fundamentalist zealots customarily 
shout and chant: `We will force you to become Muslims whether 
you want to or not.' The Muslim fundamentalists cannot defeat 
us. We are firm as Christians, and we will die for our faith.''
    But he made an important distinction. ``Our struggle is not 
against Islam, as such, or against Muslims, but it is against a 
fundamentalist regime that wants to destroy our African 
heritage and our faith. It is discouraging to see the Islamic 
fundamentalist government in Khartoum receive material and 
moral support from other Islamic countries, while we receive no 
support from the Christian world. But we will continue our 
struggle for freedom, even if we are forsaken by Christendom. 
We will die for our faith and we will die Christians. But 
please help the wounded--we have nothing.''
    In June of this year we were in the Nuba Mountains. We 
testify that the government continues to destroy villages as 
part of its publicly declared jihad against the Nuba people, 
both Christian, Muslim and animist.
    Civilians were attacked by low flying helicopter gunships, 
hunting and mowing down women and children. There was 
systematic destruction of homes, churches, crops, and livestock 
by government troops and government backed Popular Defense, or 
PDF, forces.
    We conducted a meeting with community leaders, including 
Muslims, from the various counties in the Nuba Mountains. They 
gave details of recent attacks by these forces. Time only 
permits one example.
    Ibrahim Saeit from Murban County described how villages had 
been attacked on the first of March of this year, including 
Regife. Two elderly men were burnt in their huts; 3 other men 
were captured and taken; 370 homes burnt; 371 cows stolen, pigs 
and poultry killed, all crops burned. Now there are over 4,000 
displaced people from Regife living in the bush, suffering from 
severe hunger, and they suffer from cold in the rainy season.
    The enemy used two helicopter gunships, killing one woman 
in Kirka and wounding four other civilians. Three churches were 
destroyed in this raid--one Roman Catholic, one Episcopalian, 
and one belonging to the Sudanese Church of Christ.
    I turn quickly to the second category of persecution, 
related to this, which is the displacement of people from their 
homelands in attempts to drive them to government-controlled 
areas where they must renounce their Christian faith in order 
to receive aid.
    Many thousands of people have been driven from their homes. 
We have witnessed them dying of starvation and disease around 
us in regions throughout those areas of Sudan we visited. Many 
others have to go to government-controlled garrisoned towns or 
peace camps, where they are compelled to exchange Christian 
names and allegiance to Christianity for Muslim names and 
practices in order to receive food and medicine.
    We received evidence of this policy from many people. I 
just give one example from Loronyo in Eastern Equatoria. The 
local commander told us: ``Loronyo had a population of about 
6,000 before May 1, 1995. On that day, the government air force 
began a campaign of indiscriminate bombing in and around 
Loronyo. Forty-eight bombs were dropped on the outskirts of the 
village. Later there were more direct bombardments. Women and 
children were killed. The aim of the government is to force the 
Lutuku people to go to Torit, to seek food and medicine, 
because they have cutoff all humanitarian aid to this area. 
Most people resist and stay, trying to survive scavenging. But 
others are forced to go to survive.
    When they arrive in Torit, they are forced to accept Muslim 
names and practice Muslim rituals at a mosque in order to 
receive food. In Torit, southern Christian women are routinely 
raped and forced to marry Arab Muslims, even if they are 
already married. Southern Christian boys are taken away from 
their parents and placed in Torit's Koranic schools, where they 
are indoctrinated into Islamicist ideology of the NIF regime. 
In some cases, they are sent north in order to fight and are 
never again seen by their families.
    I move very quickly to the third dimension, slavery--the 
abduction and enslavement of tens of thousands of black 
Africans and their enforced Islamization.
    CSI first discovered slavery when we visited northern Bahr-
El-Ghazal, the town of Nyamlell, in May, 1995. On March 25 of 
that year, PDF forces had attacked Nyamlell, killing 82 
civilians, enslaving 282 women and children, burning dwellings, 
looting cattle and grain.
    We have returned six times, visited other locations in 
northern Bahr-El-Ghazal to obtain further evidence of slavery. 
We have interviewed ex-slaves, slave traders, PDF officers, and 
the families of people who are still enslaved. We have 
accumulated an abundance of evidence to prove beyond doubt that 
chattel slavery thrives and is actively encouraged by the 
regime.
    We have adopted a two-pronged strategy to try to achieve 
the abolition of slavery. First, on the human and small-scale 
level, is slave redemption. On our first visit to Nyamlell, we 
discovered the possibility of redeeming slaves, reuniting them 
with their families. This arose because of a local peace 
agreement between Arabs from the north and the Dinka Africans 
who live in the south. In order to obtain grazing and trading 
rights, the Arab traders are allowed to graze and trade in 
return for the return of slaves to the local people. And since 
October, 1995, CSI has helped the local authorities to free 
over 300 slaves.
    But, more fundamentally, we have adopted a policy of 
reconciliation between the Arabs and the Dinkas. We arranged 
for a visit by the well known and well respected Muslim 
religious leader, Mubarak El Fadil El Mahdi, who is also 
General Secretary of the NDA, to visit the area. He met the 
local Arabs, and in joint meetings with Arabs and Dinkas, he 
persuaded the Arabs that this war is not a jihad and they are 
being manipulated by the regime in Khartoum; that it is not in 
their interest to fight, and to kill, and to enslave their 
African brothers and sisters; and to go back and tell their 
brothers in the north to stop undertaking these slave raids.
    Consequently, I am happy to say there have been far fewer 
slave raids since Mubarak El Mahdi's visit.
    I finish and leave the topic of slavery with just one case 
study because it illustrates the reality of the tragedy and the 
abomination of slavery.
    Mr. Apin Akot is from the village of Sokobat, near 
Nyamlell. His village was raided in February, 1995. His 
photograph is there in front of us. During that raid, he was 
out looking after the cattle with their smallest child. His 
wife and two daughters were taken and enslaved in the north.
    With great courage, Mr. Apin Akot sold his cattle, took the 
money he raised from the sale of his cattle, went north to look 
for his wife and two daughters. He risked his life in doing so. 
He found the Arab owner. He managed to negotiate the sale of 
his wife and younger daughter, age 5. But the older daughter, 
age 9, was nearly old enough to be a concubine. He did not have 
enough money to negotiate the release of his older daughter. He 
had to return, leaving that 9-year-old behind.
    We were able to give him the money. With great courage he 
returned and he was able to buy back his 9-year-old--now 10-
year-old--daughter just before she would have been circumcised 
and forcibly married to an Arab owner.
    That family is now reunited. Mr. Apin Akot says that every 
day he wakes with joy, he feels a new man, because the family 
are together again.
    But we reckon there are tens of thousands of Africans still 
enslaved in the north.
    The final and few very brief words are in the final 
category of the violations of human rights, the abduction and 
forced conscription of boys and young men into the government 
army, where many are subjected to enforced Islamization, 
compelled to fight in the war against their own people.
    We have met many young men who have escaped from the army 
who describe how they have been forced to adopt Islamic names 
and practices or suffer discrimination if they fail to comply. 
These conscripts are usually put in the front line, where they 
are among the first to die in military offensives. It is 
estimated that many thousands of boys and young men, including 
Muslims and particularly those from the Beja tribe, with whom I 
have just been, have suffered this fate.
    I conclude, Mr. Chairman, with one or two very brief 
recommendations for consideration, if I might have the temerity 
to suggest it, by the U.S. Government and the international 
political community.
    First, we in CSI welcome U.N. Security Council Resolutions 
1044 and 1054 and we call upon the Security Council to impose, 
if necessary, sanctions of increasing severity, including arms 
and oil embargoes. We are pleased to hear of your own attempts 
to try to limit financial transactions.
    Second, CSI calls on the international community to insist 
on access for human rights monitors to all areas of Sudan under 
the direction of the U.N. Special Rapporteur for Human Rights 
in Sudan. These monitors could investigate all violations of 
human rights, including the persecution of Christians and those 
of other faiths.
    We call on the international community to insist on access 
by humanitarian aid organizations to all parts of Sudan, to 
ensure that aid is not used directly or indirectly to exploit 
hunger and disease by forcing Christians to accept aid and to 
become Muslims as part of that condition.
    Finally, we call on the international community to 
establish regular dialog with the NDA, the opposition groups, 
as they develop policies to make peace and justice for all the 
people of Sudan, according to the IGAD Declaration of 
Principles.
    Thank you very much, Mr. Chairman.
    [The prepared statement of The Baroness Cox follows:]

                   Prepared Statement of Baroness Cox

    Mr Chairman, Honourable Senators, I am grateful for the opportunity 
to give evidence today of gross violations of Human Rights by the 
Government of Sudan, with particular reference to religious 
persecution. This evidence is based on first-hand experience of 15 
visits including 4 this year, to many different areas in Sudan; the 
Nuba Mountains, Southern Blue Nile and Eastern Upper Nile; and Eastern 
Sudan between Kassala and the Red Sea.
    I will conclude with some recommendations for consideration by all 
concerned with Human Rights, with particular reference to religious 
liberty in general and Christian persecution in particular.
    Before I give this oral evidence, (fuller, written evidence is 
available for reference), I should briefly introduce the Organisation 
which has made this work possible:
    1. Christian Solidarity International (CSI) is an 
interdenominational Human Rights Organisation, focussing especially on 
religious liberty, helping victims of repression, regardless of creed, 
colour, nationality or gender.
    CSI endeavours to be a voice for those who have no voice. We thus 
try to reach those who are cut off from other aid organisations. Many 
organisations, including working under the auspices of United Nations 
organisations such as UNHCR and UNICEF, or the Red Cross, can only 
visit people in need of help if they have an invitation from a 
sovereign government. But repressive regimes victimising minorities 
within their own borders may not give this permission. Therefore, these 
minorities are bereft of both aid and advocacy. We believe it is part 
of our Christian mandate to reach such people, who are among the most 
isolated, outcast and deprived in the world. Our objectives on each 
visit are:
  <bullet> to obtain evidence of violations of Human Rights and to 
        present that evidence to the international community;
  <bullet> to assess humanitarian need and to provide such assistance 
        as our resources allow;
  <bullet> to show solidarity with victims of repression and 
        persecution.
    Mr Chairman, the situation in Sudan is very complex. Although the 
primary victims of religious persecution have been the African 
Christians of the South and the Nuba Mountains, many other groups, 
including Muslims and animists are also suffering persecution.
    This is because the National Islamic Front (NIF) totailitarian 
military regime, which seized power by force in 1989, has declared a 
jihad, not only against Sudanese Christians, but against all who oppose 
it, including Muslims and animists, who are fighting for freedom from 
repression, for survival of their culture, and for fundamental human 
rights, including religious liberty.
    Many Arab Muslims from the North, the majority of whom belong to 
Opposition parties represented in the previous democratically elected 
government, have suffered arbitrary arrest, imprisonment, torture and 
extrajudicial killings.
    On April 3 the NIF disrupted the 29th memorial festival of Al-Sayid 
Ali Al-Merghani, blocking access to the celebration and using tear gas. 
Many people were subsequently imprisoned.
    A coalition between the major Islamic parties of the North and the 
major black African opposition movement, the Sudan People's Liberation 
Movement/Army (SPLM/A), has led to the National Democratic Alliance 
(NDA).
    The tragic war in Sudan must therefore not be seen simplistically 
as a war between Christians and Muslims. It is a war between a 
fundamentalist Islamic regime, with a totalitarian ideology, and its 
own citizens; it has caused over 1.5 million deaths and led to the 
displacement of over 5 million people from their homes and their lands. 
It has inflicted incalculable suffering through brutal violations of 
Human Rights, including the persecution of Christians, which reflects a 
central feature of the NIF regime's policy of enforced Islamisation.
    This policy of persecution of Christians is implemented by diverse 
strategies, which can be summarised under 4 headings:
    1. Military offensives against civilians, including aerial 
bombardment by Antonov bombers and helicopter gunships; assaults by 
ground troops in which people are killed or abducted, crops and 
property, including churches, burnt; livestock stolen or slaughtered 
and water supplies destroyed.
    2. The displacement of over 5 million people from their homelands, 
who have been forced to live by scavenging or to go to Government-
controlled garrison towns or `Peace Camps' where they are compelled to 
exchange Christian names and allegiance for Muslim names and practices, 
in order to receive essential food and medicine.
    3. The abduction and enslavement of tens of thousands of black 
Africans, and their enforced Islamisation.
    4. The abduction and forced conscription of thousands of boys and 
young men into the Government army, where many are subjected to 
enforced Islamisation and compelled to fight in the war against their 
own people. They are usually put in the front line, where they are 
among the first to die in military offensives.
     Mr Chairman, I will offer testimony on each of these aspects of 
the persecution of Christians in Sudan today.
1. Military offensives against civilians
    The Government has been undertaking a ferocious war against its own 
people in Southern Sudan, the Nuba Mountains, Southern Blue Nile and 
Eastern Sudan. It has received massive financial assistance from other 
fundamentalist Islamic regimes which support terrorism. There have been 
recent reports of donations from Iran to purchase weapons, including 
tanks, MIG fighter aircraft and chemical weapons.
    The Government denies that it bombs civilians, but I have spent 
hours in foxholes during aerial bombardment of innocent civilians, 
which inflicts death and injury; it also terrorises civilians and 
drives them from their homelands into the bush, desert or mountains, 
where they have to scavenge for food; often they have no access to 
water supplies; and they suffer from cold with no shelter, clothes, 
blankets or mosquito nets.
    One response to these military offensives has been the 
establishment of armed resistance, fighting for survival and, as many 
see the situation, to resist the spread of fundamentalist Islam beyond 
Sudan into other parts of Africa.
    For example, on the way to the front-line near Kapoeta, in January 
1994 we had to take refuge in a foxhole from an Antonov bomber which on 
the previous day had killed 8 civilians and wounded three others. The 
SPLA commander, Cdr. Cirillo, is a practising Catholic who does not 
want to fight a war. He describes the NIF's war against the South as a 
war to Islamise Sudan.

    Before battle the Mujahadeen and other Islamic fundamentalist 
zealots customarily shout and chant: ``We will force you to become 
Muslims whether you want to or not.''
    The Muslim fundamentalists cannot defeat us. We are firm as 
Christians, and we will die for our faith. Our struggle is not against 
Islam or against Muslims, but is against a fundamentalist regime that 
wants to destroy our African heritage and faith. It is discouraging to 
see the Islamic fundamentalist government in Khartoum receive material 
and moral support from other Islamic countries, while we receive no 
support from the Christian world. But we will continue our struggle for 
freedom even if we are forsaken by Christendom. We will die for our 
faith and we will die Christians. But please help my wounded--we have 
nothing.

    Earlier this year, we were in the Nuba Mountains, and we testify 
that the Government continues to destroy villages as a part of its 
publicly declared jihad against the Nuba people. Also, a group from the 
Christian organisations Frontline Fellowship and Voice of the Martyrs 
gave details of very recent attacks on villages, including bombardment 
by Antonov bombers and low-flying helicopter gunships, and by ground 
forces. They had been attacked by low-flying helicopter gunships and 
described how the gunships hunted and mowed down women and children. We 
also obtained evidence of systematic destruction of homes, churches, 
crops and livestock by Government troops and Government-backed Popular 
Defence Forces (PDF). Crucifixion of Christians has also been reported 
by reliable sources.
    But the Christians of the Nuba Mountains remain firm in their 
faith, despite persecution. We met leaders of Nuba Mountain Christian 
communities. An Episcopalian pastor, Reverend Barnaba, the head of the 
Nuba Mountains Council of Churches, said that Christian communities 
were very happy with our visit which showed Christian solidarity with 
the churches there.

    You have been sent by God's power. The churches in the Nuba 
Mountains are carrying the cross of Christ in these days. They are 
enduring many problems on account of the war being waged against them. 
They want you, who have been sent by God, to be a voice for them and to 
try to bring them some help in their dark days.

    They are now surrounded by enemies in every direction.

    The NIF regime has escalated its policies of burning churches and 
church property, homes and everything which belongs to the people. To 
make matters worse, they occupy the places where people go to fetch 
water so that they cannot drink. They are simply doing this in order to 
torture people and to force them to go to the Government held areas for 
shelter, food and water. Despite all this, the people of the Nuba 
Mountains will remain strong and will not go to the enemy side. They 
will remain Christian and will work hard to survive this period of 
darkness and suffering. The Bible tells us that if anyone suffers we 
should all suffer, and if anyone rejoices we should rejoice with them. 
We thank God that we are not alone despite our suffering. God has sent 
us our brothers and sisters.

    We also conducted a meeting with community leaders from the various 
Counties in the Nuba Mountains. They gave details of recent attacks by 
Government and PDF forces. Time only permits one example:
    Ibrahim Saeit from Murban County. Villages which were attacked 
included Regife village, on 1 March, when two elderly men were burnt in 
their huts; three other men were captured (Hassan Jabura, Osman Jabrah, 
and Abdullah Adam); 370 homes were burnt, 371 cows stolen, pigs and 
poultry killed and all the crops burnt. Now there are over 4,000 
displaced people from Regife living in the bush suffering from severe 
hunger; they will also suffer from cold during the rainy season.
    The enemy used two helicopter gunships killing one woman in Kirka 
and wounding four other civilians; three churches were also destroyed 
in the raid, one Roman Catholic, one Anglican and one belonging to the 
Sudanese Church of Christ.
    This leads to the second category of persecution:
2. The displacement of people from their homelands in attempts to drive 
        them to Government-controlled areas where they must renounce 
        their Christian faith in order to receive aid.
    Many thousands of people have been driven from their homes. We have 
witnessed them dying of starvation and disease in regions ranging from 
Bahr-El-Ghazal in the west to Eastern Equatoria, Southern Blue Nile and 
Eastern Upper Nile. Many others try to survive by fleeing to 
Government-controlled garrison towns or `Peace Camps' where they are 
compelled to exchange Christian names and allegiance for Muslim names 
and practices, in order to receive supplies essential, such as food and 
medicine.
    We have received evidence of this policy from many people in all 
these areas over the past 4 years. These examples come from Loronyo in 
Eastern Equatoria in June 1995.
    The local Commander (Cdr. Gathoth Gathkuoth) told us:

    Loronyo had a population of about 6,000 before May 1, 1995. On that 
day, the Government airforce began a campaign of indiscriminate bombing 
in and around Loronyo. On May 1-2, 48 bombs were dropped on the 
outskirts of the village. On May 13, a Government Antonov returned and 
made a direct hit on the village, killing five women, two men and three 
children . . . On the following day, another bomb was dropped on the 
village. The well-constructed and beautifully maintained village is now 
a ghost town. The local people have fled into the bush for fear of more 
air raids . . .
    (During times of peace, the industrious people of Loronyo are able 
to lead a good life. The soil is fertile, the climate is favourable and 
there is an abundance of game. . . .)
    The current problems of Loronyo first became grave in 1992 when 
nearby Torit was occupied by the Government army . . . The Government 
has combined its bombing raids with a complete ban on the delivery of 
humanitarian aid to the Loronyo. The last food delivery to Loronyo 
arrived last year. The aim of the Government is to force the Lutuku 
people to go to Torit in search of food and medicine. Most of the 
people have so far resisted this temptation. They survive in the bush 
by eating wild roots and leaves. But some have gone to Torit, where 
they are forced to accept a Muslim name and practice Muslim rituals at 
the mosque in order to receive food, some of which comes from western 
donors via the UN Operation Life-line Sudan. Some also comes from the 
radical Islamicist aid organisation, Dawa Islamyia. In Torit, southern 
Christian women are routinely raped and forced to marry Arab Muslims, 
even if already married. Southern Christian boys are often taken away 
from their parents and placed in Torit's Koranic schools where they are 
indoctrinated with the Islamicist ideology of the NIF government. In 
some cases the boys are sent North as Islamic fundamentalist zealots, 
never to be seen again by their families. The Christian churches in 
Torit are severely restricted and are not allowed to distribute 
humanitarian aid themselves. The weapon of hunger is a much greater 
threat to the people of southern Sudan than the Government's arsenal. 
``The people of Torit are Christians and believe in Jesus Christ as the 
saviour. The NIF Government is now crucifying Christ here in Sudan.''

    I offer one illustrative case, typical of countless others:
    On May 19, 1994, two-year-old Thomas Obuka was alone in his hut 
when a Government Antonov dropped a 600 lb on Loronyo. Debris from the 
massive explosion hit the hut and set it alight. Thomas received severe 
burns on his arms, stomach and legs before his mother rushed to his 
rescue. The boy is in constant pain. If he survives, he will be badly 
disfigured for life. The Government prevented the ICRC from evacuating 
and treating Thomas and other wounded people from Loronyo. Tragedy is 
not new to Thomas' mother, Matilda, who lost a leg in a mine explosion. 
While trying to comfort her blistered son, Matilda told us:

    I was in Torit together with my husband and two sons in 1992 when 
it was occupied by Government troops. I was then separated from my 
husband and forced to live as a wife of an Arab soldier. I was also 
forced by this soldier to become a Muslim and I was given the name 
Fatima. One of my sons, Okasah, was taken away from me by Dawa 
Islamiya. He was placed in a Koranic school and given the name Ahmed. 
One night my real husband and I tried to escape from Torit. We ran 
through a mine field. My husband stepped on a mine and was blown up. I 
stepped on a mine too. That is how I lost my leg. Since leaving Torit, 
I have never seen 0kasah. He would be eight-years-old now, if he is 
still alive.

3. The abduction and enslavement of tens of thousands of black 
        Africans, and their enforced Islamisation.
    CSI had received unconfirmed reports of slavery on early visits to 
Sudan. But when we visited Nyamlell in May 1995 we discovered slavery 
as a flourishing and widespread institution. On March 25 1995 the PDF 
forces attacked Nyamlell, killing 82 civilians; enslaving 282 women and 
children; burning dwellings and looting cattle and grain.
    CSI has returned 6 times and visited other locations in northern 
Bahr-El-Ghazal to obtain further evidence of slavery. We have 
interviewed slaves, slave traders, PDF officers and the families of 
people who are still enslaved. We have accumulated an abundance of 
evidence to prove beyond doubt that chattel slavery thrives in these 
parts of Sudan and that the NIF regime actively encourages it. (See 
reports of CSI visits to Sudan: May/June 95; August 95; October 95; 
April/May 96; June 96 and October/November 96; March 1997). We estimate 
that there are tens of thousands of slaves in Sudan today.
    CSI has developed a two-pronged strategy to try to achieve the 
abolition of slavery in Sudan.
    (i) Slave redemption: On our first visit to Nyamlell we discovered 
the possibility of redeeming slaves and reuniting them with their 
families. This arose from a local peace agreement between Dinka chiefs 
and some Arab Rezegat clans in southern Darfur. In return for cattle 
grazing and trading rights, Arab traders facilitate the return of 
slaves to their families for a price of 5 cows per slave (this price 
has subsequently dropped to 2-3 head of cattle).
    Since October 1995, CSI has given the local civil authorities 
enough resources to free over 300 slaves.
    (ii) Arab-Dinka reconciliation: CSI has worked to extend the local 
agreement of 1990 by arranging a visit by the Muslim religious leader 
Mubarak El Fadil El Mahdi, who is also General Secretary of the NDA and 
other prominent Arab leaders, together with the prominent Dinka leader, 
Bona Malwal. We arranged for them to meet the Rezegat and Misseriah 
leaders and to address gatherings of Arabs and Dinkas.
    These meetings enabled the Arab leaders to persuade their people 
that this war is not a jihad and that it is in their interests to live 
in peace with the Dinkas. The Dinka leaders assured their Arab brothers 
that they would always be welcome in their midst.
    Consequently this dry season there have been far fewer slave raids 
in this area.
    During our recent stay in Nyamlell, we had four happy meetings with 
families whose children had been redeemed from slavery and who are now 
reunited. (Viewers of the `Dateline' programme on Slavery in Sudan, 
transmitted last December, or readers of press coverage in `The 
Baltimore Sun' may remember some of the cases.) I give 2 examples:
    (i) Mr. Apin Apin Akot, was looking after his herd of cattle, with 
his smallest child, when the raiders came to his village of Sokobat, in 
February 1995. His wife and 2 daughters, aged 5 and 9, were captured 
and taken as slaves to the north. Apin Akot sold all his cattle and, 
risking capture, torture and death, went to look for them. The owner 
agreed to sell back his wife and younger daughter, but would not 
release the 9-year-old: as she was old enough soon to be a concubine, 
she was more `valuable' and the money available was not be sufficient. 
So Apin Akot had to return to Nyamlell without her.
    He had no more money or cattle to raise the money to save her. CSI 
gave him the necessary sum and on this visit we were very happy to see 
the entire family reunited. He told us:

    Today I'm so happy and I cannot forget the help you gave me. I went 
to northern Sudan to bring back my older daughter and now we are back 
I'm so happy I forget all the difficulties. As soon as I received the 
money from CSI, I left to go to the place where I knew she was 
(Darafat, near Meiram in Kordofan) . . .

    His daughter Akec Apin told her story:

    When I was captured, my hands were tied with strong rope. All the 
bad jobs were given to me--grinding dura in house and carrying water 
from the well at night. I was just given leftovers on the plates for 
food. If I was slow fetching the water, my master beat me with a big 
stick (showing us scars on her face and legs--photos available). All 
the family beat me.

    She was told by her owner that this year she would be married to 
his son. She was forced to join in Muslim prayers and wear Muslim 
women's head-dress. Mr Apin Akot asks us to report this message to 
those who gave money to help him:

    You created me again, like God, giving me new life. When you gave 
me the money and I got my daughter back, I felt as if I had been born 
again.

    (ii) Abuk Marow Keer, a young mother who had lost her sight through 
river blindness. Her two children, Abuk Deng aged 7 and Deng Deng aged 
5, were abducted during the slave raid on Nyamlell on March 25 1995. 
She was also captured with her mother and raped during the beginning of 
the journey to the North. However, probably due to her blindness, she 
was discarded by the raiders with her mother. They returned to Nyamlell 
without her two children.
    On previous visits we met these unhappy women. On the previous 
occasion we gave them money to redeem her children. It was a great joy 
on this visit to see them reunited. Abuk Marow Keer told us:

    I am very happy indeed to get my children back. I am so happy, I 
could dance but I do not have the eyes to see. You paid for bringing my 
children back. Your money made it possible.

    Her brother had gone to a place north of Daien and found her boy 
with an Arab master who released him for the money CSI had given him. 
She also obtained information of the whereabouts of her daughter Abuk, 
who was being kept in a village called Gomlias by a slave master called 
Abu Gassim. Abuk would have been circumcised this year and then used as 
a concubine.
    In March, we also visited Manyiel, a market town about 3 hours' 
walk away, where Arab traders often bring children from the North, to 
sell them back to their families. We were welcomed by the local SPLA 
Commander who said he was surprised how fast Christianity was growing:

    Faith seems to be strengthening because of suffering. Even if we 
are killed and our children are taken from us, we will continuing 
fighting for the right to live in our land and in the long-run we will 
achieve our objectives.

    We also met Christian Leaders in Manyiel. A Roman Catholic 
Catechist, William Aryuon, gave this message to the Western Church:

    We are very happy that the Christian Church in the West and in the 
world at large can see us in our sad situation and continues to visit 
us and to tell our story. If people like you visit us, this encourages 
us and strengthens our faith. We have many problems, including disease, 
lack of essential supplies for our church, and education is a 
fundamental problem. We need books, including English text books. We 
are suffering from nakedness, but that is a secondary priority. 
However, we do need blankets and mosquito nets for the rainy season. We 
are grateful that you have come here to show Christian solidarity, to 
share our difficulties, to redeem our children, to bring medicines, and 
to encourage Christianity in this place.
    There had never been a church here before this war. But always in 
crises people look for solutions. Our problem has been the 
fundamentalist Muslim regime which has tried to force us to convert to 
Islam. We therefore responded by building a church and now people come 
to the church. Also now you have visited us, what we were doing and 
saying has become meaningful to people. They now understand Christian 
solidarity and the meaning of the international Christian community.

    In June this year, we returned to Barh-El-Ghazal and were 
disappointed to find that there had been 2 more slave raids, on April 
24 and May 16, in Marial Bai, an area about 2 hours' walk from Manyiel. 
Local people claimed about 2,000 PDF militia came; in the first raid 3 
villagers were killed; in the second, 24 local people were killed and 3 
more subsequently died of injuries; 67 slaves were taken.
    They also burnt churches, schools, homes and crops and took as much 
livestock with them as they could.
    One villager, Alek Bak, described the fateful day:

    We heard the enemy coming. We all ran in different directions. My 
husband and 2 of my children escaped. But the enemy took away my 13-
year-old son Piol and my 9-year-old daughter Abuk. They stole or burnt 
everything we owned. My home has been burnt down. All our food, 
clothes, books and tools are gone as well as 45 cows. I have had no 
news of my children. I don't know how we will survive . . .

4. The abduction and forced conscription of boys and young men into the 
        Government army
    Many are subjected to enforced Islamisation and compelled to fight 
in the war against their own people. We have met many young men who 
have escaped from the army, who have described how they were forced to 
adopt Islamic names and practices, or suffered discrimination if they 
failed to comply. These conscripts are usually put in the front line, 
where they are among the first to die in military offensives. It is 
estimated that many thousands of boys and young men have suffered this 
fate.
Conclusion
    The Government continues to try to transform by force the 
ethnically and religiously diverse country into an Islamic state, 
against the wishes of the vast majority of its population, both North 
and South. This policy involves systematic persecution of Christians 
and is tantamount to attempted genocide of black African communities. 
The Government is also persecuting Muslims and animists who oppose its 
policies.
Recommendations
    1. For consideration by the U.S. Government and the international 
political community:
    (i) CSI welcomes the UN Security Council Resolutions 1044 and 1054 
and calls upon the Security Council to impose, if necessary, sanctions 
of increasing severity, including arms and oil embargoes.
    (ii) CSI also calls on the international community to:
  <bullet> Insist on access for human rights monitors to all areas of 
        Sudan, under the direction of the UN Special Rapporteur for 
        Human Rights in Sudan. These monitors could investigate all 
        violations of Human Rights, including the persecution of 
        Christians and those of other faiths;
  <bullet> Insist on access by humanitarian aid organisations to all 
        parts of Sudan to ensure that aid is not used to support 
        directly or indirectly the policies of exploitation of hunger 
        and disease, by forcing Christians to accept aid as a condition 
        of becoming Muslims.
  <bullet> Establish regular dialogue with the NDA as it develops 
        policies to promote peace and justice for all the people of 
        Sudan, according to the IGAD Declaration of Principles.
    (iii) We welcome legislation which will draw attention to the 
importance of religious liberty and to violations of this fundamental 
freedom; which will also encourage governments to protect religious 
liberty for all people.
    2. For Christian Churches:
  <bullet> The first priority identified by Christians suffering 
        persecution in Sudan is always prayer. We urge Christian 
        churches everywhere to pray regularly for the persecuted church 
        in Sudan and throughout the world.
  <bullet> Prayer without deeds is dead, as love without action is 
        dead. Therefore, we urge Christians to respond to the 
        persecuted churches' requests for aid, including Bibles, food, 
        medicine, clothing and educational resources.
  <bullet> There is also a need to show solidarity with those suffering 
        persecution. Wherever possible, it is important to visit those 
        who are afflicted. Those who do visit, will return enriched and 
        inspired by the faith, courage, dignity and witness to 
        Christian love shown by the persecuted church. As the exiled 
        Roman Catholic Bishop of El Obeid said during a visit to 
        Southern Sudan: ``I came, I saw, I heard, I touched and I am 
        enriched.''
    I leave the last word with a message from the Christian community 
in Southern Blue Nile, where the people are suffering from a scorched 
earth policy, which has displaced 50 thousand people who are living--
and dying--scavenging for roots and nuts.
    When we visited them in January, Elea Ullam, a Roman Catholic Lay 
Leader, gave us a message which speaks for all the persecuted 
Christians of Sudan today.

    Please tell people in other countries: we Christians will never 
give up our faith, no matter what we must suffer. What we expect from 
the Church in the West is prayers for Christian unity and solidarity 
with us.

    Mr Chairman, thank you.

    Senator Ashcroft. I thank you, Baroness Cox.
    Reverend Marc Nikkel is an Episcopal mission worker in the 
Sudanese Diocese of Bor. He has travelled a long way to be with 
us this morning and I am pleased to have an opportunity to 
welcome his testimony. I would ask that he include in his 
testimony a statement of how he could pass security with those 
devices which are with him on the table.
    That is just an aside, Reverend Nikkel. I am pleased to 
welcome your testimony.

   STATEMENT OF THE REVEREND MARC NIKKEL, EPISCOPAL MISSION 
  WORKER, EPISCOPAL CHURCH OF SUDAN, DIOCESE OF BOR, NAIROBI, 
                             KENYA

    Reverend Nikkel. Thank you, Mr. Chairman. We were brought 
up with a security guard so that they could be shown to your 
people here and under my care here as well.
    I am very grateful for your invitation to be with you. I 
first went to Sudan in 1981. I have lived in Sudan for 9 years 
and am deeply grateful for the growing awareness of the human 
rights abuses, the religious oppression in Sudan in the last 
couple of years during this administration. So I thank you for 
this opportunity.
    I would like to address something of the nature of the 
church in Sudan that I have lived with for these last years, 
what has been proclaimed in some areas the fastest growing 
church in Africa, the fastest growing church in the Anglican 
Communion, and it might be parallel to other denominations as 
well, a vital, deeply rooted church that is part of people's 
identities. I think it is so easy for us from our Western 
perspective to conceive as something that has been introduced 
from outside that remains a foreign implant. That is not so in 
Sudan.
    It is difficult to bring statistics to the growth that has 
taken place in these years given the isolation of various 
communities, the pervasiveness of this growth in very obscure 
places, where lay leadership has emerged without expectation. 
But in these years it is something very worthy of note.
    In part, it is obviously conversion because of the 
oppressiveness of the present regime in Khartoum, its coercion, 
the subjection of people who are not of the particular ilk of 
the NIF, as we have heard. But it is also a deeply subjective 
experience of the Christian narrative of the Gospel as 
traditional structures have been broken down in these years, as 
societies--we have heard, what, 4 or 5 million--have been 
displaced within the borders of Sudan, with massive loss of 
life. Traditional social structures as well as religious 
structures have been torn to shreds in these years.
    The divinities anchored to geographical areas have often 
been uprooted. It is in this period of upheaval that 
Christianity has become such a powerful emblem, not only for 
solidarity between diverse peoples, those who are educated, 
aware of the broader context, but people within rural areas for 
whom this has been survival. It has provided within the church 
new structures for social organization, for a relationship to 
divinity that is over all.
    So when we are talking about religion, it is not perhaps 
the sort of segmented thing that we in the West often think of, 
but something that is pervasive. It is integral to the society, 
the survival of Sudanese societies in many contexts during this 
period.
    Perhaps if, during the Missionary Era, there was one thing 
that was done very right, it was the use of vernacular language 
so that faith has been expressed in the vernacular, songs 
composed in the midst of this upheaval. All missionaries were 
expelled in 1964 and with that, people with little training 
went to the bush with what knowledge they had, what vernacular 
scriptures they had, interpreted and reinterpreted their 
struggle for survival, their suffering in these terms.
    So what I want to say is, when we speak of religious 
persecution in Sudan, it may be something very different from 
what many of us would assume--a context where culture, 
ethnicity, language and spiritual allegiance are of a piece, 
deeply rooted together. And so, if we see that, we speak in 
terms of the acts of the NIF. We have heard so vividly about 
eradicating not only religion, but it is the ethnic identity 
that is the objective here. It is as true of Christians as of 
people of traditional culture, traditional religion as well.
    I think of Bor area, where I spent a great deal of time and 
the great raids that took place in 1991. Yes, those were 
factional, those were inter-ethnic, those were inter-tribal. 
But they were funded, they were encouraged, cultivated, armed 
from the north. I think of the great devastation that has taken 
place in northern Bahr-El-Ghazal as well.
    There is the annihilation of cattle for traditional 
cultures, which are the heart of the sacrificial system, the 
spiritual system, the economy, the cohesion of community, the 
sense of well-being. Striking at that heart of society is an 
attempt to eradicate a cultural identity.
    So there is a cohesiveness here that I would hope we can 
comprehend in the Sudanese context.
    I have given several anecdotes and several examples of 
oppression in the testimony that I have submitted. I won't go 
with those now. But I would like to refer to crosses and maybe 
also to the image of jihad. Some people have asked me is the 
war in the south a counter-jihad on the part of Christians. No, 
it is not that--not in any way. People are defending their 
land. They are defending their right to their freedom of 
choice.
    These crosses (indicating) have remarkable stories and in 
some ways they are an evolution, a transformation of the spears 
that were central to ritual traditionally. If you go to some 
areas, you will find hundreds, even thousands of crosses being 
held by Christians. This one is particularly poignant. For all 
of these, the brass is the refuse of war, of bullets. Obviously 
there is a bullet shell there (indicating), and an RPG tail 
spinner on the head of this cross (indicating), a rocket 
propelled grenade tail spinner.
    Some months ago, I asked the fellow who had commissioned 
this what it meant for him. I would like this community here to 
hear the witness of one man, spoken in his own language, in the 
Jieng language, which I translate into English.

    Jesus came into the world as a man of righteousness. But he 
was persecuted, and suffered, and put to death on a cross. He 
brought the good news, but was crucified with the spikes that 
nailed him down. In the same way, the Gospel has come into our 
land in southern Sudan, and we suffer for his word, that which 
we have accepted. Our children are raided and made into slaves 
because of it. We are put to death because of it. Our cattle 
have all been raided because of it. We suffer starvation and 
are scattered across the earth because of it. All those who 
receive the Gospel will suffer and so do we.
    In this day the RPG--the rocket propelled grenade--is used 
as a tool of killing against our peoples as certainly as spikes 
were used to crucify Jesus on the cross. Still we carry within 
us the hope that we will ultimately have victory through the 
cross of Christ. It is a cross that will judge between us and 
the aggressors that will seek to kill us. I want people of the 
West to see the cross brought to them from Sudan because it is 
the cross they once brought to us. I want them to see that we 
are people like them, and this is the suffering it has brought 
us. See this cross. We have given up our old divinities and 
virtually everything we possess and we have taken up the cross. 
Pray for us that we will remain crucified upon the cross, that 
we will remain faithful. We are forever stuck to the cross.

    That is indigenous theology out of the grassroots in 
southern Sudan. There are many other vernacular witnesses we 
could add to that. But I hope you hear in my words something of 
the integration of all of life over and against a government 
set on eradicating peoples, their cultures, their language, and 
their faith.
    Thank you.
    [The prepared statement of Reverend Nikkel follows:]

             Prepared Statement of Reverend Marc R. Nikkel

    Personal background. I am grateful for this opportunity to speak 
before you, on behalf of Sudanese peoples who've become part of my life 
during the past sixteen years. I bring greetings from many of our 
Bishops, priests and women's workers, residing within the war zone, as 
well as in displacement and refugee camps.
    I first went to Sudan in 1981 as an appointee of the Episcopal 
Church, USA, to serve as a teacher in the seminary of the Episcopal 
Church of the Sudan at Mundri. My work there was terminated when, in 
1987, I was one of three Americans abducted by the Sudanese Peoples' 
Liberation Army (SPLA) and held for two months. This experience, 
trekking eastward among thousands displaced by war, served to deepen 
and solidify my commitment to the peoples of Sudan. After completing a 
doctorate in the history of Christianity among the Jieng (Dinka), I 
returned to Sudan to work as advisor for theological education under 
the Episcopal Diocese of Bor. Our present work involves extended 
periods in Upper Nile Province, one of the regions most devastated by 
war, as well as in displacement and refugee camps along the Sudan-
Kenyan border.
Character of the Church in Sudan
    Unprecedented church growth. The past fourteen years have seen not 
only massive losses of life and enormous population movements in Sudan, 
but the growth of Christian churches unprecedented in modern history, 
indeed, since the rise of the Nubian Church in the first millennium. 
During the past decade the Sudanese Church has been described as the 
fastest growing Church in Africa, and the Episcopal Church of the Sudan 
(ECS) specifically, as the fastest growing Church in the Anglican 
Communion, a trend paralleled in other denominations. While this refers 
particularly to the diverse language groups of southern Sudan, large 
northward migrations have made Christian communities increasingly 
prominent in the northern context, nor have the Nuba Mountains been 
untouched by the Churches' growth.
    Undeniably, the impulse to embrace Christianity is, in part, a show 
of defiance against the government of the National Islamic Front (NIF), 
a regime which has proven itself ruthless in its use of social 
engineering, ethnic cleansing, forced Islamization, and genocide, in 
its attempts to impose a distinctive, politicized form of pseudo-Islam. 
Certainly, one motivation for conversion is political defiance among 
otherwise disenfranchised peoples.
    It is also, however, a profoundly subjective response to the 
Christian message amidst the unprecedented social, cultural and 
religious destabilization traditional societies have undergone during 
the past decade. The processes, sequence, and momentum through which 
Sudanese peoples have imbibed Christianity vary greatly. For the 
majority it has involved a fundamental reassessment of communal 
heritage and identity in theological, spiritual, and moral terms. In 
many regions tradition is not being discarded but, through indigenous 
impulses, being transformed and synthesized to facilitate survival in a 
radically altered world. With the erosion of the social and moral 
structures in many indigenous societies the Church is assuming an 
increasingly prominent role in moral leadership both within civil 
society and in local government.
    An indigenous and vernacular faith. Spokesmen for the NIF describe 
Christianity as an oppressive, counterfeit religion cultivated by 
Western imperialists for the subjugation of African peoples. On the 
contrary, Christianity has become integral to the identity of many 
Sudanese, and during the present era often plays a part in their 
cultural, linguistic, and ethnic survival. Repeatedly, during the forty 
years since independence, the churches have served as places of 
cultural cohesion, affirmation, and preservation. One of the most 
important factors in the expansion and indigenization of Christianity 
in Sudan has been the fact that Catholic and Protestant missions 
cultivated vernacular languages. While Christianity helped to unify the 
diverse peoples of the South, written vernacular language encouraged 
independent thought, indigenous initiative, and authority at the grass 
roots.
    With the expulsion of missionaries from southern Sudan in 1964 
small, fragile Christian communities were largely severed from external 
support. Yet, vernacular Christianity became in many regions a tool of 
the Church's self-preservation and propagation. Amidst great suffering, 
often hidden from combat in rural areas and in exile, the vernacular 
church proliferated, a process, which continues with still greater 
intensity today. The moral and social values of the Church, its 
scriptures and liturgies, its modes of healing and reconciliation, have 
met with and been transformed by indigenous thought. Contrary to 
expectation, the churches have served, in Sudan's postcolonial era, 
more to protect and hallow African ethnic identities than to suppress 
them. Though under assault with the destruction of churches and the 
withholding of services to non-Muslims, vernacular Christianity plays a 
profound role in reinforcing identity, and providing solidarity for the 
disenfranchised in today's war zones and displacement camps.
    Given this evolution Christianity is intimately linked with the 
cultures, languages and ethnicities of those who embrace it. Not only 
is this integration basic to Sudanese Christian identity, it is also 
assumed by NIF government authorities. The jihad, or `holy war' 
declared by the government is not simply directed against Christians, 
but against Muslims and people of traditional African religion, any who 
do not bow to the politicized pseudo-Islam it propagates. Women and 
children who have been abducted and used as forced labor and as 
concubines include traditionalists as well as Christians, all members 
of subjugated ethnic groups. The boys who have been forcibly placed in 
Islamic khalwas to undergo Islamization and militarization are from 
traditional as well as Christian roots. Religious suppression is but 
one facet of the broad spectrum of human rights abuses presently being 
perpetrated in Sudan.
Religious Persecution and Forced Islamization
    The examples of religious persecution which follow are taken from 
the narratives of friends who experienced or observed these events. 
They are from both northern and southern Sudan, and all have occurred 
within the past year.
    Suppression of vernacular language. In contrast to the affirmation 
of ethnic identities discussed above, a succession of Khartoum based 
regimes have sought to enforce the study of Arabic language as a 
component of Islamization. In its programs of social engineering and 
ethnic cleansing no regime has suppressed vernacular languages more 
virulently than the NIF. A recent narrative tells of a literate 
Christian in Northern Sudan who had obtained a primer in his own 
vernacular language. When he returned to his home area the primer was 
found on his person by security police and he was killed. The primer 
was perceived as a tool for cultivating vernacular language, indigenous 
culture and Christianity in defiance of the Government's determination 
to eradicate them. The propagation of vernacular language can be a 
capital offense in contemporary Sudan.
    Persecution focused on Church Leaders. Pastors who reside in show 
places like Khartoum may sometimes be given a degree of immunity, but 
those who are hidden from international view in government controlled 
areas often undergo sustained intimidation. Indeed, some church leaders 
in Khartoum are warned against visiting churches in their home areas on 
threat of death lest they offer support and nurture to vulnerable 
people.
    Pastor James (not his real name) is a respected Protestant minister 
in a Southern garrison town, noteworthy for the multi-ethnic 
congregation he led, and the good relations he maintained with other 
churches. On the 10th of July, 1997, his home was visited by NIF 
security police and violently ransacked. At midnight armed men appeared 
again, taking him into the night, one of about thirty people abducted 
by authorities near the same time. Pastor Alex was held for twenty 
days, and beaten and tortured continually. During no time in this 
period was he interrogated and no charge was ever raised against him. 
During detention his hands were tightly bound such that he was unable 
to use them for two months following his release. Several of his teeth 
were knocked out, his ribs broken, and kidneys damaged. There appears 
to be no reason for his detention and torture apart from his role as an 
observable church leader, respected as a man of reconciliation and 
solidarity in the Southern community.
    Execution of Muslims who convert to Christianity. As in other 
Muslim countries, it is illegal to convert from Islam to another 
religion. Nonetheless, there has been a small but consistent movement 
of Muslims toward Christian faith. This occurs primarily among Nuba who 
have been alienated by NIF policies in suppression of their people, but 
also includes Muslims of other backgrounds. There are numerous accounts 
of converts who have been killed or `disappeared' under government 
action. One young northerner became a Christian, and was reported to 
the authorities by his own family. He was apprehended by government 
security, beaten, and shot. Thinking him dead, his body was dumped down 
a large conduit that empties into the Nile River. There it floated 
becoming entangled in fishing nets. Surprisingly he was not eaten by 
crocodiles, but was found the following morning by fishermen and taken 
to hospital. He now works as a Christian evangelist in villages of the 
north, his family unaware of his whereabouts or activities.
    The destruction of church buildings. A succession of Sudanese 
governments have withheld land or building permits for the construction 
of churches. Nonetheless, people in shantytowns and displacement camps 
repeatedly struggle to erect rakubas, simple shelters made of mats to 
serve as churches, community gathering places, and schools. 
Occasionally more substantial buildings have been constructed. 
Repeatedly they have been destroyed, often bulldozed without warning. 
Since May, 1997, at least seven churches have been destroyed, two in 
Jebel Aulia displacement camp, two in the Khartoum suburb of Kadalona, 
and three in Nuba Mountains, one of these being an ECS cathedral 
recently built of permanent materials. Within the ECS compound in 
Omdurman police recently took control by force of arms of an area used 
as a children's center on land that has been church property since 
colonial times.
Statement of James Lual concerning the RPG Cross
    Following are the words of an evangelist from Upper Nile Province. 
His words, translated from Jieng language, reflect the attitudes of 
many southern Sudanese Christians.

          Jesus came into the world as a man of righteousness, but he 
        was persecuted and suffered and put to death on a cross. He 
        brought the good news but was crucified with the spikes that 
        nailed him down. In the same way, the gospel has come to our 
        land in southern Sudan, and we suffer for his Word, that which 
        we've accepted. Our children are raided and made into slaves 
        because of it. We are put to death because of it. Our cattle 
        have all been raided because of it. We suffer starvation and 
        are scattered across the earth because of it. All those who 
        receive the gospel will suffer . . . and so do we. In this day 
        the RPG (rocket propelled grenade) is used as a tool of killing 
        against our people as certainly as spikes were used to crucify 
        Jesus on the cross. Still, we carry within us the hope that we 
        will ultimately have victory through the cross of Christ. It is 
        the cross that will judge, between us and the aggressors who 
        seek to kill us. I want people of the West to see the cross 
        brought to them from Sudan because it is the cross they once 
        brought to us. I want them to see that we are people like them 
        and this is the suffering it has brought us. See this cross. We 
        have given up our old divinities, and virtually everything we 
        possess, and we have taken up the cross alone. Pray for us that 
        we will remain crucified upon the cross, that we will remain 
        faithful. We are forever stuck to the cross.

    In closing, I would request the solidarity of the government of the 
United States with the peoples of Sudan, not only Christians, but 
people of every faith tradition who are the object of religious 
coercion, ethnic cleansing or genocide. Indigenous religious leaders 
need to be assured of our compassion and will to positive action. 
Recognized leaders whose authority has been negated or denied in their 
own homeland need to be given avenues of approach and the fight to 
initiate requests for constructive measures on behalf of their people.

    Senator Ashcroft. Thank you, Reverend Nikkel.
    I am pleased now to have the opportunity to introduce Ms. 
Jemera Rone--and I hope I have pronounced that properly--who is 
the counsel at Human Rights Watch and a noteworthy Sudan 
scholar in her own right.
    I want to thank you for appearing and look forward to your 
testimony. At the conclusion of your remarks, we should have a 
few moments for an exchange.

    STATEMENT OF JEMERA RONE, COUNSEL, HUMAN RIGHTS WATCH, 
                        WASHINGTON, D.C.

    Ms. Rone. Thank you very much for inviting me here today. I 
am Jemera Rone from Human Rights Watch. Thank you also for 
conducting this hearing on Sudan and religious persecution and 
human rights abuses. For very long, Sudan has been simply out 
of the public's eye and hearings like this do so much to bring 
it to the public consciousness.
    I would like to submit my written testimony and also append 
to it a chapter from a report that I wrote last year, the 
chapter dealing with religious freedom in Sudan. It is much 
longer than my testimony and far too long to read this morning.
    Senator Ashcroft. The committee is pleased to receive it 
and will make it a part of the written record along with the 
submissions of other witnesses.
    Ms. Rone. I would like to speak first about religious 
oppression and violation of civil and political rights, sort of 
a little different from what the other witnesses have been 
speaking about, which are the very gross, physical abuses that 
occur in the course of the war--the killings, the slavery--
which they have covered so eloquently.
    I, myself, had an experience in Sudan when I attempted to 
meet with the Roman Catholic Archbishop Juba, that illustrated 
for me what type of oppression people live under but that is 
not yet physical abuse.
    The Sudan security absolutely refused to allow me to speak 
to the Archbishop in private. They had him under their eye 
every move he made. They did not want him to talk to foreign 
visitors, especially not human rights people, because they were 
afraid of what he would tell them.
    I very much wanted to hear what he had to say. But he, of 
course, could not speak freely in front of these two security 
agents who came into his office when we were both there. They 
knew we were going to be there and they refused to leave, even 
though we both asked them very politely to leave.
    I then protested and said I had never been in any country 
investigating human rights on any mission where government 
officials would not let me meet privately with a religious 
official.
    They were totally unmoved and, as a result of my protest, I 
was put under virtual house arrest and my visit to Juba was 
cutoff. I was put on the next plane out.
    This is the daily bread that the religious community--I 
should say of the Christian religious community--in Sudan has 
to face in the government controlled areas of Sudan, southern 
Sudan and also in the north. It is particularly bad in the 
garrisoned towns, such as Juba, which is the largest town in 
the south and it is under government control.
    These are a type of oppression and violation of civil 
liberties that are targeted directly at people that the 
government thinks oppose them on religious grounds, political 
grounds, ethnic grounds, whatever. The gross abuses that are 
occurring in the war are often of an indiscriminate nature, I 
would say. There are raids, open season, on anyone who lives in 
a particular area that the government happens to think is 
affiliated with the rebel group, the Sudan People's Liberation 
Army.
    They are giving carte blanche to their soldiers and the 
militia to go in and devastate the civilian population that 
they think is supporting the rebels. As their reward, their war 
booty, they are allowed to take prisoners, that is, slaves, 
women and children, loot the grain, take the cattle, take 
anything of value.
    This is the way that the government allows soldiers and 
militia to be paid for their work for the government. It is an 
incentive for them to go on these raids.
    Of course they take women and children as slaves because 
those are the most vulnerable and it is very hard for them to 
escape. The grown men, if they find them, they kill them. The 
women and children are usually more easily intimidated and then 
taken far away with them to the north.
    I had the opportunity through an underground that exists in 
the north to speak to some of these children who had been taken 
as slaves and who had managed to escape through the help of the 
underground or through their own devices. Sometimes when these 
boys are old enough--that is, 10, 11, or 12--they run away and 
they get away from their masters. But many of them are not able 
to do that.
    Their stories are very pathetic. They often do not remember 
the raid in which they were captured because it was so 
traumatic and sometimes family members were killed, and so 
forth.
    But this is one of the more gross abuses in the war about 
which we have already talked.
    I want to emphasize how much I appreciate the description 
you had of the conflict in Sudan. It is very complex and, 
obviously, you touched on many, on all of the facets of the 
war.
    If you listen to the government rhetoric, I find it is 
quite misleading about what I think is actually going on in 
Sudan. The government attempts to cloak itself in the flag of 
Islam for purposes of garnering support inside the country 
among the Muslim majority and for the purpose of garnering 
support in the Arab and Islamic world and from wealthy 
individuals who will help them finance the war effort.
    Their rhetoric, their Islamic rhetoric, is extreme. They 
exhort--government officials, the head of State, the President 
exhort large crowds, addressing them as Muslims, encouraging 
them to go on a holy war and promising them that if they die, 
they will be martyred and will go to heaven and have the 
rewards promised in the Koran.
    These are government officials. This is a very polarized 
discourse, of course.
    The war is not as simple as all that, however, because 
there are Christians and Muslims on both sides of the conflict. 
There are believers in traditional African religion on both 
sides of the conflict. Part of this is because the government 
has a very pernicious policy of divide and rule and has had 
some success with this policy.
    This is a policy more directed at different ethnic groups, 
at polarizing people according to their tribal origins, rather 
than their religion.
    In particular, Sudan is an extremely complex country in 
terms of ethnic and religious composition. There is no one 
ethnic group that is in the majority. Arabs are about 40 
percent of the population, that is, people who identify 
themselves as Arabs. They will belong to many different tribes.
    The largest single people or tribe, as we would say, is the 
Dinka. They are about 3 million--is a guess--out of about 26 
million or 27 million people, only about 12 percent of the 
population belonging to one tribe.
    They are a southern people. The Dinka are in the leadership 
of the rebel Sudan People's Liberation Army, and, therefore, 
the government has conducted a campaign of trying to vilify the 
Dinka, unfortunately, and riling up everyone, Muslims as well 
as southerners, against what they call Dinka domination.
    They do this as a part of their training in the People's 
Defense Force Camps, which are government militias that are 
extremely politicized in their education. They give a little 
bit of military training, but most of their training is about 
the holy war and of a political nature designed to encourage 
people to volunteer to go to the south on this holy crusade 
against the Dinka as much as for a holy war.
    I have heard about this type of training from people who 
are required to go to these camps. They require government 
civil servants to go. They also require Dinka government civil 
servants to go. They have heard this talk against their own 
people. It is very difficult for them and some of them protest. 
They lose their jobs, get thrown out of the civil service, and 
are considered enemies of the government.
    In addition to this really pernicious government policy of 
trying to divide people on ethnic grounds, there are other 
reasons for southerners, non-Muslims, and Christians to be 
fighting actually on the side of the government and against the 
rebel SPLA. Some of those have to do with internal fights, 
political power struggles. Some of them have to do with human 
rights abuses which the SPLA has committed because in some 
cases they have not really respected the human rights of the 
people in whose territory they are fighting. They have 
recruited child soldiers and there has been a backlash on that.
    But there is also a lot of power struggle going on as in 
any movement.
    In fact, the second largest people or tribe in the south is 
the Nuer. They are mostly fighting on the government side right 
now.
    What we fear might happen in this conflict is that the 
government will step back and let the southerners fight against 
each other and remove the religious element, at least 
ostensibly, from the conflict. Some government officials have 
actually said to me well, if we were not there, it would be 
another Rwanda, just these tribes fighting each other.
    That is why I think it is important to keep the broad 
context of the war in mind, that the government is capable of 
just this kind of manipulation.
    This actually happened in the killings that Marc Nikkel was 
referring to in 1991. It was southerner against southerner. 
Also in 1993 there was a very bad rash of struggles from 
southerner to southerner, fomented by the government, of 
course. But it was very real and very hard on the civilian 
population, nevertheless.
    I want also to underline what others have said, that the 
fact is there are Muslims who also fight in the SPLA. So the 
SPLA itself is fighting not for a religious State. They are 
fighting for a united, secular Sudan. That is what they have 
been saying since the beginning of their formation.
    The Muslims who are fighting with them originally were from 
the Nuba Mountains in the center, where half the people are 
Muslim and the other half are Christian. Now they have been 
joined by independent Muslim forces, independent of the SPLA, 
Muslims who formed their own forces, the Beja, as Baroness Cox 
has mentioned, and also the Sudan Alliance Forces, who are not 
only Muslim but are also Arab.
    So you have a north-north conflict now as well, to boot, 
which severely undercuts the ability of the government to wrap 
itself in the flag of Islam. But they try, nevertheless.
    I want to followup on one of Marc Nikkel's comments about 
conversion. The south, in my experience, is not a majority 
Christian area; it is a majority of traditional African 
religions. People are reaching for Christianity there and also 
in the north, where they are very badly treated as second class 
citizens, as a bulwark against the onslaught of this Islamic 
northern thrust into their communities and into their lives.
    The British traditionally administered family law in three 
separate courts. One was for Muslims, one was for Christians, 
and one was for people with traditional African religions, that 
is, customary law, which is quite different from the Muslim or 
the Christian law. Particularly, customary law permits 
polygamy, which is a practice in the south, which is perfectly 
acceptable under that law but yet is contrary to Christian 
doctrine and also, once you get past four wives, it is also 
contrary to Muslim doctrine.
    I say this to underline the complexity of the south and the 
diversity of its peoples.
    The militant Islamists have always tried to say that 
Christianity is a foreign influence and that people who are 
Christians are not really Sudanese, and, therefore, that there 
is a large conspiracy against Sudan by the western Christian 
world, designed to destroy an Arab Islamic State. That is the 
basis on which they make their appeal to other countries in the 
Arab and Muslim world.
    My caution or hesitation about focusing on religious 
persecution to the exclusion of all else is that this gives 
them more ammunition for the fire. It is not true that 
Christians in Sudan are foreigners. They have been treated by 
this government as foreigners, but they are as Sudanese as 
anyone else. The clergy is almost entirely Sudanese.
    But yet, this is something that the government I am sure 
will try to make more ammunition of, to rally forces inside 
Sudan and abroad. I was glad to hear in the remarks of everyone 
here today that they view this conflict as much more than just 
a religious conflict and that there is here broad recognition 
of the ethnic, linguistic, cultural, regional, and other 
elements in the war.
    [The prepared statement of Ms. Rone follows:]

                   Prepared Statement of Jemera Rone

Introduction
    I am Jemera Rone, counsel and Sudan researcher at Human Rights 
Watch. I thank you for conducting this hearing on religious persecution 
and human rights in Sudan, and for inviting me to testify.
    Human Rights Watch supports sanctions in principle as a means of 
bringing about human rights compliance, and we consider a government as 
thoroughly abusive as that of Sudan to be a prime candidate for 
sanctions. We fear that sanctions imposed solely because of religious 
persecution might backfire, however, from two directions: the 
government of Sudan and a US administration intent on defeating the 
purpose of the legislation.
    Based on the Sudan government's track record, we can envision that 
it might try to take advantage of religious persecution sanctions in 
two ways:

          (a) to pit Sudanese Muslims against non-Muslims, by claiming 
        that foreigners seek to give non-Muslims a privileged status 
        inside Sudan (despite the fact that the bill includes religious 
        discrimination against Muslims); and
          (b) to garner sympathy for Sudan in the Arab and Islamic 
        world and elsewhere as a state which is victimized by the 
        powerful, western Christian world, solely because it is a 
        religious Islamic state--religious persecution in the reverse, 
        if you will.

The current government of Sudan uses every opportunity to present 
itself as an underdog that deserves the political, financial and 
military support of Arab and Islamic countries.
    Imposing sanctions solely on the basis of religious persecution 
would inadvertently give any US administration intent on avoiding 
sanctions on Sudan--or elsewhere--the opportunity to claim that the 
human rights abuses are not religious abuses. For instance, Sudan is 
already subject to multiple sanctions related to the government's 
support for terrorist groups and having a civilian government ousted by 
a military coup in 1989. One of the few remaining sanctions that can be 
applied is a ban on US investors doing business in Sudan, the so-called 
Occidental loophole (arising from Department of Commerce regulations 
under the anti-terrorism legislation). However, applying sanctions on 
account of religious persecution alone, instead of on account of the 
wholesale violation of human rights, still provides wiggle room for an 
executive branch eager to promote business interests. Many of the 
grossest abuses are related to the war and not to the religious 
affiliation of the victim. The way to better assure protection of 
religious rights is to impose sanctions on account of all abuses, 
including religious persecution.
Rights Abuses and the Civil War in Sudan
    Sudan is Africa's largest country--2.5 million square kilometers--
approximately one-third the size of the continental US; the Nile flows 
through it from south to north. It is a poor country of vast distances. 
The Sahara desert runs through the north, and equatorial rain forests 
and marshes dominate the south.
    This government is dominated by the Islamic militant party, the 
National Islamic Front (NIF), that took power eight years ago in a 
military coup, ousting an elected civilian government. It inherited a 
civil war, or more correctly, came to power to prevent an imminent 
negotiated solution to the civil war that would have restored regional 
and religious rights.
    This civil war, which has now lasted fourteen years, is not a 
simple matter of north against south, Arab Muslims against Christian 
and animist Africans. [Anthropologists tell us that animists believe 
that men, animals, plants, stones and so forth are inhabited by souls, 
and southern Sudanese peoples practice ``traditional African beliefs'' 
honoring their ancestors.]
    The war is not monocausal. Religion is one--but only one--of the 
factors competing to define national identity. It is also about ethnic 
origin and culture, language, and race, about clashes of political 
systems, allocation of resources in a desperately poor country, and 
about the centralized elite versus the marginalized peoples in this 
hugely diverse polity.
    The civilian victims of war-time abuses by the Islamist government 
are not targeted solely because they are Christians; indeed, the most 
devastated civilians are probably not Christians at all, but 
practitioners of traditional African beliefs, who are by a large margin 
the numerical majority in the south.
    There are so many reasons for the armed conflict between the 
government and the rebels. One Christian southerner told me that if all 
non-Muslims converted to Islam tomorrow the war would still go on, and 
with it the gross violations of human rights. As discussed below, there 
are Muslims on the rebel side, and Christians on both sides of the 
conflict.
    The war started in 1983 when a prior government (of which the NIF 
was a member) reneged on its agreement to give the south autonomy, and 
moved away from pluralism to the creation of an intolerant Islamic 
state. This government exploits the inherited war to justify and 
facilitate its efforts to convert everyone to its political Islamic 
agenda. Government rallies are held and the head of state addresses the 
participants as Muslims and encourages them to continue with the Holy 
War, assuring them that if they die in the war they will be religious 
martyrs and will receive a reward in heaven as promised in the Koran. 
The NIF government claims to its followers inside Sudan and to the 
Third World, especially to Arabs and Muslims, that it is waging a holy 
war in defense of a vast Christian and western conspiracy to split and 
destroy the Arab Islamic nation. The war is not that simple, however, 
even for the NIF. Nothing in Sudan is so straightforward.
    To start with, Sudan's estimated 26.7 million population is very 
diverse in religious, ethnic, linguistic and cultural terms. According 
to the 1956 census (the only one which included ethnic origin), Sudan 
housed nineteen major ethnic groups and 597 subgroups, who run the 
racial and ethnic gamut. [Despite this diversity one thing that most 
have in common is that some eighty to ninety percent of all Sudanese 
live below the world poverty line.]
    Those who identified themselves as Arabs formed the largest ethnic 
group, at 40 percent of the population. Sudanese Arabs do not usually 
regard themselves as one people, however, but are composed of many 
different tribes found along the Nile valley and elsewhere in Sudan, 
with visible differences in physique, dress and, among more traditional 
people, facial scarification. They tend to be lighter-skinned than non-
Arab Sudanese, although many Sudanese Arabs are taken for African 
Americans when they are in the US.
    Sudan's ethnic pluralism is illustrated by the fact that the Dinka 
are the largest single people or ethnic group in the country although 
they form only about 12 percent of the total population. No one inside 
Sudan mistakes the Dinka for Arabs; they are very tall, slim, black-
skinned Africans originating in southern Sudan, where they are part of 
a rich mix of different African peoples of distinct physiques, customs, 
and languages. The Dinka are just one of the peoples who have greatly 
suffered--in loss of lives, property, and cultural cohesion--in the 
civil war.
    There are three main religious groupings in Sudan: Islam, 
traditional African religions, and Christianity, in that order. Islam 
is the state religion but only about 60 percent of the population are 
Muslims (all Sunni Muslims). Some 4 percent are Christians (or about 15 
percent of the southern population), although that number is growing. 
The balance, or about 36 percent, are those who believe in traditional 
African religions. These groups do not live in geographically separate 
parts of the country; there are certainly thousands of Muslims in the 
south and there are millions of Christians and traditional African 
religionists in the north.
    The south, if independent, would not be considered a Christian 
country by culture, where Christian practices are part of the fabric of 
everyday life. Important customary practices that have long been an 
intrinsic part of southern cultures, such as polygamy, continue even 
though they are contrary to Christian doctrine.
    The numbers of Christians are growing. As Father Marc Nikkel so 
powerfully describes, southern Sudanese have been struggling to survive 
and live through a period of enormous war-caused trauma and social 
dislocation. Many are discarding the old ways which have not protected 
them from the military, cultural, religious, and linguistic onslaught 
of the northern Islamists. Southerners are seeking an explanation, 
solace and defense in Christianity--and its global ties--as perhaps 
never before. This motivation for conversion also applies to 
southerners, Nubas and others, who have migrated there to the north to 
escape the war. These marginalized peoples who are neither Muslims nor 
Christians are subjected to second-class citizenship and discrimination 
on account of their perceived ``backwardness;'' some northerners, in 
ignorance of their cultures, regard believers in traditional African 
religions as being a blank slate and having no culture. They believe 
that they are doing ``pagans'' a favor if they convert them to Islam, 
even forcefully. To better resist this imposition, many African 
believers convert to Christianity.
    Politics and war in Sudan reflect the country's complex population. 
Members of these three main religious groups are found on both sides of 
the conflict, and not in small numbers, \1\ despite the fact that the 
self-designated Islamic state is conducting the war as a jihad or holy 
war. Let me outline some of the ethnic/religious alliances in the war, 
and why limiting sanctions to religious persecution would backfire in 
this context.
---------------------------------------------------------------------------
    \1\ One reason there are non-Muslims fighting with the government 
is that the government has the power of conscription and uses it to 
draft southern Christians and traditional African believers into its 
army in the north and in garrison towns in the south. It uses these 
non-Muslims as cannon fodder for the jihad. In this is it aided by the 
country's dire poverty.
---------------------------------------------------------------------------
    There are southerners and non-Muslims fighting with the government 
in part because the government has a successful and pernicious policy 
of setting southerners against each other and fomenting intra-southern 
ethnic hatred in the south and elsewhere. In violation of human rights 
requiring the state to protect minorities, the government deliberately 
stirs up hatred and fear of ``Dinka domination''--although the Dinkas 
roughly number only three million of a total 26.7 million. A Dinka 
educated in US universities, John Garang, has been the head of the 
principal rebel group, the Sudan People's Liberation Army (SPLA), since 
its formation in 1983. The government takes advantage of every opening 
to deepen ethnic rivalries and buy off individual commanders and their 
followers.
    Government manipulation and hate politics are not the only reasons 
non-Muslim southerners are to be found fighting on the side of the 
Islamic government. Many southerners and Christians now aligned with 
the government were SPLA members who broke away from that rebel force 
in the early 1990s, due in part to SPLA human rights abuses and in part 
to internal power struggles. Indeed, the second-largest southern 
people, the Nuer, mostly participate in a breakaway wing of the SPLA 
led by Riak Machar and since 1991 have fought almost entirely against 
the SPLA. They are now formally allied with the government, and signed 
a peace agreement in April 1997 in which the government agrees to 
permit a referendum in the south on self-determination. The Nuer have a 
history of alternately fighting against and marrying their Dinka 
cousins that stretches back at least to the time anthropologists began 
studying them. Many Nuer converted to Christianity through the work of 
Presbyterian missionaries. But there are Nuers in the SPLA.
    The government's divide and rule policy is applied to every ethnic 
group, including the Dinka. There are several prominent Dinka military 
commanders who left the SPLA and are now on the government side. Most 
notorious among them is Commander Kerbino Kuanyin Bol, who made world 
headlines in late 1996 by holding a medical relief plane and its crew 
hostage, absurdly demanding millions of dollars in ransom. Kerubino was 
a Sudan army officer before helping form the SPLA in 1983 and once 
again has a high rank in the Sudan army. The government grants him 
total impunity for his scorched earth campaign against his own Dinka 
people in the southern region of Bahr El Ghazal. It is also true that 
his resentment of the SPLA is a personal one: for allegedly plotting a 
coup against Garang, he was held in arbitrary detention for five years 
by the SPLA, until he managed to escape.
    Thus the government has southerners and non-Muslims fighting on its 
side; the pro-government southern forces are not insignificant, and the 
communities they come from are not small or irrelevant. Their 
participation cannot be dismissed as simply the result of corrupt 
practices, as I have indicated. But their grievances against the SPLA 
are being ill-used by the government, which it seems is now attempting 
to save northern lives by pitting southerner against southerner. One 
worst-case scenario, which would entail a large loss of southern 
Christian and other lives, would be for the government to ``give'' the 
capital city of the south, the garrison town of Juba, to the Nuer Riek 
Machar's forces to defend--although in its ethnic origins Juba was 
neither a Nuer nor a Dinka town--and allow the southerners to bleed 
each other to death in what the NIF government can self-servingly point 
to as ``ancient tribal hatreds,'' or a Rwanda scenario.
    There is, in short, a south-south conflict in which most are non-
Muslims. Religion is not a factor in their struggle, although the 
Islamists in Khartoum benefit from their rivalry.
    Abuses committed by the government in the course of the war include 
extensive failure to take combatants prisoners (with the exception of 
foreigners allegedly fighting on the side of the rebels); 
indiscriminate bombardment and shelling of civilian areas in the south, 
the central Nuba Mountains, and now the east, and targeting landing 
strips where displaced civilians gathered to receive relief food from 
U.N. and other agencies; other denial of access by humanitarian 
agencies to needy civilians; beating, torturing and killing civilian 
detainees in garrison towns, including but not limited to the 
disappearance of two hundred persons in Juba in 1992, among them US AID 
employees; and conducting scorched earth campaigns of indiscriminate 
firing at villages and civilians, destroying or looting valuable assets 
such as cattle and grain and thus exposing the population to 
displacement, disease, impoverishment, and death.
    The African population of the Nuba Mountains, which is half Muslim 
and half Christian, has been subjected to enormous war-time abuses. The 
Nuba Mountains are not in the south but in the dead center of Sudan. 
The Nubas are subjected to government army scorched earth campaigns 
where villages, churches and mosques in areas where the SPLA had a 
presence are destroyed. The civilian population is driven into mis-
named ``peace camps'' where the non-Muslims are forced to choose 
between conversion to Islam or starvation, and all are subjected to 
family-destroying practices such as repeated victimization of women by 
rape and involuntary separation of children for education in Koranic 
schools. Muslim Nubas are not exempt from internment in ``peace camps'' 
or any of these other abuses.
    Slavery, as now practiced in Sudan, is a form of war booty. The 
government turns a blind eye to the practice of soldiers and militia 
capturing women and children in raids on unprotected southern and Nuba 
villages as a way to reward its poorly-paid soldiers and militia with 
``free'' domestic labor.
    Abuses committed by the rebel forces, the Sudan People's Liberation 
Army (SPLA), include holding fellow rebels prisoner in prolonged 
arbitrary detention, confiscating food (including emergency relief 
food) from civilians, looting crops, summary executions, and 
disappearances. The SPLA has recruited thousands of underage boys. 
Indiscriminate fighting between and among rebel factions has led to 
numerous civilian casualties and enormous displacement of the southern 
population. Neither the SPLA nor other rebel factions have ever 
accounted for their behavior. The abuses have turned not a few 
communities against the SPLA. ``And these are the people who want to 
rule us?'' they ask.
    The SPLA, formerly a professedly Marxist rebel group, like so many 
others in Africa, has not chosen to define its struggle as a religious 
war, a war of Christians against Muslims. Indeed, the platform of the 
SPLA demands freedom of religion for all Sudanese and seeks a ``united, 
secular'' Sudan. The SPLA includes Muslims and traditional African 
believers; it includes nonsoutherners.
    For many years the Muslim SPLA members were mostly from the Nuba 
Mountains, whose SPLA forces are led by Yussif Kawa, a Muslim and 
former school teacher whose family includes both Christians and 
Muslims. In the last two years the rebel cause has been joined by more 
Muslim forces from other parts of Sudan, greatly increasing the numbers 
of Muslims fighting against the purported Islamic state. These fighting 
forces are composed of non-Arab Muslims, such as the eastern Beja 
fighters of the Beja Congress, and of Arab Muslims in the Sudan 
Alliance Forces (SAF), including many from traditionally privileged 
elites in Khartoum who seek an alternative to the NIF police state.
    In 1995 most of the opposition came together in an umbrella group, 
the National Democratic Alliance (NDA), joined by the two historically 
largest political parties which are based on traditional conservative 
Sunni Muslim sects; both sects and parties follow hereditary leaders. 
Thus Sadiq al Mahdi of the Ansar sect is head of the Umma Party (he is 
the great-grandson of the Mahdi who ejected the British and Egyptians 
from Sudan in the late nineteenth century); Osman al Mirghani, of the 
Khatmiyya sect, is head of the Democratic Unionist Party (DUP).
    These two political parties each consistently out polled the 
National Islamic Front (NW) when there were free elections. Ironically, 
the NIF was never able to come to power via elections even in the 
Muslim north. It had to remove the elected Muslim leadership--Sadiq al 
Mahdi of the Ansar sect was then Prime Minister--by military coup in 
1989. The NIF acted when it did to prevent non-dogmatic Muslim leaders 
from settling the war with the south by instituting reforms that would 
have made the state more respectful of religious rights, more 
religiously neutral and less Islamic, as southerners and secularists 
demanded.
    One of the most significant political developments in recent times, 
which seriously undercuts the NIF government's claim to speak for the 
Muslim majority of Sudan, is this alliance of Muslim political and 
military groups with the SPLA, highlighted by the flight into exile of 
the former prime minister Sadiq al Mahdi in late 1996 as well as by the 
opening of a new military front in the eastern Sudan by the SAF, the 
Beja Congress, and others.
    In exile Sadiq al Mahdi toured the Arab world, explaining in person 
and as a leader of a Muslim sect as well as a political party leader, 
the disservice that the NIF government is doing not only to Sudan but 
also to moderate Muslims everywhere, and how the rights of even Muslims 
are not protected in this self-professedly Islamic state.
    Many of the government's abuses outside the war zones are familiar: 
they are the violations of political and civil rights used by 
repressive regimes to maintain their grip on power. These abuses 
include:
  <bullet> arbitrary arrests under oppressive national security 
        legislation giving security agents complete discretion to 
        target political activists;
  <bullet> torture in unacknowledged detention centers known as ``ghost 
        houses,'' leading at times to death or permanent injury;
  <bullet> a passive judicial system--from which many secularists were 
        purged immediately after the 1989 military/Islamist coup that 
        overthrew the elected civilian government--that tolerates and/
        or sanctions complete impunity for security and military agents 
        who torture or kill prisoners;
  <bullet> trials of civilians in military courts; confiscation of 
        homes and belongings of the political exiles, without any 
        judicial process and without any concern for the women and 
        children living in those homes;
  <bullet> controls over the printed media that in effect permit only 
        Islamists to engage in debate;
  <bullet> denial of freedom of association by a ban on all political 
        parties, and by permitting other civic associations, such as 
        trade unions and professional associations of doctors, lawyers 
        and others, to open only if they were reorganized under NIF 
        control;
  <bullet> denial of free assembly, enforced by police brutality; 
        restrictions on freedom of movement inside the country and 
        outside;
  <bullet> denial of fair treatment of the urban poor, by forcibly 
        evicting them from their humble homes and destroying their 
        possessions, without notice and without compensation.
    Other abuses are related to the NIF's political Islamic agenda, 
including:
          (a) restrictions on the movement and dress of women designed 
        to force them into second-class citizenship; and
          (b) imposition of a legal code based on a mean-spirited 
        interpretation of Islam that results in different treatment of 
        women and non-Muslims, and the disproportionate jailing of the 
        urban poor, particularly southern women heads of household 
        accused of brewing alcohol.
    The NIF aspiration to create an Islamic state with ``one language, 
Arabic, one religion, Islam,'' conflicts with the demands of Sudanese 
that their right to practice the religion of their choice (and to 
preserve languages and cultures), and to be treated equally by the 
government be respected. The dispute over the use of the Arabic 
language points to another nonreligious element in the war. Arabic is 
the official language, spoken by at least 60 percent of the Sudanese 
population. There are over 115 tribal languages, of which over twenty-
six are spoken by more than 100,000 people. Not all Sudanese Muslims 
are Arabs; some are of nomadic desert or other origin who preserve 
their own non-Arab culture and language, even though they also may 
speak Arabic. They have been marginalized historically and many are 
among those fighting against the Islamic central government today.
    Muslims who do not endorse the NIF's version of Islam and attempt 
to criticize the government on religious grounds are not immune from 
religious discrimination and persecution at the hands of the 
government. The death penalty for apostasy (renouncing Islam) has been 
enshrined in the penal code; this punishment was applied by the 
government--then composed of the NIF and the dictator Ja'far Nimeiri--
in 1985, with the judicially-sanctioned execution of Mahmoud Mohamed 
Taha, a religious Muslim leader and founder of the Republican Brothers 
movement.
    This threat underlies current government tactics to repress non-NIF 
Muslims, such as replacing imams and confiscation of mosques and other 
religious property, and harassment and jailing of Islamic leaders. The 
government took control of the holiest shrine of the Ansar order (the 
base of the Umma Party), the Omdurman religious complex of the tomb of 
Mohamed Ahmed al Mahdi, on May 22, 1993, and has not returned it to 
date. It appointed an imam to lead the prayers there, and said the move 
was dictated by the need to preserve the national character of the 
shrine. Before he went into exile in late 1996, Ansar leader and former 
Umma Party leader Sadiq al Mahdi was detained several times, often 
following homilies critical of the government, delivered as prayer 
leader of the Ansar at the occasion of Al Eid religious festivities. 
Elderly Ansar patriarchs who submitted a memorandum of protest at the 
1995 arrest were themselves detained in turn. Another frequent detainee 
is Mohamed al Mahdi, the main imam of an Ansar mosque, a well-respected 
religious leader. One of his favorite themes is religious justice and 
tolerance, against which he regularly measures government practices. 
The security apparatus has detained him for up to several months at a 
time for critical opinions expressed in sermons.
    The government undertook, in mid-1993, a systematic campaign of 
intimidation and harassment designed to lead to the replacement of 
imams in mosques that Ansar al Sunna, a religious group that advocates 
the strict interpretation of Islam, controlled. Communities in Khartoum 
neighborhoods defied weeks of intimidation as truck-loads of riot 
police parked in front of their Ansar al Surma mosques during Friday 
prayers to intimidate them into accepting government-appointed imams. 
Security agents made a night visit to the house of the imam of the main 
Ansar al Surma mosque, threatening him with arrest if he did not leave 
his position; they kidnaped and beat up his mu'azzin, who calls the 
faithful to prayer. The government managed to remove the imam from his 
position but his followers in the neighborhood boycotted prayers called 
by the new govermnent-installed imam, and the government ultimately 
abandoned its campaign. These and other abuses directed at Muslims and 
non-Muslims by the government have been documented by the UN Special 
Rapporteur of the Commission on Human Rights on Religious Intolerance, 
Mr. Abdelfattah Amor, dated November 11, 1996. The Special Rapporteur, 
I should note, is a Muslim.
    You have already heard testimony today about religious 
discrimination against Christians, including that suffered by 
Christians living in the north and in government-controlled areas of 
the south. These include restrictions on movement and expression, 
particularly of the Christian clergy, unequal status and requirements 
imposed on churches, refusal to grant permits for the construction of 
new churches, and destruction of ``illegally'' build churches (together 
with home and schools) particularly in Khartoum.
    Christian leaders thought critical of the government are severely 
hampered in their every move. For instance, Sudan security refused me 
permission to interview, in private, the Roman Catholic archbishop of 
Juba, the southern capitol, in government hands. Two Sudan security 
officers came to the archbishop's office when they discovered we were 
to meet, and refused to leave, despite polite requests by the 
archbishop and me. Naturally the archbishop could not speak freely in 
their presence about the suffering of his flock. For protesting this 
interference, I was placed under virtual house arrest and my visit to 
Juba was cut short as I was escorted to the plane.
    Serious religious rights violations also occur in conjunction with 
the government's efforts to proselytize in prisons, the armed forces, 
the civil service, the universities, and other sectors of society. The 
Popular Defense Force (PDF), a government militia, is the principle 
vehicle for carrying out this agenda. Participation in forty-five days 
or two months of its religious-military training program, intended to 
create holy warriors to fight in a holy war in the south, is mandatory 
for civil servants and others, including university students--before 
all universities were all closed in early 1997 to free up students for 
the war. The mandatory PDF training, infused as it is with Islamic 
religious fervor, creates an atmosphere of coercion on all participants 
to convert to Islam in violation of freedom of religion, or if they are 
already Muslim, to join in the government's particular interpretation 
of Islam. PDF recruits are subjected to a severe regime of exercise, 
sleep and food deprivation, and hours of religious studies in an effort 
to fire up their zeal to kill. One religious Muslim student I 
interviewed was so offended by this distortion of his religion that he 
refused to pray in the PDF camp.
    The rights of children are violated by the government's program for 
street children: it takes children off the streets without finding out 
if they have a family and where they are, and puts them in schools 
where they are given a religious Islamic education, regardless of the 
wishes or religion of their families. Many times southern non-Muslim 
children on their way to market have been involuntarily separated from 
their families and given an Arabic name and Islamic religious 
instruction. Often underage children are drafted into the army and the 
Popular Defense Forces.
    Militant Islamists try to foment religious divisions by 
characterizing Christianity as a ``foreign'' doctrine, introduced by 
the British colonialists to divide the country. This stirring up of 
animosity against Christians, which violates their right to freedom of 
religious belief, draws on the fact that in modern times Sudanese 
Christians have been mostly of southern origin. Southerners were 
converted by foreign (mostly European and American) missionaries 
beginning in the nineteenth century, when some segments of western 
public opinion crusaded against the continuing enslavement of African 
southerners. After the British and their Egyptian allies overthrew the 
Sudanese Mahdist (Islamic) government in 1898 and governed Sudan for 
the next six decades, the south was put off limits to Muslim 
proselytizing and opened up again to Christian missionaries. Despite 
this missionary work, traditional African believers still form the 
majority religious grouping in the south, not Christians.
    Muslims allege that they were persecuted in the south by Christians 
and foreigners. There are Muslims in the south, some descended from 
Arab traders and some who are indigenous non-Arab peoples who have 
converted to Islam.
    Imposition of sanctions on Sudan solely on religious persecution 
grounds might incorrectly give the impression that religion is the only 
or the main source of abuse, and it might pose a danger to the 
Christian communities and leaders in government areas of Sudan, 
including Juba. It would give the government the opportunity to again 
claim that Sudanese Christians are not really Sudanese--despite the 
fact that the Christian clergy is almost entirely Sudanese--and that 
Christians are aligned with powerful foreign countries that seek to 
protect the interests of their own correligionists, to guarantee them 
privileges not enjoyed by the general population, and to use them to 
destroy a country that has a Muslim majority.
    Fashioning sanctions so that they also apply on grounds of 
religious persecution of Muslims and other non-Christians will not cure 
the perception problem. Sudanese Muslims may believe that these 
sanctions are intended to benefit the Christian minority; the 
government must be credited with the ability to follow the debate 
inside the US. It may use religious persecution sanctions to shift the 
blame for its economic, political and military problems to the 
Christian communities. There is also the danger that the NIF government 
might try to whip up resentment and hatred of Christian communities in 
the north and permit NIF militias to physically attack them with 
impunity, as these militias have been permitted to attack student 
demonstrators. If the sanctions are imposed because of gross human 
rights abuse of all Sudanese, the NIF will be less able to play on the 
supposed Christian menace from within.
    In Sudan's historical and current context, where religious 
persecution is part of the wholesale violation of human rights, 
religious rights can best be protected by not by singling them out for 
special treatment but by imposing sanctions on account of all gross 
abuses of human rights.

    Senator Ashcroft. I thank you for your comments.
    Baroness Cox, you mentioned in your testimony the military 
activity of the government. Can you elaborate on the objectives 
of the government's military campaign against the south and how 
they seek to achieve those objectives?
    Did I hear you say that you were at one time among a group 
of citizens that was under attack? Would you clarify your 
testimony in that regard?
    Baroness Cox. Thank you very much, Mr. Chairman.
    I am very pleased to develop a little bit the policies, or 
my critique of the policies the government is adopting in its 
military offensives against its own people. The evidence, as I 
have said, is taken at first hand experience.
    The government does deny that it ever undertakes military 
offensives or that it bombs civilian targets. The photographs 
which are on display here have all been taken by myself or by 
my colleagues on location, and I think every one of them is a 
testimony to the veracity of our critique of the military 
offensives against the civilians, its own civilians, by the 
regime in Khartoum.
    The picture on the left shows two little Nuba Mountain boys 
in what remains of their home, what remains of their village, 
after ground attacks by PDF and government forces in the Nuba 
Mountains. The picture to the left of that I am afraid is a 
very shocking picture. But it is the reality which confronts us 
when we are in Sudan. It is of a man who has suffered, been 
shot at point blank range in the face by a PDF militia when he 
was trying to stop them during a raid on his village in Bahr-
El-Ghazal from killing other villagers and from taking young 
people into slavery. He was actually then trying to stop a boy 
being abducted as a slave in front of him. He was shot at point 
blank range in the face and the whole of his bottom jaw was 
shot away.
    To the right there is a photograph which I took just last 
year following a military raid on a village, another village in 
Bahr-El-Ghazal. That lady is standing in the remains of all 
that is left of her hut, her tuqual. Her whole compound has 
been burned, all her livestock taken, and she was left with 
absolutely nothing. She said, ``I will die, I have nothing 
left.'' Her two children had just been taken as slaves, two 
daughters, age 13 and 15. She said, ``I have no one to help me 
build, rebuild. I don't even have cooking pots. I don't have a 
water utensil. I shall die.''
    But she finished with characteristic Sudanese graciousness 
and lack of self pity: ``But thank you for coming and thank you 
for caring.''
    Very briefly, the other photograph on the bottom display is 
of a little lad that I took just last month. He is in what 
remains of the church. The village was overrun by military 
forces in Bahr-El-Ghazal. Everything was burned. The primary 
school was burned, the church was burned, and the people had 
been left in a state of complete destitution.
    The military offensives take two forms: aerial 
bombardment--and yes, many hours I have spent in foxholes with 
Antonov bombers overhead, dropping their deadly cargo on 
civilian targets. Most recently it was last month for the Beja 
people in eastern Sudan. The Beja are a Muslim people. But we 
have experienced this in other parts of southern Sudan. 
Similarly, ground forces attack and have been adopting either 
scorched earth policies or forcible displacement of people from 
their land. We witnessed that earlier this year in Southern 
Blue Nile, in Eastern Upper Nile, and with the Beja, where, 
again, people have been driven off their land by ground forces. 
And in Bahr-El-Ghazal they tend to be combined with the slave 
raids which we have already described.
    Senator Ashcroft. Reverend Nikkel, Lady Cox has made some 
recommendations in terms of the potential for U.S. policy. Do 
you have any suggestions in terms of what you would recommend 
in terms of our policy toward the Sudanese Government or the 
people of Sudan?
    Ms. Rone, I would be pleased to ask you the same question.
    Reverend Nikkel. I am concerned that leaders on the ground 
inside have a voice on any action, on actions taken from the 
side. I suppose, as I work with church leaders, particularly, 
but other local leaders, there is the sense of having your 
authority taken away within the context in which you live. And 
if there are strong measures on behalf certainly of religious 
faith, religious communities, it is important that those 
communities within, inside, have some opportunity to negotiate, 
knowing what repercussions they may have upon them down the 
road, that action not be taken from this side without some 
consultation on the ground inside Sudan.
    Senator Ashcroft. Ms. Rone.
    Ms. Rone. Thank you.
    We actually have a long series of recommendations that I 
can submit to you. But I do want to underline the focus on the 
U.N. human rights monitors.
    This is a program that the U.N. Commission for Human Rights 
approved 2 years ago, and through all kinds of maneuvers by the 
Government of Sudan and bureaucratic difficulties and 
intransigence the U.N. has never funded these human rights 
monitors.
    It is really a shame because they could be doing a very 
good job there on the spot, 24 hours a day, taking testimonies 
of people and bringing to light through the official U.N. 
channels the abuses that are going on there.
    The U.N. Special Rapporteur on Human Rights only goes there 
once or twice a year for brief visits. This would be a much 
more effective way to raise international consciousness of it.
    I would also like to echo the emphasis on doing what we can 
to assure access for aid to be taken to every place where there 
are people in need. The government, especially, is guilty of 
putting large areas off limits to aid organizations on military 
grounds, rather than having anything to do with humanitarian 
need. They are really trying to strangle and circumscribe the 
U.N. humanitarian aid effort as much as they can. It is a daily 
war of death by a thousand cuts for U.N. operations.
    I think we should do whatever we can to support and expand 
their humanitarian efforts.
    Senator Ashcroft. I want to thank all of you for 
participating in the hearing today. The tragedies that have 
been described, the numbers associated with political and 
humanitarian crises in Africa often are staggering. Disasters 
and wars in other parts of the world often pale by comparison.
    Statistics for casualties, refugees, and displaced persons 
in Sudan are, indeed, some of the most troubling ones that we 
might find in any setting. And yet, this is more than 
statistical.
    I thank you for bringing the photographs and for what I 
would have to characterize as poetry, the statement that you 
included from the holder of the cross, Reverend Nikkel. It 
brings a sort of tangibility and a personality to what 
statistics do not reveal.
    These displaced individuals, these casualties, these 
tragedies are some of the most troubling ones that I have ever 
encountered. Religious hatred is an evil that is always present 
in civil conflict in Sudan with the resulting loss of life and 
destruction of property. But it is particularly difficult in 
this setting because it is compounded by other flows and forces 
in that nation which make this a very complex situation.
    I believe there is hope for Sudan, however, and I think 
U.S. policies must help the Sudanese people leave behind a 
bitter past of tyrannical rule and social upheaval. We will 
struggle to find ways to make sure that the United States does 
not, in any way, reinforce or otherwise aggravate a situation 
which is very, very troublesome. We should find a way, whenever 
possible, to have policy which would encourage an amelioration 
of these very serious grievances.
    I wish to both Lady Cox and Reverend Nikkel a safe journey. 
Thank you for coming so far to participate.
    Ms. Rone, I thank you for your appearance here today.
    Without further business, the committee meeting is 
adjourned.
    [Whereupon, at 11:53 a.m., the subcommittee adjourned.]



                            A P P E N D I X

                              ----------                              


           Behind The Red Line: Political Repression in Sudan

                 Prepared by: Human Rights Watch/Africa

        *        *        *        *        *        *        *

Freedom of Religion
    Religion is very high on the public agenda of the National Islamic 
Front-dominated government. Sudan's Constitutional Decree No. 7 
(Principles, Regulations and Constitutional Developments for 1993), 
October 16, 1993, states in Article 1:

        Islam is the guiding religion for the overwhelming majority of 
        the Sudanese people. It is self-generating in order to avert 
        stagnation and constitutes a uniting force that transcends 
        confessionalism. It is a binding code that directs the laws, 
        regulations and policies of the State. However, revealed 
        religions such as Christianity, or traditional religious 
        beliefs may be freely adopted by anyone with no coercion in 
        regard to beliefs and no restriction on religious observances. 
        These principles are observed by the State and its laws.

    Only an estimated 60 to 70 percent of the Sudanese population is 
Muslim, however.\146\ As for the other religions, the Catholic church 
summarized the problem:
---------------------------------------------------------------------------
    \146\ Christians account for 4 percent of the national total (15 
percent of the southern population), and traditional religions the 
rest. ``Sudan: Country Profile 1994-95,'' The Economist Intelligence 
Unit.

        Aware that the State of Sudan sponsors and promotes Islam as 
        the religion of the country, we Christians, as citizens of 
        Sudan, demand an equal position for Christianity and expect to 
        be treated in the same way as the Muslims. The present policy 
        of identifying the country and the State with one religion 
        only, Islam, shall not promote the spirit of dialogue, 
        understanding, and peaceful co-existence among the citizens of 
        the country.\147\
---------------------------------------------------------------------------
    \147\ Sudan Catholic Bishops' Conference, ``The Miscellaneous 
Amendment Organization of Voluntary Work Act 1994: Position of the 
Catholic Church,'' Khartoum, February 2, 1995, p. 2.

    Freedom of religion for non-Muslims has been interfered with or 
denied in many ways, and non-Muslims have been discriminated against on 
account of religion. Church leaders speak of a continual struggle for 
survival against omnipresent government interference and harassment. We 
do not know what formal status, if any, the government accords 
traditional African religions; although their practitioners outnumber 
Christians, especially in the south, they are less organized. Those who 
practice other religions often have been made to feel marginal or 
inferior by spokespersons for the National Islamic Front which controls 
the government.\148\
---------------------------------------------------------------------------
    \148\ One North American Muslim writer quoted NIF Politburo member 
Ahmad `Abdal-Rahman in Al Nur (Cairo), June 17, 1987, p. 4: ``Most of 
its [the South's] inhabitants are heathens who worship stones, trees, 
crocodiles, the sun, etc. . . . All this presents a civilized challenge 
to all of us as Arabs. . . .'' Simone, In Whose Image, p. 165.
---------------------------------------------------------------------------
    Being a Muslim does not guarantee freedom of religion, however. 
Some religious groups critical of the government and the National 
Islamic Front--as being insufficiently religious--have been subjected 
to harassment and their leaders detained. The two sects on which the 
two largest political parties were based have been subjected to 
government attempts at control and even confiscation of their property.
    For Muslims, religious freedom is belied by the fact that apostasy, 
the repudiation by a Muslim of his faith in Islam, is punishable by 
death under section 126 of the 1991 Criminal Act. Recent converts may 
be excepted from this extreme penalty but the provision remains open to 
abuse. The death penalty may be imposed for what the court deems to 
amount to repudiation of belief in Islam, regardless of the actual 
beliefs of the accused. It is also open to political manipulation, as 
illustrated by the case of Mahmoud Mohamed Taha, a religious Muslim 
leader and founder of the Republican Brothers movement, executed in 
1985 for apostasy.\149\
---------------------------------------------------------------------------
    \149\ Human Rights Watch/Africa, ``In the Name of God,'' pp. 35-36.
---------------------------------------------------------------------------
    The deepest conflict is between the government and the Christian 
churches, however. The U.N. special rapporteur on Intolerance and of 
Discrimination based on Religion or Belief said in his December 1995 
report that there had been positive measures in Sudan as a result of 
the meeting between Pope John Paul II and President Omar al Bashir of 
Sudan, in particular the ``repeal of the law relating to missionary 
societies, allocations of land to Christians for construction of 
churches, and visa issue process made easier.'' \150\
---------------------------------------------------------------------------
    \150\ Report submitted by Mr. Abdelfattah Amor, special rapporteur. 
in accordance with Commission on Human Rights resolution 1995/23, 
``Implementation of the Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief,'' United 
Nations, E/CN.4/1996/95, December 15, 1995, p. 12, para. 55.
---------------------------------------------------------------------------
    It is true that the government took a step forward in its relations 
with the churches when it repealed the Missionary Society Act of 1962 
in late 1994. It then took two steps backward when the president issued 
a decree that would have placed churches--but not mosques--in the same 
category as foreign relief organizations, required each congregation to 
register separately and secure approval from a minister to continue 
worshiping, and subjected them to numerous controls on their daily 
affairs which violate freedom of religion under Article 18 of the 
ICCPR. The churches rose in protest against its unfairness, and the 
decree was not enforced, but its issuance revealed the adverse and 
discriminatory treatment that non-Muslim religions receive from the 
Sudanese government despite lip service paid to the notion of respect 
for others' religions.
    Government relations with Christian churches in government garrison 
southern towns have been conducted through the prism of the war. The 
government is constantly alert to possible rebel SPLA sympathizers and 
infiltrators, and church leaders figure high on its list of suspects.
    The war permeates relations between the government and Christian 
churches because the government has characterized the civil war with 
southern-based rebel forces (mostly non-Muslim) as a jihad or Holy War 
on the part of the government and its religious adherents.\151\ 
Christians cannot be blamed for thinking that this rhetoric is aimed at 
them, whether they side with the SPLA or actively oppose it.\152\
---------------------------------------------------------------------------
    \151\ The governor of River Nile State, Staff Brig. (Ret.) Abd al 
Rahman Sir al Khatim told a rally that ``jihad in Sudan was a message 
and a duty with which we defend the faith and the homeland. He said it 
was a message to all the sceptics who did not wish Sudan well, 
conveying the courage of the sons of the north. He said the mujahidin 
contributed by the state to the theatres of operations had their hearts 
full with the Qur'an . . . .'' ``Sudan: Military and Food Convoy from 
River Nile State Arrives in Khartoum,'' Republic of Sudan Radio, 
Omdurman, in Arabic, 1300 gmt, December 4, 1995, excerpts by BBC 
Monitoring Service: Middle East, December 6, 1995.
    \152\ On the fortieth anniversary of the independence of Sudan, 
according to government radio, President al Bashir ``reaffirmed that 
Sudan was entering a renaissance, which is an embodiment of real 
independence, so that Sudan could perform its Arab, Islamic and 
international roles. . . . [He] referred to the spirit of jihad which 
has engulfed the entire people of Sudan. He said this spirit was 
continuing to deepen and expand day after day and that sectors of the 
society were currently competing with each other in the fields of jihad 
in defense of the faith and the homeland.'' ``Sudan: President Bashir 
Says All Citizens `Engulfed' by Spirit of Jihad.''
---------------------------------------------------------------------------
    The army provides religious training (in Islam) to conscripts and 
Popular Defense Forces militia in addition to military training.\153\ 
Christians--and practitioners of traditional African religions--are 
naturally out of place. There is no respect for the right to maintain 
one's own non-Muslim religion in this environment, and the pressure to 
conform by adapting to Islamic religious practices is great. Sudanese 
men must submit to army training if they are of the age of national 
military service, and both men and women must undergo forty-five day 
PDF training if they are government civil servants or have some other 
relationship with the government. Such PDF training is in addition to 
national service obligations for men, and is required for entry into 
university and professional licensing for both sexes.\154\
---------------------------------------------------------------------------
    \153\ A visitor to Khartoum in 1996 observed a Popular Defense 
Forces training camp in Markhiat outside of Khartoum, where ``new 
recruits sang enthusiastically of jihad--holy war--and the victorious 
spread of shari'a rule.'' The trainees ``sang of Allah and the battles 
to be fought in his name.'' David Orr, ``Civil War Turns against 
Khartoum,'' The Independent (London), February 12, 1996.
    \154\ Time spent in PDF training and service is deductible from 
national service requirements.
---------------------------------------------------------------------------
    In this climate, where government rallies are held and the head of 
state addresses the participants as Muslims and encourages them to 
continue with the Holy War, \155\ there are frequent allegations of 
religious discrimination and of denials of freedom of religion, 
including freedom to manifest one's own religion.
---------------------------------------------------------------------------
    \155\ President al Bashir addressed a mass rally held to mark the 
National Martyrs' Day in Kosti, according to government radio, 
stressing that Sudan would not deviate from its cultural course 
regardless of the conspiracies being hatched against it by the enemies 
of Islam and the homeland. . . . He said the Mahdist revolution [of 
1881-98 against the corrupt Turko-Egyptian rule] would persevere for as 
long as the Sudanese people stuck to the principles upheld by the 
Mahdist revolution, which had called for the victory of the religion of 
truth. He called on the youth to enlist in the battalions of the jihad 
to defend the faith and the homeland. ``Sudan: President Addresses 
Martyrs' Day Rally, Says Sudan Will Protect Homeland,'' Republic of 
Sudan Radio, Omdurman, in Arabic, 1300 gmt, November 28, 1995, excerpt 
quoted by BBC Monitoring Service: Middle East, November 28, 1995; see 
``Sudan: President Says Jihad Against `Traitors and Enemies' to 
Continue,'' Republic of Sudan Radio, Omdurman, in Arabic, 0430 gmt, 
November 23, 1995, excerpts quoted by BBC Monitoring Service: Middle 
East, November 25, 1995.
---------------------------------------------------------------------------
    Even absent the war, however, the NIF aspiration to create an 
Islamic state with ``one language, Arabic, one religion, Islam,'' 
conflicts with the demands of Sudanese that their rights to practice 
different religions (and to preserve languages and cultures) and to be 
treated equally by the government be respected. It appears that there 
are many in government who sincerely believe that conversion to Islam 
of everyone--including those who already have a religion--``is for 
their own good.'' \156\ Forced conversion, however, whether to a 
Christian sect or to Islam, violates fundamental human rights 
principles.
---------------------------------------------------------------------------
    \156\ This sentiment was expressed to the Archbishop of Canterbury, 
Michael Evans, ``Carey begs Sudan to stop persecuting Christian 
minority,'' The Times (London), October 9, 1995.
---------------------------------------------------------------------------
    The government has pointed to the fact that the Christian 
population is growing.\157\ This is accurate. The Catholic church says 
that on Easter night of 1995 for instance, there were over 6,000 adults 
baptized in the Catholic Church in Khartoum. Freedom of religion and 
religious practices cannot be measured in numbers of conversions, 
however, since it is impossible to say what the numbers would be if the 
government ceased its abusive practices.\158\
---------------------------------------------------------------------------
    \157\ ``The Response of the Government of Sudan,'' November 21, 
1993, p. 23, para. 85.
    \158\ The conversions are of people who previously practiced 
traditional African religions. Conversions from the Muslim community 
are extremely rare because they are punishable by death. One southern 
intellectual notes that Christianity combined with traditional identity 
among Southerners to consolidate and strengthen a modern southern 
identity of resistance against Islamization and Arabization. Deng, War 
of Visions: Conflict of Identities in the Sudan (Washington, D.C.: The 
Brookings Institute, 1995), pp. 205-29. Whether there would be the same 
number of converts to Christianity absent Islamization forces is 
impossible to know.
---------------------------------------------------------------------------
    National Islamist Front ideology, according to one of its main 
proponents, is expressed in the preamble to its constitution:

        to group together `all the children of Sudan, men and women, 
        regardless of their historical allegiances, their class 
        situation or their regions' into one comprehensive organization 
        working for a Muslim Sudan.\159\
---------------------------------------------------------------------------
    \159\ Abdelwahab El-Affendi, Turabi's Revolution: Islam and Power 
in Sudan (London: Grey Seal, 1991), p. 143.

    One historian described the NIF's ideology regarding treatment of 
non-Muslims within an Islamic state: ``Starting from the customary 
insistence that Islamic law protects religious liberty and would 
encourage religious practice in general, and an acceptance that non-
Muslim communities can be left free to regulate their own family 
laws,'' the NIF proposes a territorial application of shari'a, 
considering the prevalence of certain religions or cultures in the area 
at variance with the religion dominant in the country at large. Thus 
not only Christians and practitioners of traditional African religions 
in southern Sudan were to be exempt from shari'a, but Muslims living in 
the south were to be similarly exempt.\160\
---------------------------------------------------------------------------
    \160\ Tim Niblock, ``Islamic movements,'' pp. 262-64. See Chapter 
V, Law and the North-South Divide.
---------------------------------------------------------------------------
    Theoretically, under its Sudan Charter of January 1987, the NIF 
accepts that a non-Muslim can be eligible for any office within the 
state, including head of state, although ``religiousness in general may 
be taken into consideration as a factor of the candidate's integrity.'' 
\161\ However, the same historian notes,
---------------------------------------------------------------------------
    \161\ Niblock, ``Islamic movements,'' pp. 262-64.

          Flexibility of approach seems to have existed in inverse 
        relation to actual involvement in implementing an Islamist 
        programme. . . . The Muslim Brotherhood [precursor of the NIF], 
        despite its apparently flexible ideas, was effectively in 
        alliance with Nimeiri while he was pursuing policies which were 
        harsh, vindictive and fundamentalist. Even in the subsequent 
        parliamentary regime, and despite the liberal ideas propounded 
        in election programmes, NIF policies made possible the 
        retention of the laws which Nimeiri had introduced and insisted 
        that the courts should implement them. . . .
          The apparent paradox of a movement whose approach is liberal 
        and flexible in the abstract, but capable of supporting narrow 
        and fundamentalist policies in practice, can only be understood 
        with reference to the dynamics inherent in religious based 
        political movements. The religious basis ceases to be a 
        framework within which ideas can be developed and debated, but 
        becomes a badge of identity--a slogan around which specific 
        sectors of the population can be mobilized, against other 
        movements and parties. . . . Correspondingly, to opponents the 
        religious dimension becomes symbolic of the attempt by one part 
        of the population to oppress another. Internal and external 
        pressures impinge to ensure that the religious framework does 
        not remain open and adaptive.\162\
---------------------------------------------------------------------------
    \162\ Ibid., p. 266.

    This may explain why the theory sounds better than the practice, 
and how elements of religious tolerance may appear in statutes but be 
lacking in day to day affairs. For instance, the government, defending 
itself against charges of forced Islamization, notes that ``according 
to Qur'anic teachings there is no compulsion in religion, so the 
references [in the Special Rapporteur's report] to enforced 
Islamization and the killing of those who refuse to convert to Islam 
are against the fundamental principles enshrined in the Qur'an.'' \163\
---------------------------------------------------------------------------
    \163\ ``The Response of the Government of the Sudan,'' November 21, 
1995, p. 23, para. 84.
---------------------------------------------------------------------------
    What is at issue in any human rights report are government 
practices. The reply that ``according to Qur'anic teachings there is no 
compulsion in religion'' does not dispose of the issue; it cannot be 
assumed that all government practices are in complete harmony with 
Qur'anic teachings, since a government is only a human institution and 
not capable of perfection.
    It is useful, however, that there is an official government 
statement that enforced Islamization is against fundamental Islamic 
principles. It would be most helpful if that statement were conveyed in 
a prominent way to government agencies that have been accused of using 
government resources and power to convert people to Islam, and to 
agencies with which the government contracts, including Islamic relief 
organizations such as Dawa Islamiyya (Islamic Call).\164\
---------------------------------------------------------------------------
    \164\ The NIF established Islamic Dawa (Call) in the early 1980s to 
promote the cause of Islam in Africa. The NIF also established the 
Islamic African Relief Agency (IARA) to do humanitarian work in Africa. 
Both have their headquarters in Sudan and programs in at least fifteen 
countries in Africa, and a growing presence in Asia and Europe. Human 
Rights Watch/Africa interview, New York, March 1996. These 
organizations were intended to compete with parallel Christian 
organizations, the reasoning being that missionaries had used education 
and humanitarian aid to subvert African Muslims and it was necessary to 
provide Africans with an alternative. Francis Deng, War of Visions, p. 
175.
---------------------------------------------------------------------------
    Human Rights Watch has already published a report pointing out, 
with specific testimonies, the ways in which particular government 
agencies have attempted to Islamize children and adults with whom they 
come in contact, as in homes for street children and in the training of 
army recruits and the Popular Defense Forces militia.\165\ When these 
practices are terminated, then the government will no longer be accused 
of forced Islamization.
---------------------------------------------------------------------------
    \165\ Human Rights Watch/Africa, Children of Sudan.
---------------------------------------------------------------------------
    There is a small space for the appearance of tolerance, usually 
occupied by a government-appointed Christian such as State Minister for 
Foreign Affairs Bishop Gabriel Rorech, who holds a visible but token 
position and routinely is presented to visitors as proof of the lack of 
religious discrimination in Sudan.\166\ The space may also be occupied 
by prominent foreign visitors such as the Archbishop of Canterbury Dr. 
George Carey, who visited Khartoum and Juba in October 1995, and 
exercised the right to speak publicly and freely about the difficult 
situation of Christians in Sudan.\167\ He was quite outspoken, in what 
one newspaper referred to as ``some of the bluntest speeches by an 
Archbishop of Canterbury in recent memory.'' \168\ In the southern town 
of Juba the archbishop referred to the `` `torture, rape, destruction 
of property, slavery and death' being endured by Sudanese Christians as 
a result of the government's Islamicisation programme. `I challenge 
those who are responsible for such inhuman behaviour to stop. It is no 
part of any creed to treat fellow human beings with such disrespect and 
cruelty,' he said.'' \169\
---------------------------------------------------------------------------
    \166\ Bishop Rorech, of the Episcopal Church of Sudan (ECS), was 
recently elevated to the position of archbishop. Many ECS members and 
clergy feel it is inappropriate for clergy to hold a government 
position. The bishop is outranked in the Anglican hierarchy by the 
Archbishop of Canterbury.
    \167\ Michael Evans, ``Carey begs Sudan to stop persecuting 
Christian minority.''
    \168\ Clifford Longley, Religious Affairs Editor, ``Carey Chides 
Muslims for Persecuting Christians,'' The Daily Telegraph (London), 
October 9, 1995.
    \169\ Ibid.
---------------------------------------------------------------------------
    Sudanese clergy, however, may not be so outspoken. They suffer from 
a constant campaign of harassment, most notably in the case of Catholic 
Archbishop Paolino Lukudu Loro of Juba, who is not even allowed to 
receive international visitors in private; all such conversations must 
take place in front of a Sudan Security agent.
    Agnes Lukudu, the governor (wali ) of Bahr El Jebel state where 
Juba is located, said that the Catholic archbishop takes part in 
politics, and ``if you cannot see him, it is for the good of the 
people.'' She said that the bishop was like a king and was not in touch 
with the people; he did not mix with them except at mass, so ``the 
whole story doesn't filter up.'' She preferred that Human Rights Watch 
speak to a priest. When we offered to do so if we could meet a priest 
privately, the offer was ignored. ``If we allow antigovernment people 
to meet with outsiders, they will say the Cabinet is dominated by 
Muslims,'' she said, then listed those in the Bahr El Jebel cabinet, 
herself included, who were Christians. She maintained that ``it does 
not follow that if the area is predominantly Christian, the leadership 
should be held by Christians.''
    Many have realized that ``the Church led us in Africa; we're trying 
to say to the Church, tell the truth,'' she said, ending the 
conversation by noting, ``We [the current government] are here to help 
the people to come out of the darkness,'' \170\ a phrase frequently 
used by proselytizing Islamists when referring to their dealings with 
southern practitioners of traditional African religions and Christians.
---------------------------------------------------------------------------
    \170\ Human Rights Watch/Africa interview, Agnes Lukudu, governor 
of Bahr El Jebel state, Juba, Sudan, June 6, 1995.
---------------------------------------------------------------------------
    The Catholic church in Juba is under extreme pressure from the 
government, even more than is visited on churches in Khartoum. Because 
of the archbishop's statements in homilies and pastoral letters about 
human rights, among other things, Sudan Security in Juba has been at 
loggerheads with Archbishop Paolino Lukudu Loro since 1990. He does not 
bend. In mid-1992, the SPLA attacked Juba twice and almost managed to 
reach the center of the city. Following the attacks, hundreds were 
rounded up by security and military intelligence and subsequently 
disappeared; some were tried for treason and executed but most remained 
unaccounted for. During that time many educated people close to the 
archbishop disappeared.\171\
---------------------------------------------------------------------------
    \171\ Human Rights Watch/Africa interview, Khartoum, June 9, 1995.
---------------------------------------------------------------------------
    The government's record is heavily weighted on the side of 
religious intolerance. Take, for example, the fury with which the 
government greeted the recommendation of Special Rapporteur Gaspar Biro 
to the government to abolish legislation contradicting provisions of 
international law to which Sudan is a party, referring to the hudud 
penalties.\172\ Claiming that the special rapporteur had attacked 
Islam, and seeking to speak for all the faithful, the government until 
recently barred him from the country and engaged in ad hominem attacks 
on his age, educational background, experience, and other personal 
qualities.\173\ While we believe that this is a pretext and an attempt 
to shield itself from criticism of human rights abuses, which Islam and 
all major religions condemn, the government's statements about the 
special rapporteur nevertheless imply religious intolerance in their 
reference to his commitment to observing a major Christian 
celebration.\174\ This attack on the special rapporteur's religious 
practices was followed by a further statement by the government 
including a veiled threat against him, in the name of religion: ``we 
don't want to speculate about his fate if he is to continue offending 
the feelings of Muslims world wide by maintaining that call [for 
abolition of the hudud penalties], as he did in his current interim 
report.\175\
---------------------------------------------------------------------------
    \172\ ``The Situation of Human Rights in the Sudan,'' February 1, 
1994, p. 42, para. 133 (a)
    \173\ See ``The Response of the Government of the Sudan,'' November 
21, 1995, p. 3, paras. 11 and 12.
    \174\ ``The Special Rapporteur is in no position at all to report 
about the rights of the child in the Sudan for the obvious reason 
already given that he (while in Khartoum) has turned down an official 
invitation to attend a seminar on the rights of the child held in 
Khartoum during 18-20 December 1993 . . . He turned down the invitation 
as he decided to leave Khartoum on 17 December 1993 one day before the 
opening of the seminar, in order to meet his [C]hristmas plans.'' 
Ibid., p. 26, para. 94.
    \175\ Statement by Dr. Ahmed M.O. Elmufti in Response to the 
Statement Made by Mr. Gaspar Biro, Special Rapporteur of the Commission 
on Human Rights, New York, November 27, 1995, p. 3.
---------------------------------------------------------------------------
    Ordinary non-Muslim Sudanese may be treated considerably more 
harshly. Two years after barring him, the government announced that the 
special rapporteur would be permitted to return to Sudan.\176\
---------------------------------------------------------------------------
    \176\ Statement by H.E. Abdel Aziz Shiddu, Minister of Justice, 
made before the 52nd session of the Commission on Human Rights, Geneva, 
April 17, 1996, p. 5.
---------------------------------------------------------------------------
The Applicable Law
    Freedom of thought, conscience and religion is protected in Article 
18 of the ICCPR which provides:

          (1) Everyone shall have the right to freedom of thought, 
        conscience and religion. This right shall include freedom to 
        have or to adopt a religion or belief of his choice, and 
        freedom, either individually or in community with others and in 
        public or private, to manifest his religion or belief in 
        worship, observance, practice and teaching.

The African Charter also protects freedom of religion.\177\
---------------------------------------------------------------------------
    \177\ African Charter, Article 8: ``Freedom of conscience, the 
profession and free practice of religion shall be guaranteed. No one 
may, subject to law and order, be submitted to measures restricting the 
exercise of these freedoms.''
---------------------------------------------------------------------------
    Freedom of thought, conscience and religion is so fundamental that 
Article 18 of the ICCPR is nonderogable, which means it may not be 
suspended even in time of emergency. ``Religion or belief'' was not 
limited to a theistic belief but includes equally nontheistic or even 
atheistic beliefs.\178\
---------------------------------------------------------------------------
    \178\ Partsch, ``Freedom of Conscience and Expression,'' p. 214.
---------------------------------------------------------------------------
    Freedom of religion also means freedom to change one's religion, 
under Article 18 (2) of the ICCPR. Attempts made during the drafting of 
the covenant to delete freedom to change religion were defeated. The 
right to retain one's religion, that is, to reject zealous 
proselytizers and missionaries, was also confirmed in this paragraph. 
The clause also protects against coercion to support a religion other 
than one's own, ``for instance by payment of church taxes or 
contributions.'' \179\
---------------------------------------------------------------------------
    \179\ Ibid., p. 211.
---------------------------------------------------------------------------
    Limitations on the right to manifest one's religion--not on freedom 
of religion, however--are described in Article 18 (3).\180\ Limitations 
on the right to manifest one's religion are permitted in case of public 
safety and order (to prevent public disorder), but not for national 
security reasons. Limitations may be imposed only to protect 
``fundamental freedoms'' of others.
---------------------------------------------------------------------------
    \180\ ICCPR, Article 18 (3): ``Freedom to manifest one's religion 
or beliefs may be subject only to such limitations as are prescribed by 
law and are necessary to protect public safety, order, health, or 
morals or the fundamental rights and freedoms of others.''
---------------------------------------------------------------------------
    ``A state whose public policy is atheism, for example, cannot 
invoke Article 18 (3) to suppress manifestations of religion or 
beliefs,'' according to one legal authority.\181\ Nor can a state whose 
public policy is one religion use Article 18 (3) to justify the 
suppression of other religions.
---------------------------------------------------------------------------
    \181\ Partsch, ``Freedom of Conscience and Expression,'' p. 213.
---------------------------------------------------------------------------
    In 1981 the General Assembly proclaimed the Declaration on the 
Elimination of All Forms of Intolerance and of Discrimination Based on 
Religion or Belief. Article 2 provides:

          (1) No one shall be subject to discrimination by any State, 
        institution, group of persons, or person on the grounds of 
        religion or other belief.
          (2) For the purposes of the present Declaration, the 
        expression ``intolerance and discrimination based on religion 
        or belief '' means any distinction, exclusion, restriction or 
        preference based on religion or belief and having as its 
        purpose or as its effect nullification or impairment of the 
        recognition, enjoyment or exercise of human rights and 
        fundamental freedoms on an equal basis.

    The declaration lists a number of religious freedoms. Including the 
right to maintain charitable or humanitarian institutions, to acquire 
materials related to religious rights, to issue publications, to teach, 
to solicit financial contributions, to train leaders, to observe 
holidays, and to communicate with others regarding religion, at the 
national and international levels.\182\
---------------------------------------------------------------------------
    \182\ Article 6 of the Declaration defines the right to freedom of 
thought, conscience, religion or belief to include, inter alia, the 
following:
          b. To establish and maintain appropriate charitable or 
humanitarian institutions;
          d. To write, issue and disseminate relevant publications in 
these areas;
          f. To solicit and receive voluntary financial and other 
contributions from individuals and institutions;
          l. To establish and maintain communications with individuals 
and communities in matters of religion and belief at the national and 
international levels.
---------------------------------------------------------------------------
Christians
    Christian churches have been subjected to government intrusion into 
the organization of their religious affairs. Christian priests have 
been arrested on specious charges, and church leaders have been denied 
their right to freedom of movement. Church-state relations are at a 
very low ebb.
    Historically successive governments both during and since colonial 
times interfered with and regulated the activities of religions in 
Sudan by dividing the country into exclusive zones of influence--with 
the south set aside for Christian missionaries and off limits to 
Islamic proselytization and public worship. Christian missionaries were 
forbidden any activities in the rest of the country.\183\
---------------------------------------------------------------------------
    \183\ Alier, Southern Sudan, p. 17.
---------------------------------------------------------------------------
    Since independence, there have been enormous population shifts, 
with millions of southerners fleeing drought, war and famine from their 
homes in central and southern Sudan to the cities of the north, 
particularly in the 1980s and 1990s. Many internal migrants--
southerners--banded together and formed Christian churches throughout 
the north; they arrived a few years later than the several hundred 
thousand drought victims from western Sudan--mostly Muslims--whose path 
they followed into urban shantytowns. In the Three Towns (Khartoum, 
Khartoum North and Omdurman) slums, the dispossessed southerners built 
their homes as well as their own small churches/community centers of 
cardboard, mud and other inexpensive materials.
    After the 1989 coup, the NIF came to power with an Islamist agenda, 
openly determined to transform Sudan from a multi religious society 
into an Islamic state. This pressure to Islamize (and Arabize) may have 
contributed to southern migrants' increasing adherence to 
Christianity.\184\
---------------------------------------------------------------------------
    \184\ Christianity has been embraced or re-embraced by southern 
migrants to the north because of the role played by the churches in the 
integration of the migrants to urban life (material assistance, 
education, and continuing contacts with the village of origin and 
ethnic group), and the war and the reactions it engenders. Northern 
society is seen as aggressive and segregative. Roland Marchal, ``La 
`vernacularisation' de christianisme,'' Sudan: History, identity, 
ideology, pp. 189-90.
---------------------------------------------------------------------------
    In October 1994, the government sponsored a Muslim-Christian 
Religious Dialogue Conference which a representative of the Vatican 
addressed.\185\ As a concession to this forum, President (Lt. Gen.) 
Omar Hassan al Bashir announced that the Missionary Societies Act of 
1962 would be repealed. This law, introduced by a previous military 
regime, was used to expel all foreign Christian missionaries from the 
country in 1964. One consequence of the law was the accelerated 
indigenization of the Christian churches in Sudan.\186\
---------------------------------------------------------------------------
    \185\ The Vatican's representative, Cardinal Francis Arinze, a 
Nigerian who heads the department of dialogue among religions, called 
on the Sudanese to promote dialogue at home; the conference was 
attended by 500 people, of whom 150 were from outside Sudan. Alfred 
Taban, ``Sudan Holds Inter-religious Dialogue,'' Reuter, Khartoum, 
October 8, 1994.
    \186\ The Missionary Societies Act was an attempt to regulate, by 
means of a system of licences, the activities of missionary society. 
Two prominent historians described it as ``a crude device to allow 
unlimited interference with missionaries.'' P.M. Holt and M.W. Daly, A 
History of the Sudan, 4th ed. (New York: Longman, 1988), p. 179.
---------------------------------------------------------------------------
    After this conference, the government began meetings with various 
churches on an irregular basis in order to improve communications. 
Those in attendance for the government at meetings with the Catholic 
church included a representative of Sudan Security (on behalf of the 
ministry of interior), a representative of the ministry of social 
planning's office in charge of church personnel, a representative of 
the ministry of interior responsible for exit visas and other travel 
permits, and a representative of the Council for International People's 
Friendship.\187\
---------------------------------------------------------------------------
    \187\ Human Rights Watch/Africa telephone interview, New York, 
March 1996.
---------------------------------------------------------------------------
    Most church leaders feel the dialogue is not going anywhere. One 
pointed to symbolic actions that are cost-free but deliberately 
neglected. For instance, the Kordofan governor and other officials were 
invited but failed to appear at the consecration of the bishop of El 
Obeid, Mons. Antonio Menegato, held on March 3, 1996.\188\
---------------------------------------------------------------------------
    \188\ Ibid.
---------------------------------------------------------------------------
Arrest of Church Leaders
    The government has claimed to have exposed particular priests or 
church leaders as rebel sympathizers and thus confirmed its suspicions 
that the churches and their followers are a ``fifth column'' in the 
Islamic state. On January 16, 1996 the government in a filmed ceremony 
released a Catholic priest, Fr. Mark Lotede, and a Catholic school 
student, Simon Peter; at the ceremony the priest, detained in Juba, 
``admitted'' that he had been involved in sabotage plans. This ceremony 
took place in the presence of government officials from Sudan Security 
and the ministry for social planning involved in church affairs, and 
the papal nuncio and other Catholic officials summoned there for that 
purpose.
    Shortly after the priest and student were released, the Vatican 
accused Sudan Security of torturing the priest into confessing, and of 
torturing a student into testifying against the priest. The papal 
nuncio, Amb. Archbishop Erwin Josef Ender, wrote a scathing letter to 
the government after witnessing the event, and rejected all statements 
made there by the two men as the product of torture.\189\ ``I was 
revolted by the lying and violent spectacle,'' the nuncio wrote. He 
also protested the fact that he and the other Catholic officials were 
brought to the ministry under false pretenses, saying he would never 
have attended if he had known they were going to stage such a televised 
spectacle.
---------------------------------------------------------------------------
    \189\ Letter, Archbishop Erwin Josef Enter, ambassador from the 
Vatican, to S. Mohamed Osman al Khalifa, minister of social planning, 
Khartoum, January 25, 1996. This letter with a cover letter of the same 
date was circulated to the diplomatic corps in Khartoum.
---------------------------------------------------------------------------
    Fr. Mark Lotede, of the Toposa tribe originating around Kapoeta in 
Eastern Equatoria, southern Sudan, had worked actively since 1991 
against the government policy of abducting Toposa children and 
interning them in a camp at Qariat-Hanan where they were exposed to 
forced Islamization.\190\ According to Catholic church sources, some of 
the children were sent abroad to Libya and Saudi Arabia, some were sent 
to work on farms, and others were given military training and sent to 
the front. Fr. Lotede, a teacher at St. Mary's Minor Seminary in Juba, 
assisted the Toposa children who escaped from the camp and helped some 
register in the church schools in Juba; others tried to return to their 
Toposa villages outside Kapoeta.\191\
---------------------------------------------------------------------------
    \190\ This practice is discussed in Human Rights Watch/Africa, 
Children of Sudan, pp. 14-15.
    \191\ Confidential communication to Human Rights Watch/Africa, 
March 1996.
---------------------------------------------------------------------------
    The government detained and interrogated Fr. Lotede several times 
about his work with the Toposa children. He was detained on December 
27, 1995 in Juba. Simon Peter, a Toposa youth who had recently 
graduated from the Comboni secondary school in Khartoum where he had 
lived since 1989, was detained at the Juba airport on December 26, 
1995. Both were released at the televised ceremony on January 16, 
1996.\192\
---------------------------------------------------------------------------
    \192\ Ibid.
---------------------------------------------------------------------------
    Fr. Romeo Todo, a Catholic priest from the Didinga tribe of Eastern 
Equatoria and teacher at the Comboni College in Khartoum, was arrested 
on January 5, 1996 at the college in Khartoum and released January 14. 
He is chaplain to the Young Christian Students in the Archdiocese of 
Khartoum. He was reportedly questioned with regard to the activities of 
those just detained in Juba. The church attempted to mediate and secure 
the release of the two priests, daily inquiring in many fora about 
their whereabouts, but failed to learn anything until the 
ceremony.\193\ The government had an agreement with the Catholic church 
that no clergy would be arrested without first referring the case to 
the archbishop, but it did not follow the agreement, and the church did 
not learn of the allegations against the two priests until their 
release.
---------------------------------------------------------------------------
    \193\ ``Vatican: Sudan Holds Three Catholic Clerics, Vatican 
Says,'' Reuter, Vatican City, January 11, 1996.
---------------------------------------------------------------------------
    On January 16, the nuncio and Archbishop Gabriel Zubeir Wako of 
Khartoum were summoned by the ministry of social planning to come to 
its office to witness the freeing of Fr. Mark Lotede; the nuncio was 
specifically assured that there would be no television cameras present. 
Upon arrival, they saw that a television camera was filming all the 
events. In addition, the detained clerics were not turned over to the 
nuncio immediately, but the Catholic prelates, accompanied by the 
secretary general of the Sudan Council of Churches, Mons. John Dingi, 
were required to witness the clearly rehearsed ``confessions'' of the 
student Simon Peter and Fr. Lotede, while M. Abdin, from Sudan Security 
in Juba, sat in the corner to monitor events. Dr. Mustafa O. Isma'il, 
of the government-sponsored Council for International People's 
Friendship, also attended.
    At the ceremony, the government charged that Fr. Lotede was 
planning to blow up security installations in the town of Juba, where 
he was based, and had set up an organization, including several 
politicians, to send students to SPLA-controlled Narus to the southeast 
of Juba.\194\
---------------------------------------------------------------------------
    \194\ Jeffrey Donovan, ``Vatican accuses Sudan of torturing 
priest,'' Reuter, Vatican City, February 3, 1996.
---------------------------------------------------------------------------
    In the letter to the diplomatic corps in Khartoum, the nuncio 
stated that the student Simon Peter and Fr. Mark Lotede had been 
physically and psychologically tortured and their lives threatened by 
security to force them to make false statements, and that they denied 
to him that they had ever done what they confessed to. The nuncio 
firmly asserted that all the confessions made there were ``completely 
false'' and did not correspond to the facts, that the whole story and 
its details were ``pure inventions.'' \195\
---------------------------------------------------------------------------
    \195\ Letter, Archbishop Enter to S. Osman al Khalifa, January 25, 
1996.
---------------------------------------------------------------------------
    According to information available to Human Rights Watch, Fr. Mark 
Lotede was tortured for three hours on the day of his arrest by Sudan 
Security in Juba and accused of being the ``obstacle to and enemy of 
Islamization among the Toposa people.'' \196\ His physical torture came 
to an end after a senior Sudan Security officer intervened and stopped 
it. According to Fr. Lotede's statement to church authorities, intense 
interrogation and psychological torture continued for eight days: he 
was told that the Toposa youth in detention would continue to be 
tortured and would eventually be executed if he did not accept as true 
the allegations against him. He could hear the cries of these youth 
under torture almost every night from his cell. Once he gave in to this 
enormous pressure, to save their lives, he was taken to a judge to 
plead guilty, but he was not given any opportunity to plead innocent or 
explain himself. He was threatened with death if he did not follow the 
script: the security officer who had tortured him put a pistol to Fr. 
Lotede's head to press this point home.
---------------------------------------------------------------------------
    \196\ Confidential communication to Human Rights Watch/Africa, 
March 1996.
---------------------------------------------------------------------------
    According to the accounts given to the church, Simon Peter and 
three other Toposa youth were detained together by Sudan Security in 
Juba. The four were accused of being rebels and tortured, and one was 
subjected to electric shocks. They were told their family members would 
be killed (some of the family members were even identified by name) if 
they did not admit to the allegations against them and Fr. Lotede. They 
were rehearsed with a script full of accusations against Fr. Lotede for 
nine days, and beaten when they deviated from it. The four were taken 
to the judge at the same time as Fr. Lotede and their false testimonies 
were videotaped and tape recorded. On January 13, 1996, Simon Peter and 
Fr. Lotede were flown to Khartoum.
    Two weeks after the releases, Sudan Security began to search for 
the student Simon Peter, harassing his home in Khartoum and detaining a 
neighborhood girl for thirteen hours for questioning about him. The 
family temporarily left their home to avoid constant security visits at 
odd hours of the night. The papal nuncio wrote twice to the government 
on Simon's behalf, to no effect.\197\
---------------------------------------------------------------------------
    \197\ Ibid.
---------------------------------------------------------------------------
The Attempt to Register Churches as ``Voluntary Societies''
    In October 1994, at a government-sponsored religious dialogue 
conference, President al Bashir announced that the Missionary Societies 
Act of 1962 would be repealed. While welcoming the nascent dialogue, 
leaders of the indigenous Church voiced their concern for the use of 
religion in the war in southern Sudan, complained about the lack of 
religious freedoms and called for equality between Muslims and 
Christians.
    The repeal of the Missionary Societies Act did not lead to churches 
finally receiving the equality under law they sought with the followers 
of Islam. The president instead decreed and signed new legislation in 
late 1994 (Provisional Order of October 4, 1994) \198\ to regulate 
church affairs, which would have treated churches not as spiritual 
institutions of heavenly origin but as foreign nongovernmental 
organizations which must be registered with a state official, who would 
have the power to terminate their existence.\199\ There was such 
resistance to the Provisional Order that it has not been enforced. No 
other legislation has been proposed in its place.
---------------------------------------------------------------------------
    \198\ Under the 1994 procedure for legislation in Sudan, decrees 
are issued by the president and must be confirmed or amended by the 
Transitional National Assembly within two months in order to become 
law.
    \199\ Sudan Catholic Bishops' Conference, ``The Miscellaneous 
Amendment;'' Province of Episcopal Church of Sudan, Khartoum, 
``Provisional Order: Miscellaneous Amendment (Organisation of Voluntary 
Societies) Act 1994,'' February 2, 1995.
---------------------------------------------------------------------------
    The Episcopal and Catholic churches responded in writing to the 
Provisional Order, the Catholic church condemning it as ``the most 
comprehensive, thorough and far-reaching attempt to control (and 
potentially to terminate) the life and activity of the Church.'' \200\ 
The Episcopal church found the Provisional Order ``repugnant and 
irrelevant to the evangelistic mission of the church.'' \201\
---------------------------------------------------------------------------
    \200\ Sudan Catholic Bishops' Conference, ``The Miscellaneous 
Amendment,'' p. 2.
    \201\ Province of Episcopal Church, ``Provisional Order,'' p. 1.
---------------------------------------------------------------------------
    Unlike Article 22 of the ICCPR on free association and Article 21 
on peaceable assembly, Article 18 on freedom of religion is a 
nonderogable right--meaning it cannot be suspended even in time of war 
or other extreme emergency--and its limitations clause is more 
circumscribed than are the limitations clauses of Article 22 or 21. 
Therefore limits on nonreligious organizations that might be 
permissible under Article 22 or Article 21, such as restrictions for 
reasons of national security, are not applicable to religious 
organizations under Article 18.
    The Provisional Order the government wanted to apply to the 
churches, however, would have amended the Alien Voluntary Work in the 
Sudan (Organization) Act of 1988, which regulates--tightly--the affairs 
of foreign nonprofit organizations. The Provisional Order would add to 
the definition of organization covered by the Alien Voluntary Work Act 
``any foreign voluntary organization whose purpose is to carry out work 
the nature of which is . . . religious.'' \202\ In the past few years 
the number of international nongovernment nonprofit relief and 
development organizations have been subjected to increasingly tight 
restrictions by the ministry of social planning and others on their 
charitable activities in Sudan, to the point where many found 
government interference made their presence untenable, and terminated 
operations in the country.\203\
---------------------------------------------------------------------------
    \202\ Provisional Order: The Miscellaneous Amendment (Organization 
of Voluntary Work) Act 1994, Article 2.2, signed by President (Lt. 
Gen.) Omar Hassan Ahmed al Bashir, October 4, 1994.
    \203\ Only twenty-three international relief agencies were 
registered by the government in 1990, a decided diminution from the 
mid-1980s when eighty-two were registered. J. Millard Burr and Robert 
O. Collins, Requiem for the Sudan: War, Drought, and Disaster Relief on 
the Nile (Boulder, Colo.: Westview Press, 1995), p. 276. Western 
agencies attempting to work in Khartoum were shunned by government 
agencies and indigenous Islamic aid agencies, according to the authors. 
The situation has deteriorated greatly in this respect since 1990. 
Ibid.
---------------------------------------------------------------------------
    At the same time, the Provisional Order would have amended another 
law, the Societies Registration Act of 1957, which applied to national 
nongovernment organizations, and extended its coverage to religious 
organizations.\204\ Prior to the Provisional Order, religious work was 
not covered by the Alien Voluntary Work Act or the Societies 
Registration Act.
---------------------------------------------------------------------------
    \204\ Provisional Order of October 4, 1994, Article 2.1.2.
---------------------------------------------------------------------------
    The Catholic church rejected the definition of the Church as a 
purely human society and organization, and therefore considered that 
the Provisional Order did not apply to the Catholic church.\205\ The 
Provisional Order would have required all churches existing before 
October 1994 to apply for registration to the Commissioner of Social 
Planning within sixty days, \206\ according to the Episcopal Church of 
Sudan. It would have required each new congregation of existing 
churches to register as new and separate churches. That commissioner 
would have the power to accept or reject the application, forwarding it 
to the minister of social planning for approval of the rejection or 
registration on fulfilment of conditions. If the conditions were not 
fulfilled by the church within ninety days, it was to cease to 
function, and its assets disposed of in liquidation.\207\
---------------------------------------------------------------------------
    \205\ Sudan Catholic Bishops' Conference, ``The Miscellaneous 
Amendment,'' p. 2.
    \206\ Neither the Catholic nor the Episcopal Churches has ever been 
required to register with any government agency before, although 
various charitable activities are regulated by the government. Province 
of Episcopal Church, ``Provisional Order,'' p. 7.
    \207\ Ibid., p. 2.
---------------------------------------------------------------------------
    The requirements for churches under the Provisional Order appear to 
be identical to what would be required for an ordinary foreign 
nonprofit corporation: submit an annual statement of accounts to the 
minister, hold annual meetings, file a membership list, elect officers 
as set forth in its by-laws, and so forth. This would not be limited to 
the relief and development programs of churches, but extended to them 
as entire spiritual institutions, according to the Episcopal 
Church.\208\ The minister would have the power to cancel a registration 
if a church contravened the provisions of the act. He could cancel a 
registration if a church's total membership was less than thirty.\209\ 
Although this order does not appear to have been enforced, churches are 
unsure of its status, and of theirs.
---------------------------------------------------------------------------
    \208\ Ibid., pp. 3-4.
    \209\ Ibid.
---------------------------------------------------------------------------
Church Construction and Demolition
    The government has defended itself against charges of forced 
Islamization by pointing to the proliferation of churches in Khartoum 
State, with ``more than 500 new churches by February 1993.'' \210\ 
While there may have been 500 new churches (or congregations of 
existing churches) in Khartoum by February 1993, a number we cannot 
verify, their status was ambiguous at best. There were no church 
buildings for worship built with any official permission because their 
sponsors concluded that requests to build churches would be denied; no 
permission to build a church has been issued for decades, according to 
many church and other sources. Instead, many churches rent or share a 
pre-existing location.
---------------------------------------------------------------------------
    \210\ ``The Response of the Government of the Sudan,'' November 21, 
1995, p. 23, para. 85.
---------------------------------------------------------------------------
    The government denies it has destroyed places of worship.\211\ If 
churches are built or located in ``unauthorised'' areas where their 
parishioners are, then the churches will be demolished along with all 
other structures when the bulldozers arrive.\212\ Many churches 
structures have been so demolished. Human Rights Watch visited the site 
of a recent demolition in one of the vast shantytowns of Omdurman on 
May 30, 1995, and saw one church (used also as a school and community 
center) of mud that had recently been bulldozed, its front door was all 
that remained standing. In another area of Omdurman, the shantytown 
parishioners were dismantling a modest church structure they had built, 
trying to salvage what they could, before government demolition.\213\
---------------------------------------------------------------------------
    \211\ Ibid., p. 23, para. 86.
    \212\ Many Christians live in the vast slum and shantytown areas of 
Greater Khartoum, and have few or no rights according to draconian 
government urban planning schemes. (See below)
    \213\ A recent report by a Catholic group claimed government troops 
destroyed two villages in the Nuba Mountains of central Sudan and 
bombed and desecrated a church on March 24, 1996. ``Church Says Sudan 
Army Uproots 1,000 Families,'' Reuter, Nairobi, Kenya, April 16, 1996. 
The Sudan government denied the allegations on April 24, 1996 in a 
statement issued by its embassy in Nairobi, Kenya.
---------------------------------------------------------------------------
    The situation is only slightly better in officially approved 
transit camps for the displaced and the peace villages for the 
displaced, who have been moved to these locations by the government 
that bulldozes their shantytown homes and churches. Whereas no 
permissions are forthcoming in the large ``unauthorised settlement'' 
areas, government officials will sometimes issue permits for temporary 
structures in the official transit camps for the displaced; these 
camps, however, are not designed to be permanent. Families relocated to 
these transit camps have no right to stay there and are subject to 
relocation whenever the government wants. Apparently in peace villages, 
where there is a right of tenure, the government may issue a permit for 
a multi-purpose center, which will then be used as a church and for 
other neighborhood activities. These are not permits for churches per 
se and the buildings may not have religious symbols on the outside, 
although inside such symbols are permitted.
    Churches not only conduct religious services. They also try to 
provide social services for the poor. These efforts are viewed with 
extreme suspicion by government officials, who attempt to obstruct 
these activities in a variety of ways. These activities are religious 
practices falling within the freedom set forth in Article 18 (1) of the 
ICCPR, the ``freedom, either individually or in community with others 
and in public or private, to manifest his religion or belief in 
worship, observance, practice and teaching,'' and spelled out in more 
detail in the Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, Article 
6, specifying that freedom of religion includes the right to maintain 
charitable or humanitarian institutions, to acquire materials related 
to religious rights, to teach, to train leaders, and other activities.
    Churches attempt to provide services to the very poor displaced 
families who live in these transit camps and peace villages. Often the 
communities want schools for their children.
Church Schools and Teaching of Religion in Government Schools
    The government's claim that ``the teaching of Christianity in 
government schools in the north has, for the first time, been made 
available by the current government so as to give equal rights to the 
Christian minority,'' \214\ is not accurate. Teaching Christianity to 
Christians in government schools in the north has been part of the 
education curriculum since before independence (1956).\215\
---------------------------------------------------------------------------
    \214\ Ibid., p. 23, para. 84.
    \215\ This section is based on conversations with clergy inside and 
outside Sudan, several of whom have worked in educational institutions 
as teachers and administrators.
---------------------------------------------------------------------------
    To graduate from secondary schools, students must pass a religion 
examination. The Christians must take an examination about Christianity 
and the Muslims about Islam. Those who practice traditional African 
religions, however, are not examined on their religion or any other. 
Instead, the government has issued a simplified paper on Islam for 
them, and they are required to do little more than sign their names in 
Arabic. Christian clergy believe that these students are registered as 
Muslims rather than as believers in any traditional African religion.
    Christian churches must provide teachers on Christianity to the 
government schools. These teachers must be certified by the government 
to teach a subject in addition to Christianity, and the language of 
instruction must be Arabic. For many Christians, especially those 
brought up in the south, Arabic is not their native language. The 
difficulty of mastering Arabic has meant that there has been a lack of 
qualified teachers for Christian instruction in the government schools. 
The Catholic church started a teacher training college to meet these 
requirements, including Arabic-language instruction, with a four year 
program and 130-150 students. The first class is to graduate in April 
1996, but the government still has not certified this school as a 
teacher training school.
    Christian students are at a disadvantage in the educational system 
because of the shortage of teachers in Christianity. In some classes, 
there are few Christian students and the church makes an effort to 
bring them to a church on Fridays and Sundays and group them together 
with others scattered in other schools for instruction. Religion is not 
an optional subject; it is mandatory so that the Christians who do not 
receive adequate instruction will not graduate. This system also leaves 
no alternative for those who have another belief.
    The government maintains that ``the religious tolerance of the 
Government has resulted in the availability of a large number of very 
prestigious church-run schools in Khartoum and other towns.'' \216\ 
While churches are permitted to run church schools, most are not 
``prestigious'' schools. The prestigious church-run schools, with high 
academic standards, admit many Muslim children whose parents resisted a 
1994 government decree requiring all private schools to use Arabic as 
the language of instruction.\217\
---------------------------------------------------------------------------
    \216\ Ibid., p. 23, para. 84. In 1957, a year after independence, 
the government nationalized all missionary schools in the south while 
allowing private schools in the north, including Christian missionary 
schools, to continue. Deng, War of Visions, p. 138.
    \217\ Human Rights Watch/Africa interview, New York, March 1996.
---------------------------------------------------------------------------
    The need for basic instruction (reading, writing and mathematics) 
is most keen at lower levels. According to those who worked in the Dar 
Es Salaam transit camp for the displaced, most of the Christian 
children there, who are of southern origin, do not go to the government 
schools because of government-sponsored Islamization through the 
schools, despite the formal provision for classes in Christianity. They 
say there is strong pressure on the children to study the Qur'an and 
pressure on the girls to wear Islamic women's dress. Much depends on 
the person in charge of the school.\218\ Another barrier for displaced 
children at government schools, according to a recent study, is 
language. Many of the children do not know Arabic well enough (or at 
all) to participate in government schools, where the ministry of 
education insists on the use of Arabic as the language of instruction 
in basic education.\219\
---------------------------------------------------------------------------
    \218\ Human Rights Watch/Africa interview, Khartoum, May 21, 1995; 
telephone interview, New York, April 1996.
    \219\ Ushari Ahmad Mahmud and Muhammad Zaayid Baraka, ``Basic 
Education for Internally Displaced Children,'' International 
Consultative Forum on Education for All, Country Case Studies: Sudan, 
Khartoum, November 1995, pp. 19-21.
---------------------------------------------------------------------------
    Christian churches have sponsored schools in the transit camps, but 
not enough to fill the gap. For many reasons, only 25 percent of 
school-aged children are enrolled in any school in the displaced 
transit camps, according to the same survey. In government schools, 
among the displaced school children, the enrollment of girls is half 
that of boys, and the teacher-student ration is 1:47.\220\
---------------------------------------------------------------------------
    \220\ Ibid., p. 18.
---------------------------------------------------------------------------
    One church-run school was registered with the government as a 
temporary structure in Dar Es Salaam transit camp. Its Christian 
sponsors applied to the government for permission to build a permanent 
and larger (sixteen-room) structure. The popular committee, \221\ whose 
approval was necessary, placed obstacles in the way of this 
improvement, complaining that the Christian leaders were ``against 
Muslims'' (although the school employed five Muslim teachers and ten 
Christians). The permission for a permanent structure was not issued, 
to the knowledge of Human Rights Watch. Church sources say that Dawa 
Islamiya, an Islamic NGO, has established many schools in these camps, 
and has easily secured the necessary government permits to do so.
---------------------------------------------------------------------------
    \221\ Dar Es Salaam has thirty-three blocks and each has its own 
popular committee. For a description of the role of the popular 
committees in house destruction and forced relocation, see Chapter VII, 
Internally Displaced and Squatters.
---------------------------------------------------------------------------
    Sometimes local officials give way in the face of protest, however, 
but permission to build schools is never easy nor routine for churches. 
In another block of Dar Es Salaam, where permission for a church school 
had been granted, two Muslim families reportedly complained to the 
popular committee which in turn told the church it could not build the 
school. In this case, however, Christian families complained that they 
had rights, too, and the popular committee withdrew its objections to 
the school. The ministry of education said that the church could 
continue with its activities with the proviso that no foreigners be 
allowed to do anything with the church except for prayers. This was 
apparently aimed at a foreign-born priest working in the area.\222\
---------------------------------------------------------------------------
    \222\ Human Rights Watch/Africa interview, Khartoum, May 21, 1995.
---------------------------------------------------------------------------
    In several disputes about the right to run schools in other blocks, 
the government ordered the church sponsors to close schools in Dar Es 
Salaam transit camp twice in the months between February and May 1995, 
on the grounds that the schools were not used properly. One school in 
question admittedly was used also for religious and community services, 
meetings and adult education, because the government would not give 
permission to build a church there.
    On Palm Sunday of 1995 some 1,000 people attended mass held at this 
school. One of the priests was summoned to the popular committee soon 
afterward. Two police, two security officials and eleven popular 
committee members met with him and ordered him to close the school. A 
religious discussion ensued about the duty to provide food and housing 
for all people (the church maintains it distributes these to all 
regardless of religion). The church declined to close the school.\223\
---------------------------------------------------------------------------
    \223\ Ibid.
---------------------------------------------------------------------------
    Government efforts to confiscate food churches' relief arms used 
for school children and to incorporate the teachers from the Christian-
run schools into government schools were started in 1994 and abandoned 
in 1995 for lack of government funding. A brief period of official 
recognition of the Christian shantytown schools ensued, followed by 
destruction of the shantytowns and refusal of permission to build 
schools in some transit camps.\224\
---------------------------------------------------------------------------
    \224\ Ibid.
---------------------------------------------------------------------------
Religion in Prisons
    In an effort directed at prisoner rehabilitation through conversion 
to Islam, the Law for the Organization of Prisoners and Treatment of 
Inmates of 1992, Section 5, Article 25, provides for the early release 
of prison inmates who memorize the Qur'an. A religious commission 
convened by the administrator of prisons in consultation with the 
ministry of religious endowment (which oversees religious affairs) 
tests the prisoners and recommends those who pass for early release. No 
comparable legislation has been passed based on religious instruction 
other than in Islam, providing a powerful inducement to non-Muslim 
prisoners to abandon their religion. In a custodial environment, such 
programs place the weight of the state so firmly in favor of conversion 
to Islam that it is coercive, in violation of Article 18 (2) of the 
ICCPR that no one shall be subject to coercion which would impair his 
or her freedom to have a religion or belief of his or her own choice. 
Furthermore, this release program discriminates against those who 
cannot read or speak Arabic, in violation of Article 26 of the ICCPR in 
that it does not provide alternatives to the many prisoners, 
particularly women, not conversant in Arabic.
    At Omdurman Prison for Women, the women's branch of Shabab Al 
Wattan (Organization of the Youth of the Homeland, an NIF mass 
organization) runs a program of spiritual orientation and social 
rehabilitation of women prisoners. Rehabilitation is provided in the 
formal instruction in Islam, although the vast majority of inmates are 
of southern and non-Muslim origin. Christian clergy ministering to 
prisoners however, report that they are left free to hold services and 
teach church doctrine in prisons.\225\ In Kober Prison there is a 
church building.
---------------------------------------------------------------------------
    \225\ Human Rights Watch/Africa interview, telephone, New York, 
April 25, 1996.
---------------------------------------------------------------------------
Muslims
    Not only does the government interfere with or deny the religious 
freedoms of non-Muslims, it also clamps down on Muslim groups it 
considers as too critical or ideologically out of line with its 
policies. Relations between the National Islamic Front, which controls 
the government, and various Islamic religious sects and groups have not 
always been smooth. Some imams (prayer leaders), who accede to this 
position through a consensus of community members, occasionally voice 
criticism of the government. Their religious obligation of advising 
their flock on worldly affairs, as well as on spiritual matters, leads 
some to criticize the performance of the rulers--for instance, over the 
high cost of living and the deterioration of public services. Other 
imams discuss issues of doctrine on which they disagree with government 
policies, such as the justification for jihad in south, and the 
question of whether this is a true or genuine Islamic government.
    The response of the government to this criticism and challenge of 
legitimacy has been two-pronged. Where the opposition to the government 
is a matter of principle and doctrine, the government has unleashed its 
repressive forces against rebellious groups and imams. Groups so 
targeted are the Ansar, the Muslim Brothers and the conservative Ansar 
al Sunna. These groups have critical attitudes towards the government, 
from outright opposition to selective independent-minded criticism, 
with an occasional show of support.
    The Ansar religious sect led by the Mahdi family constitutes the 
popular base of the Umma Party, which like all other political parties 
has been banned since the current government seized power in 1989. A 
council of religious scholars and dignitaries, the Council for Ansar 
Affairs (Hai'at Shi'oun al Ansar ) oversees the affairs of the sect and 
the community of followers, while an executive committee runs the 
affairs of the party. Ex-Prime Minister Sadiq al Mahdi, who heads the 
Umma Party, lives in Sudan and advocates an attitude of ``civil 
opposition'' by peaceful means, although his Umma Party is a member of 
the National Democratic Alliance, the umbrella group of (exiled) 
opposition political parties and armed groups.
    The government took control of the holiest shrine of the Ansar 
order, the Omdurman religious complex of the tomb of Mohamed Ahmed al 
Mahdi, on May 22, 1993, \226\ and has not returned it to date. It 
appointed an imam to lead the prayers there, and said the move was 
dictated by the need to preserve the national character of the shrine, 
which it claimed was threatened by the way the Ansar used it. The Ansar 
moved their communal prayers and other community activities to the 
smaller Wad Noubawi mosque.
---------------------------------------------------------------------------
    \226\ Lawyers Committee for Human Rights, Critique: Review of the 
U.S. Department of State's Country Reports on Human Rights Practices, 
1993 (New York: Lawyers Committee for Human Rights, 1994), p. 347.
---------------------------------------------------------------------------
    Sadiq al Mahdi has been detained several times, often following 
homilies critical of the government, delivered as prayer leader of the 
Ansar at the occasion of Al Eid religious festivities. The crackdown on 
the Ansar in May of 1995 involved his detention and the detentions of 
other prominent Ansar leaders, such as Imam Abdalla Barakat and Faki 
Abdalla Ishag, the leader of the cluster of Qur'anic schools attached 
to Wad Noubawi mosque. Elderly Ansar patriarchs who submitted a 
memorandum of protest against the May 1995 detention of Sadiq al Mahdi 
were themselves detained in turn.\227\ Another frequent detainee is 
Mohamed al Mahdi, the main imam of Wad Noubawi mosque, a well-respected 
religious leader. One of his favorite themes is religious justice and 
tolerance, against which he regularly measures government practices. 
The security apparatus detains him--just as regularly--for up to 
several months at a time for critical opinions expressed in 
sermons.\228\ Such detentions of religious leaders for their opinions, 
spiritual or political, constitute a serious violation of their 
freedoms of religion and expression.
---------------------------------------------------------------------------
    \227\ Human Rights Watch/Africa interview, New York, March 1996.
    \228\ Ibid.
---------------------------------------------------------------------------
    Ansar al Sunna is a religious group that advocates the strict 
interpretation of Islam, stripped of all the manifestations of what it 
considers popular Islam, such as sufism. Its simple version of Islam is 
akin to that of the Wahabi, the influential and dominant religious 
doctrine in Saudi Arabia. The Sudanese Ansar al Sunna has maintained a 
longstanding friendship with the Saudis and has been the recipient of 
substantial Saudi funds solicited to sponsor the spread of Islam in 
Sudan and neighboring African countries. Ansar al Surma channeled these 
resources into the construction of nearly 400 mosques in Sudan alone, 
and into the sustenance of other traditional charitable and educational 
Islamic works, such as Islamic schools and orphanages.
    Ansar al Surma traditionally did not have a significant political 
profile in Sudan, but vehemently opposed the NIF on doctrinal grounds, 
a rivalry that has been regularly reflected in reciprocal verbal and 
written attacks in mosques and newspapers. For instance, Ansar al Surma 
challenges the official government policy that considers war in 
southern Sudan a jihad, a holy war. They argue that for it to qualify 
as such, the war should have as sole objective the total submission of 
all Southerners to Islam. They also dispute the Islamic credentials of 
the government, citing such government practices as the recruitment of 
women in the official PDF militia as evidence of a conduct contrary to 
Islamic teachings.\229\
---------------------------------------------------------------------------
    \229\ Ibid.
---------------------------------------------------------------------------
    Perhaps as a result of this rivalry, the government undertook, in 
mid-1993, a systematic campaign of intimidation and harassment designed 
to lead to the replacement of imams in mosques that Ansar al Sunna 
controlled. Communities in the neighborhoods of Al Thawra and Al Sahafa 
in Khartoum defied weeks of intimidation as truck-loads of riot police 
parked in front of their Ansar al Sunna mosques during successive 
Friday prayers to intimidate them into accepting government-appointed 
imams.\230\
---------------------------------------------------------------------------
    \230\ Lawyers Committee for Human Rights, 1993 Critique, p. 347.
---------------------------------------------------------------------------
    During one phase of this campaign, security agents made a night 
visit to the house of the imam of the main Ansar al Sunna mosque, Shams 
El Din, in the populous neighborhood of the Seventh Quarter of Al 
Thawra. They threatened him with arrest if he did not leave his 
position. He replied that it was up to the community of worshipers to 
choose their imam. Around the same period, they kidnaped and beat up 
his mu'azzin, who calls the faithful to prayer. The government managed 
to remove the imam from his position but his followers in the 
neighborhood boycotted prayers called by the new government-installed 
imam. The government ultimately abandoned its campaign.\231\
---------------------------------------------------------------------------
    \231\ Human Rights Watch/Africa interview, New York, March 1996.
---------------------------------------------------------------------------
    On Friday February 4, 1994, three armed men, one Yemeni and two 
Sudanese, machine-gunned worshipers while they were conducting the 
communal prayer at the main Ansar al Sunna Mosque in Al Thawra. The 
leader of this Ansar al Sunna congregation, Sheikh Abu Zeid, who 
usually leads the prayer, was by chance not there. Followers of Ansar 
al Sunna and ordinary people praying there that day suffered a terrible 
loss in what was widely believed to be a failed assassination attempt: 
sixteen were killed, including children, and nineteen others were 
seriously injured.\232\
---------------------------------------------------------------------------
    \232\ Report from Khartoum, March 4, 1994.
---------------------------------------------------------------------------
    The attackers escaped unharmed but were captured by security forces 
the next day, ostensibly while seeking to enter or take refuge in the 
residence of Ussama Ben Lauden, a Saudi dissident deprived of his Saudi 
citizenship, who is a backer of the Sudan government and resides in 
Khartoum.\233\ The two Sudanese were killed and the Yemeni seriously 
injured.\234\
---------------------------------------------------------------------------
    \233\ See Scott Macleod, ``The Paladin of Jihad,'' Time Magazine 
(New York), May 6, 1996.
    \234\ Human Rights Watch/Africa interview, New York, March 1996.
---------------------------------------------------------------------------
    This tragedy remains unexplained. A very speedy trial was held for 
the surviving gunman and an accomplice who was alleged to have 
participated in the preparations but did not take part in the attacks. 
The court found the alleged ring leader guilty, and condemned him to 
death. He was executed on September 19, 1994.\235\
---------------------------------------------------------------------------
    \235\ See Chapter V.
---------------------------------------------------------------------------
    The Muslim Brotherhood, another small religious group that focuses 
on doctrinal issues, breaking away from the NIF in repudiation of what 
it considered the NIF's political and other worldly pursuits, also has 
been targeted. Two or three outspoken leaders of the group lead the 
Friday prayer in their main stronghold, the al Sababi mosque in 
Khartoum North. Security agents monitor this event on a regular basis. 
They have summoned Professor Al Hibir Youssif Nour Al Dai'eim, one of 
the leaders of the group, several times to appear in their offices for 
days at length, a form of harassment amounting to detention when 
prolonged.\236\
---------------------------------------------------------------------------
    \236\ Human Rights Watch/Africa interview, New York, March, 1996.
---------------------------------------------------------------------------
    The second prong of the government's response to Islamic criticism 
is to implement a systematic program to bring all prayer leaders under 
one broad umbrella, an association of imams, and coordinate their 
weekly Friday sermons. Attendance of Friday mid-day prayer, a religious 
duty for Muslims, is the occasion for prayer leaders to deliver their 
homilies to an attentive and well-disposed public. Members of the 
public at the same time may deliver their own sermons or comment on 
worldly affairs to their fellow worshipers. The association is intended 
to coordinate the themes of the weekly sermons, so that one voice would 
be heard in all mosques. The government-controlled radio and television 
then carry this concerted message to the population through well-
prepared but obviously selective coverage.\237\
---------------------------------------------------------------------------
    \237\ Ibid.
</pre></body></html>
